<html>
<title> - THE FCC'S UWB PROCEEDING: AN EXAMINATION OF THE GOVERNMENT'S SPECTRUM MANAGEMENT PROCESS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE FCC'S UWB PROCEEDING: AN EXAMINATION OF THE GOVERNMENT'S SPECTRUM 
                           MANAGEMENT PROCESS
=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2002

                               __________

                           Serial No. 107-114

                               __________

       Printed for the use of the Committee on Energy and Commerce









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                       U. S. GOVERNMENT PRINTING OFFICE
80-674                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    BART GORDON, Tennessee
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      ANNA G. ESHOO, California
PAUL E. GILLMOR, Ohio                ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          GENE GREEN, Texas
NATHAN DEAL, Georgia                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           DIANA DeGETTE, Colorado
CHARLES ``CHIP'' PICKERING,          JANE HARMAN, California
Mississippi                          RICK BOUCHER, Virginia
VITO FOSSELLA, New York              SHERROD BROWN, Ohio
ROY BLUNT, Missouri                  TOM SAWYER, Ohio
TOM DAVIS, Virginia                  JOHN D. DINGELL, Michigan,
ROBERT L. EHRLICH, Jr., Maryland       (Ex Officio)
CHARLES F. BASS, New Hampshire
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)











                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Gallagher, Michael D., Deputy Assistant Secretary, National 
      Telecommunications and Information Administration..........     9
    Johnson, Dennis I., President, Geophysical Survey Systems, 
      Inc........................................................    45
    Knapp, Julius P., Deputy Chief, Office of Engineering and 
      Technology, Federal Communications Commission..............    31
    Petroff, Ralph G., Chief Executive Officer, Time Domain 
      Corporation................................................    35
    Price, Steven, Deputy Assistant Secretary for Spectrum, 
      Space, Sensors and C3 Policy, U.S. Department of Defense...    15
    Shane, Jeffrey N., Associate Deputy Secretary, Department of 
      Transportation.............................................    23
Material submitted for the record by:
    Alongi, Anthony J., President, Penetrader Corporation, letter 
      dated June 3, 2002 to Hon. Fred Upton......................    70
    Nowakowski, Richard C., Coordinator of Special Projects, City 
      of Chicago, letter dated May 30, 2002 to Hon. Fred Upton...    71

                                 (iii)









 THE FCC'S UWB PROCEEDING: AN EXAMINATION OF THE GOVERNMENT'S SPECTRUM 
                           MANAGEMENT PROCESS

                              ----------                              


                        WEDNESDAY, JUNE 5, 2002

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Stearns, Shimkus, 
Davis, Bass, Terry, Tauzin (ex officio), Markey, McCarthy, 
DeGette, and Sawyer.
    Staff present: Howard Waltzman, majority counsel; Will 
Nordwind, policy coordinator; Brendan Williams, professional 
staff; Hollyn Kidd, legislative clerk; Andy Levin, minority 
counsel; and Jessica McNiece, minority staff assistant.
    Mr. Upton. Well, good morning, everyone. Sorry we are late. 
We had a vote, pressing business on the House floor, a picture. 
Had to say cheeseburger a few times. We also have a deadline 
for another subcommittee using this room, so we are going to 
get started.
    Today's hearing is entitled, ``The FCC's Ultrawideband 
Proceeding: An Examination of the Government Spectrum 
Management Policy.'' And while to the casual observer the title 
of today's hearing may sound esoteric and academic, let me 
suggest why it is not. Ultrawideband, otherwise known as UWB, 
is an exciting new technology with many promising applications 
for Americans across the country as well as public safety 
officials.
    One need only consider the three categories of UWB 
applications to see. First, there are imaging systems, 
including ground penetrating radar systems, which can help 
public safety officials detect images of buried objects; wall 
imaging systems, which can help public safety officials or 
construction companies detect the location of objects obviously 
contained in a wall; through-the-wall imaging systems, again 
help public safety officials; surveillance systems, which will 
help public safety officials detect intrusions into a secure 
perimeter; and medical systems, which will help doctors see 
inside an individual's body. In fact, right after September 11, 
through-the-wall UWB systems were deployed at Ground Zero and 
the Pentagon to help with the rescue efforts.
    Second, there are vehicular radar systems, which will help 
drivers detect the locations of objects in their vehicle, 
enabling vehicles to automatically slow down or stop to avoid 
collisions in pretension seatbelts. Third, there are 
communications and measurement systems, which will enable 
wireless high-speed home and business networking devices and 
storage tank measurements.
    Clearly, UWB has many exciting potential applications for 
public safety and American consumers, and since UWB devices 
employ very narrow or short-duration impulses that result in a 
very wide-band transmission bandwidth, they certainly have the 
potential with appropriate technical standards of operating 
using spectrum occupied by existing radio services without 
causing interference; therefore, permitting scarce spectrum 
resources to be used more efficiently.
    So why are we here today? Two reasons: First, we want to 
specifically examine the FCC's UWB order released on April 22. 
I would note that the FCC indicates through its order that 
based on NTIA's recommendation, it was proceeding cautiously 
and that it was concerned that the standards it was adopting 
may be overprotective and could unnecessarily constrain the 
development of UWB technology.
    Accordingly, the FCC announced that it would review the UWB 
standards within the next 6 to 12 months and issue a further 
rulemaking to explore more flexible, technical standards and to 
address additional types of UWB operations and technologies. We 
will still want to know why the FCC feels the way that it does 
and what the NTIA's response is to those feelings.
    Second, we are here today to use the UWB proceedings as a 
case study to examine how our Nation's spectrum is managed and 
to inquire as to whether that system of management with its 
bifurcated division of responsibility between the NTIA and FCC 
best serves the needs of the 21st century technology. Using the 
UWB case study, we should explore whether there is a better way 
to manage our spectrum.
    Chairman Tauzin announced that he, along with myself, Mr. 
Markey, Mr. Dingell and other concerned members of the 
committee, would begin to focus on spectrum management 
questions through the creation of a Spectrum Management Task 
Force, and today's hearing certainly will form the task force 
examination.
    Without a doubt, the UWB proceedings was controversial. The 
issues were complex, the stakes were high. Notwithstanding 
that, I want to particularly recognize the efforts of the 
Commerce Department's Deputy Assistant Secretary Michael 
Gallagher and the FCC's Deputy Bureau Chief Julius Knapp for 
all of the sweat equity, which they and their colleagues 
invested in the process, all under enormous pressure. And I 
particularly want to tip my hat to them for striking the 
balance which will enable vehicular radar systems to be 
deployed because I am convinced that these systems will save 
lives on America's highways and byways. I am pleased that they 
are here to testify along with the rest of our witnesses. I 
look forward to that, and I yield for an opening statement to 
my friend and colleague from Ohio, Mr. Sawyer.
    Mr. Sawyer. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing. There are a number of questions 
that we share, and you covered most of them in your opening 
statement. The innovation such as ground penetrating radar and 
through-the-wall imaging systems, as well as the automotive 
applications, are very substantial. They are important not only 
in terms of military applications but in terms of public safety 
and in a lot of applications that would have commercial 
interest. All of them deserve our careful attention today, and 
that is why this hearing is important.
    I would simply observe, however, that in addition to the 
military and public safety applications, it seems to me that 
electronic devices that have come into uses in both of those 
fields have not been far behind in coming into application in 
consumer settings. And it seems to me that if we are to respect 
one another's sense of privacy, that we need to take care with 
regard to those applications as well as those that you have 
mentioned.
    With that, Mr. Chairman, I will submit my opening statement 
for the record and yield back the balance of my time.
    Mr. Upton. Thank you. I would announce that I will 
obviously allow all members to include their opening statements 
as part of the record and yield at this time to the chairman of 
the full committee, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman. I want to thank 
you for convening this hearing today. I commend you for 
tackling this cutting-edge, complex telecommunications issue. 
The manner in which ultrawideband technology is fostered or 
stifled by government policy has huge implications, both for 
future technologies and for our Nation's spectrum management 
process, as the chairman pointed out.
    Ultrawideband is an exciting new technology that has many 
promising applications. It has fire and rescue applications, it 
has military applications, it has vehicular safety 
applications, it has huge telecommunications applications, it 
has all sorts of commercial applications. And the FCC's recent 
ultrawideband decision can be called a major step, but it can 
also be called very much of a baby step.
    The FCC's ultrawideband rulemaking was a hotly contested 
and contentious proceeding. One could argue that it accurately 
reflected the give and take that we should expect when any new 
technology comes along that defies the rigid confines in which 
we have previously categorized energy emissions. But that's not 
quite the way I see it.
    I watched this proceeding with more than a small degree of 
horror. I watched certain government bureaucrats and certain 
industries try their absolute best to stifle this new 
technology. Ultrawideband technology terrified some people 
because it was different. Whether it was out of a competitive 
concern or because technology created intentional emissions 
where none had previously been encountered, ultrawideband has 
been met with the fiercest resistance of any technology in 
recent memory.
    This leaves us to evaluate where we are now. We have an FCC 
order that permits a limited deployment of this new technology. 
The Commission itself acknowledged just how conservative an 
approach it was taking. ``We are proceeding cautiously in 
authorizing UWB technology, based in large measure on standards 
that the National Telecommunications and Information 
Administration found to be necessary to protect against 
interference to vital Federal Government operations.'' The 
Commission also stated, ``We are concerned that the standards 
we are adopting may be overprotective and could unnecessarily 
constrain the development of UWB technology.''
    The FCC had lots of conflicting data upon which to draw its 
conclusions. NTIA and other agencies produced mountains of data 
detailing the potential interference that could be caused by 
ultrawideband devices. And ultrawideband developers countered 
with mountains of data regarding why ultrawideband devices will 
not cause harmful interference.
    Now, hopefully, we can get to the bottom of the 
interference debate. The FCC will conduct its own tests, and 
conduct them on real devices, not by formulating hypothetical 
models. I hope, during the next 6 to 12 months, I hope that 
during the next 6 to 12 months the FCC is able to conduct 
enough real-world testing so that we have solid, real-world 
evidence as to whether ultrawideband creates harmful 
interference in the restricted bands.
    I don't want military operations to be interfered with, 
none of us do, and I don't want planes to fall out of the sky; 
of course, none of us do. But I want real-world evidence that 
tells us whether ultrawideband devices, on a stand-alone or 
cumulative basis, could cause these things to occur.
    I want to make one final comment about the implications of 
this proceeding on the spectrum management process. The way 
this proceeding was conducted makes me, and I hope other 
members, very nervous about the current state of how we manage 
spectrum. NTIA determined the outcome of this proceeding. Let 
there be no doubt about it, NTIA determined the outcome of this 
proceeding, not the FCC. The FCC's order is pretty clear about 
that. The Commission adopted emissions limits based on levels 
with which NTIA was comfortable. And the NTIA, of course, 
manages spectrum for the Federal Government, but the FCC is 
supposed to set the rules for commercial devices, even those 
that may intentionally emit in the restricted bands. The FCC is 
supposed to coordinate with the NTIA regarding emissions from 
commercial entities in the restricted bands.
    But I wonder, and I look forward to testimony regarding, 
whether NTIA's coordination role was a lot more than mere 
coordination in this proceeding. And if it was, what are the 
implications of the interaction between the FCC and the NTIA 
for new technologies that might also intentionally emit energy 
in the restricted bands or somehow defy current standards in 
some other way that we can't imagine today?
    Sound spectrum management involves a balancing of 
government and non-governmental interests. While balancing 
these interests always involves policy issues, good spectrum 
management requires that sound policy be supported by sound 
engineering. I don't think that necessarily happened this time.
    And I look forward to the FCC's ultrawideband testing, and 
I hope it demonstrates that ultrawideband technology can 
flourish without causing harmful interference. This technology 
is simply too promising, has too many incredibly important 
applications to stifle it based upon unfounded and unproven 
concerns. We will see what happens in the next 6 to 12 months, 
and I look forward to the testimony today. Thank you, Mr. 
Chairman.
    Mr. Upton. Recognize Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. Thank you for having 
the hearing today. Like the chairman of the full committee 
mentioned, I really do look forward to hearing how these 
devices can come to the marketplace without interfering with 
existing cell phone spectrum and global positioning systems.
    For example, Geo Technology is a consulting company which 
operates in my district, and it uses ground penetrating radar 
to detect cracks under roads or locate ruptured pipelines 
without digging. This company has been using GPR technology to 
advise government road construction contractors where highway 
repairs are needed, but the FCC order would not allow Geo 
Technology or other consulting companies to continue the use of 
GPR. Since 1987, Geo Technology has used ground penetrating 
radar and global positioning systems side by side without any 
interference. The FCC has promised to revisit the order within 
a year of this enactment, and I hope to see changes to allow 
GPR consultants to continue their important work.
    I agree with Mr. Tauzin's 6 months to 12 months, as he 
emphasized, would be a good timetable for the FCC to use its 
own real-world data rather than that of theoretical models to 
determine with accuracy any interference effects of UWB. The 
public safety and commercial impact of this technology has the 
potential to be amazing, and I hope the regulatory barriers do 
not prevent it from saving lives.
    UWB has great potential. We must ensure that its 
development proceeds without interfering with existing 
technologies that companies have paid billions for use of 
exclusive uses spectrum. So I look forward to the roll-out of 
these defense and consumer application as soon as possible, and 
I am very grateful to the experts who have joined us today to 
help us sort through this very important technology.
    I will put the formal remarks in the record, Mr. Chairman, 
and yield back.
    [The prepared statement of Hon. Karen McCarthy follows:]
Prepared Statement of Hon. Karen McCarthy, a Representative in Congress 
                       from the State of Missouri
    Thank you Mr. Chairman and Ranking Member Markey for holding this 
hearing on the ultra wideband approval process. Ultra wideband has the 
potential to bring to market revolutionary technology previously only 
imaginable in science fiction works. With wideband high speed, low 
power devices, police officers and firemen can look through walls to 
assess dangers within, while cars have the option to speed up and slow 
down automatically if a crash is imminent. Like the Chairman, I look 
forward to hearing how government agencies can work together to permit 
these devices to enter marketplace without interfering with existing 
cell phone spectrum and global positioning systems (GPS).
    UWB will no doubt save countless lives in the future through use of 
technology that can detect a human body or the smallest amount of 
movement under rubble or through the wall of a building. I am pleased 
to see that several companies, including Time Domain, which is 
represented here today, are ready to fill this public safety void.
    I look forward to the results of the FCC tests and their follow up 
report within the next six to twelve months to determine if UWB causes 
harmful interference, and if UWB rollout should be expanded to 
different power levels. The FCC's use of its own real world data rather 
than that of theoretical models will accurately determine interference 
effects of UWB. The public safety and commercial impact of this 
technology has the potential to be revolutionary, and I hope that the 
FCC's regulatory barriers do not prevent UWB from saving lives.
    Geotechnology, a consulting company which operates in my district, 
uses ground penetrating radar (GPR) to detect cracks under roads or 
locate ruptured pipelines without digging. This company has been using 
GPR technology to advise government road construction contractors where 
highway repairs are needed, but the FCC order would not allow 
Geotechnology or other consulting companies to continue use of GPR 
because consultants are not specifically mentioned in the order. Since 
1987, Geotechnology has used ground penetrating radar and global 
positioning systems side by side without any interference. I hope the 
FCC makes needed changes to allow GPR consultants to continue their 
important work.
    I understand that the NTIA made a very conservative recommendation 
in part because the Department of Defense was worried about 
interference. However, the Department of Defense is eager to use UWB 
for military applications, and I would like to know how their planes 
and aircraft radar will work if used in conjunction with UWB.
    The FCC has followed the conservative recommendation made by the 
NTIA, but I look forward to hearing how these agencies will work 
together to determine the effects of UWB and promote its rollout in the 
future, as long as there is no interference with existing spectrum 
users.
    UWB has great potential to save lives and make life easier, and we 
must ensure that its development proceeds without interfering with 
existing technologies that companies have paid billions for exclusive 
use of spectrum. I look forward to the rollout of these defense and 
consumer applications as soon as possible.
    Thank you Mr. Chairman. I yield back the balance of my time.

    Mr. Upton. Thank you. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman. I want to thank you 
for this hearing. Ultrawideband technology holds great promise, 
as everyone has said, for public safety and a whole host of 
commercial applications that would save many lives. One popular 
example is cited in collision detectors in cars, and I know the 
chairman has mentioned that numerous times in hearings we had 
when he was the chairman of this committee, which would also 
detonate airbags and actually help drivers avoid accidents.
    Another is the ability to see underneath building rubble 
after a disaster and through walls of a burning building to 
detect in order to save survivors. However, ultrawideband 
technology sends low-powered pulses across many bands. It has 
raised some concern that it might cause harmful interference to 
spectrum bands used by the Department of Defense, Department of 
Transportation and GPS community. To my knowledge, the testing 
has shown that the emission levels are low and harmful 
interference is not an issue. Nevertheless, the FCC issued a 
very conservative ruling on ultrawideband with a promise to 
revisit the issue in the next 6 to 12 months.
    Now, this is the high-tech committee, I think, of the whole 
Capitol Hill and especially the House, but we all bring our own 
different perspectives, and as a former active Army officer and 
a Reservist, I do carry some of the concerns of the Department 
of Defense in this debate. I do agree with the chairman that we 
need real science to help us clear up the confusion over the 
use of this technology, and I hope we see that to the benefit 
of all, the commercial community and our men and women who are 
in uniform fighting to protect us all.
    I also have continued concerns over just the whole 
examination of our spectrum management process, and I think the 
chairman mentioned this also. And I am not sure if our process 
works or is fair and if it hinders the development of new 
technology and can we improve it? I have had my battles with 
the NTIA, and I look forward to more battles in the future.
    Thank you, Mr. Chairman, for holding this hearing this 
morning and for your oversight and leadership on this issue. I 
look forward to hearing from the distinguished panel, and I 
yield back my time.
    Mr. Upton. Thank you. Ms. DeGette?
    Ms. DeGette. Mr. Chairman, in the hopes of hearing at least 
a little of the testimony before I have to leave for another 
hearing, I will submit my opening statement for the record.
    Mr. Upton. Terrific.
    Mr. Bass?
    Mr. Bass. Thank you very much, Mr. Chairman. And before I 
begin my formal statement, I want to welcome a constituent of 
mine, Mr. Dennis Johnson, who is on the far right there, 
president of Geophysical Survey Systems in Salem, New 
Hampshire. Good morning, Mr. Johnson, and welcome to the 
hearing.
    Mr. Chairman, I want to thank you for holding this hearing 
today and inviting Mr. Johnson and these other witnesses to 
testify on the FCC's ultrawideband rulemaking, and I look 
forward to beginning our oversight of this spectrum process 
allocation. My interest in this issue began when Mr. Johnson 
first approached me to explain the effect that severely 
restricting the use of high bandwidth but low power ground 
penetrating radars would have on his firm and his clients.
    He explained the enormous public safety and efficiency 
benefits of being able to detect and determine the integrity of 
underground pipes and cables prior to digging and of locating 
sink holes and other structural voids, defects and stresses. 
Indeed, several States, including my State in New Hampshire, 
require the use of GPR or similar technology to determine and 
document the integrity of new bridges, highway overpasses and 
other critical safety uses. And it should be noted that these 
applications, as the name implies, direct their transmission 
into solids, almost always downward and not in a manner likely 
to cause interference.
    It seems that no one disputes the benefits of using 
ultrawideband transmissions for these purposes and the many 
additional purposes that others will describe today, but at 
issue are the questions about interference and the larger 
debate over spectrum allocation. As for interference, I will 
also note that several of the GPR technologies use GPS, global 
positioning satellites, for mapping purposes without any 
apparent problems.
    I appreciate the Commission's cautious approach and their 
deference to NTIA's concerns about government interest in this 
spectrum space. However, I also recognize the enormous benefit 
to State and local governments of sharing the spectrum in such 
a manner that will allow all desired uses. I am also encouraged 
that the Commission has previously announced and am sure, I 
will repeat here, the intent to review the new rules, as my 
distinguished chairman said, and conduct the type of testing 
not done prior to their issuance. I urge that work begin as 
soon as a body of evidence can be formed, and I look forward to 
the testimony and yield back to the chairman.
    Mr. Upton. Thank you. That concludes our opening 
statements. Again, all members will have the opportunity to put 
their opening remarks as part of the record.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Tom Davis, a Representative in Congress from 
                         the State of Virginia
    First, I would like to thank Chairman Upton for calling this 
hearing into the FCC's UWB proceeding. I believe a close examination of 
this process is invaluable to obtaining a roadmap of where spectrum 
management efforts need to go in the future.
    As Time Domain CEO Ralph Petroff states in his testimony, were it 
not for the contracts his company had with the Department of Defense, 
his company would have gone out of business waiting for regulatory 
approval. We cannot allow the promise of future technologies to whither 
on the vine while a regulatory process lumbers on. The 3.5 years it 
took to develop the final UWB rules are a prime example of what to 
avoid in the future. Most companies simply cannot afford to wait that 
long.
    We all know the conflicts between government agencies and private 
industry regarding spectrum use are not going to go away. Rather, as 
demand for spectrum increases, we can expect an increase in the number 
of conflicts that arise. Therefore, there must be an objective, open 
system by which conflicts are resolved, concerns addressed, and policy 
developed. I fully appreciate that national defense and public safety 
issues must be taken into account in spectrum issues. However, I would 
hope the FCC and NTIA would do everything in their power to ensure that 
restrictions deemed necessary were based on sound science. Furthermore, 
we must acknowledge that the government is both the decision-maker 
regarding spectrum as well as a consumer. As we continue our efforts to 
efficiently manage spectrum, we must take care that one consumer--in 
this case government agencies--does not have approval power over FCC 
decisions that apply to all other consumers of spectrum.
    Specifically regarding the FCC's First Report and Order, I was 
happy to have rules at last so we can get on with things. I realize the 
FCC itself feels the rules may be too conservative, but I am encouraged 
by the plans to conduct further review. The lowest-common-denominator 
approach the FCC has taken may not be the right solution--I will be 
eager to see the results by the end of this year and remain hopeful UWB 
applications will be allowed to develop to the greatest extent 
possible.
    Let me close by saying that I appreciate the difficult task both 
the FCC and NTIA have in developing spectrum policy. While it will 
never be possible to please all concerned parties, I would hope the 
focus would be to determine how we can make new technologies and 
applications possible, rather than why we cannot.
                                 ______
                                 
 Prepared Statement of Hon. Eliot Engel, a Representative in Congress 
                       from the State of New York
    Thank you Mr. Chairman for calling this hearing. Few issues, like 
spectrum, are harder to get your arms around. I also want to thank the 
panelist for taking the time to come and testify.
    Looking at how spectrum has develop in the past century, I am 
reminded of the Malthusian dilemma--that the ability of the world 
farmers to grow enough food to feed the population was running out. 
Malthus believed that we would have hordes of hungry people. Luckily, 
at least here in the United States, this has not come to pass as 
Malthus predicted--though I must say that we still have a worldwide 
problem with hunger.
    One can make the same arguments about Spectrum. We have a common 
resource which, due to physics, has limited capacity to carry all the 
signals we would want it to. The explosion of the wireless industry is 
a truly amazing feat. It helped drive the record economic expansion 
during the Clinton Administration.
    What Malthus did not factor into his theory was technological 
improvement. We must not make the same mistake. In fact, Congress and 
the Administration should be actively encouraging the development of 
new technologies that seek to exploit spectrum efficiency.
    The good news is that through improvements in technology, the 
industry has increased the number of transmissions that can fit into 
the same spectrum every year.
    But it is evident that spectrum needs are surpassing the efficiency 
capabilities of today's traditional deployed technologies--new 
technologies that can get more out of the same spectrum are needed to 
provide the advanced wireless services we have heard so much about. We 
must encourage the deployment of technologies that will create more 
wireless services within our finite valuable spectrum.
    Thus, as I have started to look at Ultra Wide Band technologies, I 
am greatly encouraged. I am certainly not an expert at this technology, 
but it seems to me to have great promise in aiding our firefighters, 
police officers, and emergency medical personnel.
    I am quite willing to go slowly on a broad deployment of UWB 
networks. However, as I understand it, technologies such as Ground 
Penetrating Radar have been around for decades and proven invaluable in 
search and rescue operations. Since, this is a proven technology, we 
should seriously consider this in a different vein than broader 
deployment.
    Also, since previously these devices operated under a blanket 
approval, the new FCC rules could actually harm existing companies. I 
have a letter here from a New York company called Penetradar. The 
President of this company writes that ``We are quite concerned with the 
affect that the new rules will have and believe time is critical.'' 
They are concerned that the GPR industry will disappear in the short 
time that it takes the FCC to review these new rules.
    Mr. Chairman, I would ask unanimous consent that the text of the 
letter be entered into the record.
    Thank you Mr. Chairman. I look forward to the question and answer 
segment of our hearing.

    Mr. Upton. At this point, we welcome our witness guests. 
Mr. Michael Gallagher who is the Deputy Assistant Secretary for 
NTIA; Mr. Steven Price, Deputy Assistant Secretary for Spectrum 
at the Department of Defense; Mr. Jeff Shane, Associate Deputy 
Secretary from the Department of Transportation, Mr. Julius 
Knapp, Deputy Chief of Commissions Office of Engineering and 
Technology from the FCC; Mr. Ralph Gregory Petroff, CEO of Time 
Domain Corporation; and Mr. Dennis Johnson, president of 
Geophysical Survey Systems.
    Gentlemen, your full statement will be made part of the 
record, and we would like to have you limit your remarks to 
about 5 minutes. Watch this little timer. And we will be off to 
the races.
    Mr. Gallagher, welcome you first. If you wouldn't mind 
turning that mike on. Terrific.

      STATEMENTS OF MICHAEL D. GALLAGHER, DEPUTY ASSISTANT 
    SECRETARY, NATIONAL TELECOMMUNICATIONS AND INFORMATION 
 ADMINISTRATION; STEVEN PRICE, DEPUTY ASSISTANT SECRETARY FOR 
  SPECTRUM, SPACE, SENSORS AND C3 POLICY, U.S. DEPARTMENT OF 
    DEFENSE; JEFFREY N. SHANE, ASSOCIATE DEPUTY SECRETARY, 
 DEPARTMENT OF TRANSPORTATION; JULIUS P. KNAPP, DEPUTY CHIEF, 
 OFFICE OF ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS 
  COMMISSION; RALPH G. PETROFF, CHIEF EXECUTIVE OFFICER, TIME 
     DOMAIN CORPORATION; AND DENNIS J. JOHNSON, PRESIDENT, 
                GEOPHYSICAL SURVEY SYSTEMS, INC.

    Mr. Gallagher. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Ultrawideband is certainly on the tip of 
everybody's tongue these days, and it is a development I am 
pleased to be here to address and answer questions to. I would 
also like to thank in particular your staff and the staff of 
Mr. Tauzin. Your involvement through your staffs was much 
appreciated and very helpful in getting to the result we 
finally achieved. I would also like to thank all of the 
commissioners, the FCC's technical staff and the technical 
staff of the agencies. It took all of these minds to come 
together, find the answers, and strike the right balance. And 
also it is important to recognize the contribution of the 
commercial spectrum community and the very valuable input and 
analysis that they provided. And, finally, but not to diminish 
their role, I would like to commend the staff work at NTIA that 
went into this project over 3\1/2\ years.
    Ultrawideband, we have heard today, holds great promise. 
The ground penetrating radar applications are already in use. 
Through-the-wall imaging and the applications for public safety 
are very compelling. Vehicular radars hold great promise. There 
are over 41,200 lives lost every year in automobiles, and the 
estimates are that 88 percent of those could be avoided through 
rear-end collision avoidance systems, like ultrawideband. 
Communications devices can have a much greater capacity and use 
much less battery power.
    When we approached ultrawideband at the Department of 
Commerce, we approached with two pillars in mind. Secretary 
Evans and Deputy Secretary Bodman made very clear that it is 
our job to authorize and facilitate the creation of new, world-
leading technologies; our economic security depends on it. 
However, we must also protect critical life and defense systems 
in the process; our national security depends on it. And within 
the scope of those systems, the concerns were very clear about 
weather radar, airport surveillance radar, GPS and passive 
earth-satellite systems, to name a few. Doing one or the other 
is not bold or creative. We had to achieve both, and it took 
leadership from the very highest levels to accomplish the task. 
And that leadership came from the FCC and from our leadership 
at the Department of Commerce, and we were pleased with the 
result.
    Now, one of the primary reasons that there was a strong 
sense of urgency is we face international risk. If the United 
States fails to lead in deploying ultrawideband technology that 
fits our congested spectrum chart, then another country could 
develop ultrawideband technology that would not be as 
respectful of our systems, our critical life systems, our 
defense systems as what ultimately was born.
    What is next? Testing. We need more facts. We need more 
peer-reviewed comprehensive real data, and we are looking 
forward to the development of that data with the Commission and 
with the private sector. Second, truth. Facts, not theory, 
should guide our decisions, and in that respect, NTIA performed 
six technical reports and three analyses with test protocols 
open to public review. We need to continue to build on that 
data in order to come up with the absolute best balance over 
time for ultrawideband. Finally is timeliness. We need to 
accomplish ultrawideband deployment and any modifications, if 
necessary, at the right time, when we have the additional real-
world data, when we have a penetration more extensive market 
number of devices, and that will lead us to truth and to the 
right answer.
    I am very pleased, Mr. Chairman, that we were able to adopt 
a regulatory framework that isn't just vertical but in fact 
looked horizontal. Thank you. I look forward to answering 
questions.
    [The prepared statement of Michael D. Gallagher follows:]
Prepared Statement of Michael D. Gallagher, Deputy Assistant Secretary 
  for Communications and Information, National Telecommunications and 
           Information Administration, Department of Commerce
    Chairman Upton, I would like to thank you and the members of the 
Subcommittee for inviting me to testify today about the National 
Telecommunications and Information Administration's (NTIA's) role in 
the development of rules to authorize ultrawideband (UWB) technology. I 
particularly want to commend the leadership of Chairman Michael Powell 
and the Federal Communications Commission (FCC), as well as the FCC 
staff, in the UWB authorization process. The process was long, the 
arguments were highly technical, and the record was voluminous. But, 
together, the FCC and NTIA were able to meet the challenge and develop 
a technically sound set of regulations for the safe and effective 
authorization of UWB technology while preserving public safety and 
national security.
    I am very pleased that new rules adopted by the FCC will ensure 
that UWB devices will soon be readily available in the marketplace. It 
is one of the most promising technologies of our time. UWB can perform 
a number of useful telecommunications functions that make them very 
appealing for both commercial and government applications. It can be 
used for communications devices such as wireless networks to transmit 
high-speed data with low battery drain, remote sensing or tracking, and 
ground penetrating radar (GPR). UWB through-the-wall imaging systems 
can also provide great assistance in locating survivors within 
collapsed buildings and provide situational awareness to law 
enforcement personnel. UWB technology can also be used for collision 
avoidance radars--reducing deadly automobile accidents. With the number 
of invaluable applications of the technology that will soon be 
available, NTIA fully expects the U.S. Government to continue its role 
as the UWB industry's best customers.
    The regulatory challenge with UWB technology is, as its name 
implies, that it operates across very wide bandwidths of radio spectrum 
in which many other commercial and governmental communications systems 
operate. While most conventional communications technologies are 
authorized within specific frequency bands to avoid harmful 
interference to other devices, this traditional spectrum management 
technique was not an option given the wide bandwidths used by UWB 
devices. In many cases, their average power levels may have been low 
enough to be authorized under NTIA's and the FCC's respective rules for 
unlicensed devices. However, the bandwidths of UWB devices are so wide 
that some of the systems emit signals in bands in which such 
intentional transmissions have previously not been permitted because of 
the potential harmful effects on safety of life and other critical 
governmental systems. Finding a solution for authorizing UWB devices 
within the existing spectrum management regime was no small feat and 
required groundbreaking technical research and the dedication of the 
professional staffs of NTIA and the FCC.
    Admittedly, the outlook for UWB's authorization last fall was dim. 
The FCC had proposed rules that were strenuously and publicly opposed 
in writing by several agencies. The pressure from UWB companies was 
intense, and the FCC was pressing forward on a timeline to close the 
matter by the year's end. However, with engaged leadership, and a 
shared focus by NTIA and the FCC on the technical data in hand, we were 
able to authorize this new, world leading technology that will be 
sensitive to the needs of the congested U.S. spectrum environment and 
not imposed on us by the rest of the world.
    NTIA is fully aware that with an effort this broad in scope and its 
potential impacts, many challenges will continue to arise. We have 
already begun discussion with one group of GPR users who have been 
unintentionally excluded by the new rules from using GPRs to determine 
ways to help resolve their concerns. We are also working with the 
Department of Transportation to complete a study assessing the 
compatibility of UWB devices and aviation systems operating below 1 
GHz.
                               background
    NTIA, like the FCC, has long been aware of UWB technology's 
earliest practical implementations as GPRs, which grew from research 
originally begun at some of the government laboratories. As early as 
1994, NTIA made preliminary provisions for accommodating this 
developing technology within NTIA's systems review processes to 
encourage further developments. In 1997, a number of UWB developers, 
including TimeDomain, Fantasma, Multispectral Solutions, Inc., and 
XtremeSpectrum briefed NTIA spectrum managers and researchers on the 
rapid advances in the technology. These discussions heightened NTIA's 
awareness of the incredibly exciting opportunities the technology could 
present not just for commercial applications, but also for Federal 
agencies in their performance of critical services on behalf of the 
American people from law enforcement to roadbed construction. Moreover, 
from a spectrum management perspective, UWB technology, if properly 
managed could lead to a much-needed advance towards greater spectrum 
efficiency.
    NTIA identified the challenges and difficulties of analyzing the 
characteristics of this new technology and its interaction with 
critical spectrum-dependent public safety and national security 
systems, including aviation systems used for aircraft landings. These 
challenges were made greater by the expectation that these new UWB 
devices had the potential to become ubiquitous in American households 
and businesses, would be highly mobile, and would be offered on an 
unlicensed basis, making interference issues more difficult to resolve.
    The spectrum managers and researchers at NTIA, however, took very 
seriously the agency's dual charge to foster new technology and, to 
assure the Federal agencies' continued protection to the spectrum 
necessary to perform their critical missions. Thus, in 1998 when Time 
Domain Corporation, U. S. Radar and Zircon Corporation filed petitions 
to waive the FCC's rules for low power unlicensed transmitters, 
referred to as the Part 15 rules, to allow them to manufacture import 
and sell certain UWB devices, NTIA worked very closely with the FCC to 
accommodate the requests. In consultation with the Interdepartment 
Radio Advisory Committee (IRAC), NTIA was able to devise safeguards to 
protect public safety and critical government systems during the period 
of the waiver, which the FCC approved when it granted the Time Domain, 
U.S. Radar, and Zircon waiver requests in 1999. These waivers provided 
an opportunity for all interested stakeholders to develop a more 
thorough understanding of the potential impacts that this technology 
could have on other commercial and governmental systems operating in 
the bands. Since that date, NTIA has routinely approved requests for 
Special Temporary Authority from UWB companies seeking to demonstrate 
the technology's capabilities from commercial technology demonstrations 
to emergency assistance. In all cases the waiver requests were granted 
under conditions that did not present a risk to critical safety-of-life 
or national defense systems. For example, after the September 11th 
tragedy, NTIA, upon coordination with the potentially affected Federal 
agencies, and the FCC authorized the use of through-the-wall imaging 
systems for first responder use at the World Trade Center and Pentagon 
within 8 hours of the initial request for their use.
    NTIA began a significantly detailed measurement and analysis effort 
at its Institute for Telecommunication Sciences in Boulder, Colorado 
and within NTIA's Office of Spectrum Management here in Washington when 
the FCC issued its Notice of Proposed Rulemaking on UWB in May of 2000. 
These efforts first focused on determining the characteristics of UWB 
signals in the time and frequency domains. Once the UWB signals were 
characterized, the information to model the effect of receiver filters 
on received UWB signals was developed. Using this data with other 
information concerning interference thresholds, the impact of UWB 
signals on the critical receiving systems operated by the Federal 
government in the ``restricted bands'' was assessed. The restricted 
bands consist of 64 frequency bands between 90 kHz and 36.5 GHz (a span 
which covers over 96% of all spectrum use) and occupy a total of 13.283 
GHz of spectrum protected by the FCC, NTIA, and international rules 
against intentional emissions because critical or sensitive receivers 
operate in them. Protected receivers include radio astronomy and 
satellite passive sensing and the systems used to land and control 
aircraft. NTIA focused only on the restricted bands in the 960 MHz to 6 
GHz frequency range because of the high density of critical 
governmental use of those frequencies and the then-limitations of the 
UWB technology.
    NTIA obtained samples of 20 UWB devices for measurement and chose 
five of the 20 as fairly typical of the group for detailed 
measurements. NTIA then started two measurement programs to determine 
the potential effects UWB devices could have on conventional narrowband 
devices operating in the restricted bands. The documents outlining the 
two measurement programs were made available to the public and the FCC 
for comment. The first program examined the emissions from several UWB 
devices to determine how best to characterize the many types of UWB 
signals and to describe procedures and methods for measuring UWB 
signals for developing operable certification standards and criteria. 
These measurements determined the interference impact of UWB devices on 
several sensitive devices to determine permissible power levels and 
corresponding required separation distances and an assessment of the 
impact of aggregates of several UWB devices.
    As part of the first measurement and analysis program, NTIA 
identified relevant system characteristics and developed operational 
scenarios for conducting susceptibility studies on several systems that 
operate in restricted bands. The studies included devices as diverse as 
radars and other guidance devices used to navigate and safely land 
airplanes; receive signals from beacons transmitting from plane crash 
victims and mariners in distress and transmit them to rescue 
organizations; weather radars used in forecasting and alerting the 
public to severe weather and floods; and earth stations receiving 
signals from communication satellites and satellites gathering weather 
data and photographs.
    Recognizing the critical role the Global Positioning System (GPS) 
plays in the nation's infrastructure, the second portion of NTIA's 
measurement and analysis program focused on an assessment of the 
compatibility between UWB devices and GPS receivers. GPS is a satellite 
navigation system developed by the military that provides accurate 
navigation signals to any location in the world. The military uses GPS 
on all land, air, sea, and space platforms and for precision-guided 
munitions. GPS will also be used in all urban warfare operations in 
support of homeland defense. GPS has become the preferred navigation 
system for the aviation community for en-route flight, precision and 
non-precision approach landings and for maritime navigation. Civilian 
use of GPS has risen dramatically due to enhanced coverage, improved 
accuracy, and rapidly decreasing user equipment cost. Some examples of 
existing and planned uses of GPS include: car navigation, consumer and 
recreational location, surveying, tracking and machine control, public 
services, public safety (Enhanced-911 position location) in mobile 
phones, timing, scientific research, environmental management, 
precision agriculture, open pit mining, and space navigation. Although 
these examples are not all inclusive, they illustrate the wide spread 
use of GPS signals, as well as GPS's ubiquitous availability.
    GPS has also proven to be a powerful enabling technology driving 
the creation of many new industries such as telematics and geographic 
information systems. A 2001 U.S. Department of Commerce Office of Space 
Commercialization report estimated that worldwide GPS hardware sales 
will exceed $9 billion in 2002. As part of the GPS modernization 
program two new navigation signals will be provided for civil use. 
Assisted GPS systems, which use local terrestrial stations to process 
location data, are also being developed to enhance position location 
inside buildings as well as in difficult propagation environments such 
as urban canyons.
    Once the analyses were completed, NTIA sought public comment on its 
measurement programs and provided the results in six reports made 
available to the FCC and placed on the public record in the UWB 
proceeding. These reports are available at the NTIA website http://
www.ntia.doc.gov/osmhome/uwbreports/. The conclusions reached in these 
reports formed the technical basis of NTIA's understanding of the 
limits on UWB devices necessary for compatible operation with critical 
government systems and GPS receivers and were used as the technical 
baseline for UWB emissions by virtually all parties engaged in the UWB 
debate.
                the fcc's amendment to the part 15 rules
    On February 14, 2002, the FCC approved amendments to its Part 15 
rules to permit UWB devices to operate on an unlicensed basis under 
conditions that are expected to protect existing radio systems 
operating in the environment. The First Report and Order for UWB 
devices establishes different technical standards and operating 
restrictions for different types of UWB devices based on their 
potential to cause interference. The different types of UWB devices 
are: 1) imaging systems including GPRs, wall, through-wall, and medical 
imaging systems; 2) surveillance devices; 3) vehicular radar systems; 
4) communications and measurement systems; and 5) mobile hand-held 
systems. In all frequency ranges, the UWB devices are expected to meet 
or fall below the emission limits permitted for narrow band Part 15 
devices. Narrow band refers to Part 15 devices that operate within a 
specific frequency band. In the range of frequencies between 
approximately 1 GHz and 10 GHz additional reduction in the UWB emission 
levels are required to protect the critical systems discussed above 
(see Exhibit A). In the bands used by GPS between 960 MHz and 1610 MHz 
the emission limits are between 12 to 34 dB below the emission limits 
permitted for unintentional emissions from narrowband devices in order 
to protect the critical applications of base station assisted GPS. In 
the 1.6 GHz to 10.6 GHz frequency range, the UWB emission limits are 
between 10 to 12 dB below the narrowband limits for unintentional 
emissions. Though these limits are conservative, they are based on 
NTIA's measurements and comments made on the public record, and reflect 
the effect of UWB signals on narrowband receivers. Most importantly, 
these measurements and analysis reflect NTIA's commitment in 
encouraging UWB technology while maintaining the utmost reliability and 
safety of our current radio services.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\  UWB technology can be based on very short pulses of radio 
energy. Its wide bandwidth yields low probability of intercept and 
excellent multipath immunity. For more information see the NTIA 
Institute For Telecommunication Sciences website http://
www.its.bldrdoc.gov/home/programs/uwb/.
---------------------------------------------------------------------------
    The new UWB rules also address the needs of automobile 
manufacturers seeking to deploy new short-range vehicular radar systems 
that could provide greater automotive safety. A 1999 report from the 
National Safety Council estimates that a death from vehicle crashes 
every 13 minutes resulting in 41,200 motor vehicle deaths per year. 
Statistics from the National Highway Transportation Safety 
Administration indicates that short-range radar systems could address 
88 percent of all causes of rear-end collisions. The short-range radar 
systems are under development as a key component of the next generation 
of collision mitigation systems. For example, possible applications 
include braking automatically to avoid an impending collision with a 
car ahead that is unseen by the driver, or tightening seat belts or 
other restraint systems for optimal safety and deployment depending on 
the expected severity and position of impact. The automotive industry 
is seeking to develop these radar devices with their frequencies 
centered at 24.125 GHz with intentional emissions extending between 
22.125 to 26.1252 GHz.
    The band 23.6-24 GHz is a restricted frequency band currently used 
by the Federal Government for satellite passive sensing operations 
because of its unique characteristics. The majority of the measurements 
using this band are performed over land and depends upon measurements 
of microwave energy naturally upwelling from the Earth's surface. The 
atmospheric measurements derived from the satellite sensors operating 
in the 23.6-24 GHz frequency band are important to Department of 
Defense air combat mission planners and National Weather Service 
numerical forecast models. Since emissions from proposed vehicular 
short-range radar systems will extend into the 23.6-24 GHz band, NTIA 
recognized the possibility that these systems could cause interference 
to the Federal Government's passive satellite sensing operations. NTIA 
worked with representatives from the automobile industry 
representatives, the National Aeronautical and Space Administration 
(NASA), and the National Oceanic and Atmospheric Administration (NOAA) 
to perform an analysis examining under what conditions compatible 
operation would be possible. Based on this analysis, NTIA proposed to 
establish a time phased approach for emissions from vehicular short-
range radar systems into the band, which would allow the technology to 
be deployed in a phase-in approach. The approach struck a balance 
between protecting critical Federal passive sensing operations and 
allowing the deployment of this potentially life-saving technology. I 
am pleased to note that the FCC adopted this compromise in its rules. 
Because of the worldwide nature of passive sensing operations, 
compatibility with UWB short-range radars is also being studied 
internationally. It is anticipated that the approach recommended by 
NTIA and adopted by the FCC will drive the standard worldwide.
             ntia's implementation of the new part 15 rules
    NTIA has already begun to implement the new UWB rules. Our rules 
authorize Federal agencies to procure and use any device available in 
the marketplace that has been certified in accordance with the FCC's 
rules as being compliant with Part 15. When the FCC's new rules go into 
effect in July, government agencies may purchase and operate or 
contract for the operation of UWB systems that have been certified as 
being in conformance to those regulations with no further authorization 
from NTIA (See Part 7.8 of the NTIA Manual). Further, NTIA expects to 
incorporate appropriate portions of the new Part 15 text into its rules 
so that the government agencies may construct custom UWB devices that 
conform to these Rules with no further authorization by NTIA (See Part 
7.9 of the NTIA Manual). NTIA expects that the vast majority of UWB 
applications used by the government will fall under either one or the 
other of these two cases. However, if an agency does need a UWB device 
that does not conform to the Part 15 Rules, it may seek spectrum 
support and frequency assignments through our Systems Review and 
Frequency Assignment processes. Operation of these latter devices will 
be closely controlled and coordinated with all nearby affected users.
                               next steps
    NTIA is quite aware that more testing and analysis is required on 
the impact of UWB devices on other radio systems. The FCC has indicated 
a desire to do additional measurements when more UWB devices are 
developed. We support the FCC's testing and the development of real 
world test data and will actively participate in these measurements. 
NTIA is pleased that the United States is now in a position to lead the 
evolution of UWB technology while protecting safety-of-life and 
national security systems.
    In summary, Mr. Chairman, NTIA works closely with the FCC and the 
Federal spectrum management community to balance the spectrum needs of 
the government agencies with those of the private sector. We look 
forward to continuing to work closely with them in the future. I thank 
you for this opportunity to share with you the views of NTIA on this 
important issue, and I look forward to answering any questions you may 
have.

                                GLOSSARY

    FCC--Federal Communications Commission
    GPR--Ground Penetrating Radar
    GPS--Global Positioning System
    GHz--Gigahertz
    IRAC--Interdepartment Radio Advisory Committee
    MHz--Megahertz
    NASA--National Aeronautics and Space Administration
    NOAA--National Oceanic and Atmospheric Administration
    NOI--Notice of Inquiry
    NPRM--Notice of Proposed Rule Making
    NTIA--National Telecommunications and Information Administration
    R&O--Report and Order
    UWB--Ultrawideband

                                EXHIBIT A
                  OVERVIEW OF SYSTEMS ANALYZED BY NTIA
------------------------------------------------------------------------
                  SYSTEM                    FREQUENCY RANGE OF OPERATION
------------------------------------------------------------------------
Search and Rescue Satellite (SARSAT)        406-406.1 MHz
 Satellite.
Distance Measuring Equipment Interrogator.  960-1215 MHz
Distance Measuring Equipment Transponder..  1025-1150 MHz
Global Positioning System (GPS)...........  1164-1188 MHz; 1215-1240
                                             MHz; and 1559-1610 MHz
Air Traffic Control Radio Beacon System     1030 MHz
 Transponder.
Air Traffic Control Radio Beacon System     1090 MHz
 Interrogator.
Air Route Surveillance Radar (ARSR-4).....  1240-1370 MHz
Search and Rescue Satellite (SARSAT)        1544-1545 MHz
 Ground Station Land User Terminal.
Airport Surveillance Radar (ASR-9)........  2700-2900 MHz
Next Generation Weather Radar (NEXRAD)....  2700-2900 MHz
Maritime Navigation Radars................  2900-3100 MHz
Fixed Satellite Service Earth Stations....  3700-4200 MHz
Radar Altimeters4200-4400 MHzMicrowave      5030-5091 MHz
 Landing System (MLS).
Terminal Doppler Weather Radar (TDWR).....  5600-5650 MHz
Satellite Passive Sensors.................  23.6-24 GHz
------------------------------------------------------------------------


    Mr. Upton. Thank you.
    Mr. Price.

                    STATEMENT OF STEVEN PRICE

    Mr. Price. Thank you, Chairman Upton and members of the 
subcommittee, for inviting me today. I would also like to thank 
Howard Waltzman and the other members of your staff for helping 
us prepare for this hearing.
    The Department of Defense truly appreciates that your 
committee is looking at spectrum issues, in general, and 
ultrawideband, in particular. Spectrum is the lifeblood of our 
military. Every ship at sea, every airplane conducting 
missions, every forward-deployed young man or woman, especially 
in hard-to-reach locations, depends on spectrum and radios to 
conduct their missions and to return home safely.
    A special forces team leader operating in Afghanistan 
recently came back and reported to me and others on his 
experience during Operation Enduring Freedom. ``We could go in 
there naked with flip-flops and as long as we have good radios, 
we could do our job.'' Information is one of our most important 
weapons, and our spectrum and information needs are growing 
rapidly.
    It is critical you understand how the Department of Defense 
approached the FCC's ultrawideband proceeding earlier this 
year. As Assistant Secretary of Defense, John Stenbit, my boss, 
clearly stated in his letter of January 11 to Mike Gallagher at 
NTIA--you remember this letter--``DOD supports UWB development. 
However, DOD seeks to ensure that such development will proceed 
in a manner consistent with core national security needs and 
objectives.''
    The Department has been an early and ardent proponent, in 
fact a founder of ultrawideband technology and plans to use UWB 
to advance the Nation's defenses. In other words, DOD was not 
saying no, not trying to stifle anything. We worked hard to 
develop approaches, even suggesting filters and masks to permit 
commercial deployment of UWB, so long as they didn't pose risks 
to sensitive and vital national security systems, such as GPS. 
To do anything else, we felt, would have been to abdicate our 
responsibilities. The proceeding did produce a win-win solution 
to a complex problem. I think most of the people here would 
agree with that.
    We commend the FCC and NTIA, as well as others, for their 
hard work in this proceeding. It raised a number of new and 
significant issues. It proposed to approve unlicensed and 
uncoordinated use of UWB in all Part 15 bands, including 
heretofore restricted bands. Never before had the FCC and NTIA 
authorized such unconstrained use across an entire horizontal 
slice of the spectrum, including restricted bands. This is 
important because the stakes were exceedingly high for national 
security.
    Tests showed that UWB devices could disrupt GPS operations 
with emission levels well below the FCC's originally proposed 
limits. Measurements taken by NTIA and the Department of 
Transportation and associated government studies have clearly 
shown that non-licensed use of this technology without proper 
emission constraints could cause interference to existing radio 
services. Disruption of GPS by UWB operations could have 
potentially undermined U.S. efforts in the war on terrorism, 
eroded homeland defense and led directly the loss of life of 
forces here and abroad. In such a case, prudence was dictated 
and prudence was delivered.
    It seems fair to argue that the burden of proof was on the 
UWB proponents to prove that commercial deployment would not 
interfere with GPS and other systems and to prove so beyond a 
reasonable doubt. If the goal of the UWB spectrum proceeding 
was to meet the twin goals of protecting vital national 
security systems from harmful interference and allowing for the 
robust development of a new commercial technology, it would 
seem by initial indications that the FCC accomplished that 
goal. It is wise public policy to go slow in the initial phases 
of new technology developments. The alternative, to embrace 
unacceptable risk with unknown consequences on the basis of 
conflicting science, would have been unacceptable.
    We completely agree with Chairman Tauzin and others that 
once enough devices are out there, and we can debate the timing 
of when that will be, and sound science is able to be studied, 
what the tests show the tests will show, and we will support 
those tests. In DOD, we have a duty to the young men and women 
who defend our country, a duty to ensure that they have the 
tools they need to do their job. We owe them policies to ensure 
that lack of access to spectrum should not be a constraint on 
our war fighter. Thank you very much for your time.
    [The prepared statement of Steven Price follows:]
   Prepared Statement of Steven Price, Deputy Assistant Secretary of 
                                Defense
                            1. introduction
    I would like to thank the members of this committee, and 
particularly Chairman Upton, for holding this hearing. Spectrum 
allocation decisions are timely and important issues, both for 
commercial interests and the Department of Defense.
    The Executive branch, through NTIA and the FCC adopted a ``win-
win'' approach to a very complex and intricate rulemaking proceeding. 
DoD believes that the final order and future decisions by NTIA with 
respect to governmental systems will ensure the protection of national 
security and public safety while opening the door to commercial 
deployment of UWB. They did not accept the alternative, which was to 
embrace unacceptable risk, with unknown consequences. Everyone involved 
should be proud that the nation's spectrum resources were, in this case 
at least, managed in a manner that safeguarded the national interest, 
particularly during a time when the country faces domestic and foreign 
threats while allowing for commercial innovation and technological 
advancement.
    Let me say at the outset that it is critical that you understand 
how the Defense Department approached the Federal Communications 
Commission's (``FCC'') Ultra Wideband (``UWB'') proceeding earlier this 
year. The proceeding, which culminated in the FCC's ruling on February 
14, 2002, did not come at an opportune time for our nation's military. 
Post September 11 and in the midst of Operation Enduring Freedom, the 
proceeding took considerable time and effort on the part of our 
nation's Defense Department. Nonetheless, DoD understood the importance 
of FCC priorities and DoD played an active role trying to reach 
consensus and we participated in all aspects of the proceeding.
    Far from being an opponent of UWB development and deployment, the 
Department has been an early and ardent proponent of UWB technologies 
and plans to use UWB to advance the nation's defense systems. The 
Department also recognizes that it will benefit from the operational 
and cost improvements that will result from commercial deployment.
    As Assistant Secretary of Defense John Stenbit, my boss, clearly 
stated in his letter of January 11, 2002 to Michael Gallagher of NTIA, 
``DoD supports UWB development. However, DoD seeks to ensure that such 
development will proceed in a manner consistent with core national 
security needs and objectives . . . DoD, in keeping with our national 
defense responsibilities, cannot accept any interference with its 
systems.'' In other words, DoD was not saying ``no''. DoD worked hard 
to develop approaches to permit commercial deployment of UWB 
technologies in a manner that would not pose risks to sensitive and 
vital defense and national security systems, such as the Global 
Positioning Satellite (GPS.) To do anything less would have been to 
abdicate our constitutional responsibility.
    It is important to understand why the Defense Department takes 
spectrum allocation proceedings so seriously. Spectrum is the life's 
blood of the Department of Defense. Every ship at sea, every airplane 
conducting missions, every forward-deployed young man or woman--
especially in hard to reach locations--depends on radios and spectrum 
to conduct missions and to return home safely. A Special Forces team 
leader operating in Afghanistan was recently quoted as saying that team 
members could do their jobs naked, in flip-flops, as long as they had 
the proper radios. Information has become our most effective weapon.
    This will be even truer in the future, as DoD's ongoing 
transformation to a network-centric military will add new demands. A 
DoD spectrum requirements analysis, completed prior to September 11, 
2001 (and therefore likely to be an underestimate) predicted DoD 
spectrum usage growth of more than 90 percent by 2005. Clearly, DoD's 
spectrum needs are increasing due to these new operational concepts, 
including more extensive use of Unmanned Aerial Vehicles, as well as 
evolving strategies that require joint, dispersed forces to have 
greater connectivity in the ``last tactical mile.'' In addition, there 
will be new demands in the arena of homeland defense. These will likely 
include new spectrum related missions, such as military support for 
major events (such as was the case in the 2002 Winter Olympics in Salt 
Lake City), protection of critical infrastructure and emergency 
response. It will also include use of new technologies.
    Spectrum is one of our nation's most valuable natural resources. It 
is not uncommon for us to use land or real estate analogies to describe 
spectrum. We use terms like ``beachfront property''--that's how 
valuable it is. The reason it is so valuable is that it enables so much 
of the technology that many people look to in order to solve many 
problems. The communications and information revolution has now 
resulted in technologies unimagined several years ago: tiny wireless 
phones, wireless LANs, Internet access from virtually anywhere in the 
world.
    The same is true for military technology. Wireless technology is 
particularly important for our military forces because of their 
increasingly mobile and flexible nature. The ongoing revolution in 
military operations has made information the key component of warfare. 
Mass of force no longer has the power it once did because our tactics 
are more sophisticated, as are our warfighters and the equipment they 
carry. The revolution in personal communications that civilians have 
experienced is mirrored by a similar revolution in military 
communications. But these technologies are even more important to the 
military because of the lack of a wired alternative in many military 
operations. We can make a call or access the Internet on a landline, 
but the ship captain, bomber pilot or tank commander has no other 
option but wireless communications. And because of the way we fight, 
that information is more important than ever, both to the troops in the 
field and to the commanders--whether they are in theater or 12,000 
miles away.
    As these wireless technologies have flourished, competition for the 
resource that enables them has skyrocketed. One only needs to look at 
the amount of money bid for spectrum in the most recent auctions to 
notice this, though not all auctions have been a success in terms of 
revenues. Over the past 10 years, DoD and other federal agencies have 
begun to relinquish 247 MHz of prime spectrum to industry. Every re-
allocation of spectrum essential to military capability from DoD 
reduces flexibility, requires that replacement equipment be purchased 
or a work-around developed and erodes our realistic training. While we 
recognize that there are many competing needs for spectrum, including 
needs for commerce, important national defense needs must be a top 
priority.
    The pressure on government spectrum will not end. Wireless 
technologies and other commercial uses of spectrum will continue to 
proliferate. UWB, like all other new technologies, is a mere stepping-
stone to other technologies--we must arrive at a sound spectrum policy 
that allows our commercial interests to coexist with public interests. 
And, at the same time as commercial demands increase, so does DoD 
becomes increasingly spectrum constrained. It is our view that DoD will 
need access to additional spectrum allocations in order to meet our 
long-term goals of transforming to a network-centric military and to 
meet our obligation to protect our citizens, at home and abroad. To 
quote the Chairman of the Joint Chiefs of Staff, General Myers, ``True 
transformation must include training and education, doctrine and 
organizations. As we transform our forces, we need to build 
capabilities that allow us to defend our interests in a wide array of 
situations. The key to that, in my view, are flexibility and 
adaptability.''
    Before I discuss the FCC's UWB proceeding, I'd like to share the 
Department of Defense's principles regarding spectrum in order to put 
the matter in proper context. I believe that it is useful for you to 
understand how the Defense Department approaches spectrum policy.
                       2. dod spectrum principles
    DoD spectrum policy is guided by certain core principles. DoD has 
been guided by these principles during our work with the NTIA and the 
FCC with regard to the UWB proceeding for the last year and it informs 
all of our spectrum policy. First, spectrum is a vital national 
resource. DoD understands that its needs must be balanced with other 
national needs. Therefore, it supports a US spectrum policy that 
balances military and economic security. DoD believes that the balance 
of authority between the President's spectrum manager, the NTIA, and 
the Federal Communications Commission, as implemented at a practical 
level, helps to achieve the appropriate balance. That balance must 
recognize that the Department of Defense must have sufficient spectrum 
to meet the nation's defense needs. This is a longstanding principal of 
national spectrum management and it should continue.
    Second, spectrum is critical to DoD. It is a core enabler of what 
we do, and it is indispensable to national security. Therefore, we 
should not allow lack of sufficient spectrum to be a constraint on the 
US warfighter or on military capabilities. Senior DoD leadership 
recognizes that network-centric warfare and the military's ongoing 
transformation will depend on technology as a force multiplier and 
demands on bandwidth and access to spectrum will increase. This is true 
even without taking into account potential requirements of homeland 
defense. DoD spectrum needs should be driven by military requirements 
and capabilities, not spectrum allocations.
    Third, DoD recognizes that it must be a good spectrum user. DoD 
must strive to be as efficient a spectrum user as it can be. Much of 
DoD's spectrum use is unique--unlike the commercial sector's drive for 
low cost, high revenue solutions, the DoD must put a premium on network 
and system reliability. DoD's core belief is that where lives are at 
stake, there is no margin for error--the ``call'' must get through. 
When an aircraft is guiding a precision weapon, or a commander is 
relaying life-saving information to troops on the ground, there cannot 
be ``busy'' signals. Some spectrum use that industry might label as 
``inefficient'' is actually designed for anti-jam systems, low 
probability of intercept, and other ``counter counter-measures.'' For 
the military, ``efficient spectrum use'' often translates into 
``guaranteed information delivery'' and because of that, commercial 
standards that allow a certain percentage of built-in busy signals or 
dropped calls cannot be tolerated.
    Fourth, DoD intends to continue investing in new, spectrum-
efficient technologies. It will continue to seek to use technology to 
alleviate DoD's and the commercial sector's long-term needs for 
additional spectrum. DoD has been a major contributor to the birth of 
proven spectrum efficient technologies, including CDMA and software-
defined radio, and, for that matter, those that show potential, such as 
ultra wideband technologies. Significant research is ongoing within DoD 
in search of efficient technologies. This research includes extensive 
work on such topics as adaptive spectrum usage, frequency and bandwidth 
agility, phased-array antenna configurations, interference mitigation 
techniques, congestion control technologies and numerous networking 
projects. In addition, DoD continually seeks to better manage its 
spectrum allocations.
    Fifth, DoD commits to actively supporting US policies and interests 
in international organizations and multinational and bilateral 
negotiations for spectrum allocation and use. To do this, however, it 
is vital that the U.S. national processes recognize that in allocating 
spectrum according to the balance of needs among Department of Defense, 
commercial and other users, important national defense needs must be a 
top priority.
                  3. u.s. spectrum allocation process
    Every time a new technology arises the same interests must be 
balanced against each other: commercial interests versus national 
security and other public policy interests, such as aviation safety and 
law enforcements. We can only expect more of these regulatory balancing 
acts in the future, as more technologies are developed to share 
spectrum--or reuse it, as is the case of UWB. We must arrive at a sound 
spectrum policy.
    There is an important point that national policy makers need to 
consider as we make spectrum allocation decisions. The current system 
places asymmetric risks on the national security and other federal 
incumbents. From DoD's position, if we lose spectrum or are forced to 
share and such sharing causes interference with vital systems, as a 
practical matter little can be done after the fact. Once an allocation 
has been made, it is difficult if not impossible to put the genie back 
in the bottle. As the Precursor Group, an industry analyst, says, ``the 
FCC has never repealed authorization of a technology once granted.''
    DoD bears all of this risk--including the risk that our systems 
won't operate. The fact that vital systems might be interfered with 
raises concerns and uncertainties. The uncertainty caused by 
relocations pose serious issues for our long-term planning: will we be 
required to move, when will we get the money to move, will we need to 
retrain, will we retrain in time to be prepared to deploy in an 
emergency, will we need to change concepts of operations to account for 
degraded capabilities, will we be able to get host nation approvals to 
use the system in the new frequency band in all of the parts of the 
world we might need to do so, will our allies who bought interoperable 
systems now also be required to modify their existing equipment and, if 
so, will they pay their bill, will the new spectrum be free of 
interference?
    We believe that the current spectrum management process creates 
imbalances and asymmetric risks and that these must be set straight 
through development and enforcement of a rational, long-term spectrum 
management policy that mirrors national priorities. DOD believes it is 
important to have a spectrum management system which recognizes that 
important defense needs for spectrum should be a top priority in 
allocation, that DOD needs long-term certainty and reliability of 
access to spectrum, and that, in those cases in which spectrum is 
reallocated from defense use to commercial use, DOD should not bear 
costs and risks (including financial risks) associated with the 
reallocation. However we implement our national spectrum policy, these 
national security priorities must be accommodated, in terms of how 
competing interests are balanced, before such a proceeding not during 
it.
                         4. fcc uwb proceeding
    I want to stress a few key points about the FCC's UWB proceeding. 
First, we commend FCC for making a very hard and complex decision and 
doing it by striking a reasoned balance. Second, we commend NTIA for 
their efforts and their process and role in this complex proceeding. As 
you know, NTIA, as the President's spectrum manager, has the authority 
to make decisions regarding government use of spectrum dependent 
systems. To the extent the FCC February decision impacts federal 
government use of spectrum, the Executive branch, through NTIA, had 
concurred.
    Third, the FCC's proceeding posed new and significant issues. The 
proceeding proposed to approve the nonlicensed and uncoordinated 
emissions of ultrawide band signals into all Part 15 bands. NTIA and 
FCC had previously agreed that certain narrow band systems could emit 
at extremely low levels into certain federal government spectrum but 
not into so-called restricted bands, where commercial users are 
prohibited from intentionally emitting. Never before had the FCC and 
the NTIA authorized such unconstrained use of a horizontal slice of the 
entire spectrum including restricted bands. To the extent that NTIA has 
agreed to this limited use of ``restricted band'' spectrum in no way 
diminishes NTIA and DoD's understanding that ``restricted bands'' Are 
often the appropriate mechanism to protect spectrum used for essential 
national interests, including national security interests. Importantly, 
the proposed FCC rules set precedent that has the potential to 
eliminate protection of Government restricted bands. These are 
essential to national security, safety of life and economic security. 
In addition, the FCC was not proposing the imposition of any 
aggregation controls in the licensing process.
    Fourth, the stakes were extremely high for our national security. 
None of the systems at risk from UWB is more important than the federal 
government systems, including the GPS and other military systems that 
directly support U.S. troops and public safety officials. In fact, a 
recent Heritage Foundation homeland security task force report listed 
as its number two priority, designating GPS as a critical national 
infrastructure. But the Part 15 emissions originally proposed by the 
FCC to be allowed into all spectrum, including restricted bands, were 
inadequate for protection of most federal systems. UWB devices can 
disrupt GPS operations with emission levels well below the FCC's 
originally proposed limits, as well as by emission spikes that would 
exceed those proposed limits. As a result, the proposed rules could 
have, among other things:

<bullet> Degraded the ability to use GPS to navigate and land military 
        aircraft and commercial airliners, threatening the lives and 
        safety of military personnel and the general public;
<bullet> Degraded the operation of government airport radars, affecting 
        flight safety;
<bullet> Risked causing interference to ground distance-measuring 
        systems that provide vital navigation information to military 
        and commercial aircraft, as well as to rescue stations that 
        host military and public safety operations;
<bullet> Eroded our ability to train with precision guided munitions 
        without which so much of our modern tactics would be 
        impossible.
    Disruption of these systems by UWB operations could undermine U.S. 
efforts in the war on terrorism and erode homeland defense. More to the 
point, disruption of these operations could directly lead to loss of 
life among U.S. forces and American citizens.
    One other reason why the UWB proceeding proved so difficult was 
because the technology is so new that at the outset no hard science or 
empirical data existed. Some in the UWB industry said they believed 
that UWB devices, no matter how many in use, would never interfere with 
existing users such as GPS. Our view was that unconstrained, aggregated 
and non-licensed use of UWB devices, as originally proposed, posed a 
severe risk of interference to existing licensed systems and, 
therefore, must be governed by sensible technical parameters. Other 
government agencies believed that even more stringent limits were 
needed.
    Unlike traditional wireless technologies which are restricted to a 
specific band of frequencies, UWB emits signal energy across an 
extremely wide range of spectrum bands. Thus, UWB would operate, on a 
non-licensed basis, across many different wireless bands, in which 
hundreds of government and commercial users are licensed to provide 
hundreds of vital and needed wireless services--including vital 
military, aviation safety and law enforcement systems. In theory, UWB 
offers ``free spectrum'' by thinly spreading its energy over many 
bands. If existing spectrum users are not adversely affected, what's 
the harm? Yet measurements taken by NTIA and the Department of 
Transportation--and associated government studies--have clearly shown 
that non-licensed use of this technology, without proper emission 
constraints, could cause interference to existing licensed radio 
services, including public safety and critical national security 
systems. For example, even thinly spread UWB energy interferes with 
very low power signals from distant sources, such as GPS satellites 
which are over 12,000 miles away. In such a case, prudence is dictated 
because no one knows for sure--and that is what the FCC, with NTIA 
concurrence, essentially said.
    It is worth considering, What if the FCC had come up with a 
different outcome? Suppose the following: First, the FCC had decided to 
allow unconstrained, uncoordinated use of commercial UWB devices 
throughout the spectrum. Second, UWB industry successfully marketed 
such devices so that there was widespread deployment. Third, we accept 
the DoD view that such aggregated, widespread use of UWB devices below 
3 GHz could interfere with and hamper GPS operations, in addition to 
other systems. In such a scenario, the following would have occurred as 
a direct result of the FCC ruling: money spent on the constellation of 
GPS satellites would be wasted; safety would be compromised in civil 
and military aviation which uses GPS for navigation, including in the 
critical approach phase; spectrum-dependent warfighting systems which 
depend on GPS would be unusable, degrading our readiness, mission 
effectiveness and capability, while wasting millions of taxpayer 
dollars; and the substantial civil investment in GPS would be wasted, 
including taxpayer dollars, and irreparable harm to US industry that 
depends on GPS.
    Is that an outcome that is in our national interest? Did the 
proponents of unconstrained use of UWB prove with any scientific facts 
and to any reasonable person beyond a reasonable doubt that this would 
not happen? Did they offer DoD and the nation any guarantees? Is any 
risk such as this worth taking?
    Rather, our view and the FCC's ruling took a prudent approach. 
Allow a commercial industry to develop. In fact, let it thrive. Protect 
national security and vital systems by imposing moderate limitations 
that the majority of companies felt were acceptable. Then, see what 
happens.
    In his remarks on February 14, 2001, FCC Chairman Powell stated 
that the rules announced that day were ``fully coordinated with the 
U.S. Government.'' The Department agrees with NTIA Deputy Administrator 
Mike Gallagher's analysis that section 305 of the Communications Act of 
1934 preserves the President's authority to authorize use of the radio 
spectrum for U.S. government owned and operated stations. We are 
confident that our colleagues at the Commission recognize the 
authorities and responsibilities of the President, authorities 
delegated to the NTIA as the Executive Branch spectrum manager, with 
regard to managing spectrum in a manner that protects Federal 
Government systems, as set forth in the May 15, 2002 letter.
    In this regard, we believe that NTIA should not treat authorization 
of all DoD UWB device uses in the same way as nonlicensed commercial 
devices. Under current NTIA Manual provisions, we are required to and 
do provide NTIA--and all other Federal agencies--the details of our 
planned UWB device use and seek NTIA authorization to so operate. We 
intend to continue this practice. Certain DoD present and future uses 
of UWB will require operation at power levels greater than those 
allowed for the general public to perform specific missions. DoD will 
operate many fewer UWB devices than the public. DoD UWB devices will be 
operated mainly on DoD installations and training areas under the 
control of the Executive branch. In the case of EMI, the UWB device can 
easily be located and turned off by local spectrum or command 
personnel. No such controls exist for UWB devices mass-marketed to the 
public.
    We do agree with NTIA that government use of commercial off-the-
shelf UWB devices authorized by the FCC in the FCC proceeding should be 
encouraged. When possible, we want to use such systems--in part because 
such use may make these systems more affordable. We support NTIA's 
intention to update the applicable sections of the NTIA Manual to so 
make clear. However, we must be free to operate high power UWB--in 
accordance with criteria appropriate for limited use government systems 
in order to fulfill military missions. Some of the military missions 
for which we expect to use UWB include: sniper detection/location; 
buried weapon cache detection; unexploded ordnance detection; and 
tunnel complex detection. Without these devices, we would have to send 
our troops directly in to harm's way in very risky missions. Other uses 
include, runway void detection; all weather precision formation flying; 
ship docking radar; and precision radar altimeters for ultra-small 
UAVs. Without these systems the associated functions would either be 
impossible or much more dangerous. The NTIA, as the President's 
spectrum manager, must continue to have the discretion to individually 
authorize DoD UWB systems at specific locations for specific times and 
with specific technical characteristics. DoD intends to continue to 
coordinate the uses of such devices to ensure protection operation of 
all critical federal government systems and to seek to maximize the 
efficient use of spectrum.
                    5. result of fcc uwb proceeding
    If the goal of the UWB spectrum allocation proceeding was to meet 
the twin goals of (a) protecting vital national security systems from 
harmful interference while (b) allowing an innovative new technology to 
develop, then it would seem by initial indications that the FCC 
accomplished that goal.
    DoD primarily was concerned about interference to GPS. GPS is now 
used by the military in almost every phase of operations. It is used in 
precision-guided munitions; airplanes use it for navigation; and 
special operations units operating in Afghanistan use it for 
coordination with airborne platforms and allied troops. These functions 
are also performed within the United States, as well. Today's military 
is designed to ``train like they fight.'' This means that they use the 
same equipment, the same tactics and even the same frequencies in 
training that they will use in overseas operations to the greatest 
extent possible. This goal of making our training as realistic as 
possible is intended to prepare our troops for combat as best we can, 
so that when they get there casualties are minimized.
    Allowing degradation to systems our troops use in the field would 
reduce the effectiveness of their training and increase the risk of 
casualties. The net effect is to cause harm to our national security. 
UWB operates at such a low power level, that a few UWB devices will not 
cause interference with critical DoD equipment. However, it is the 
aggregate effect of the proliferation of such devices that has the 
potential to cause interference. This effect is often referred to as 
``raising the noise level'' and it occurs when the aggregate effect of 
many, many UWB devices raises the level of ambient noise. Correcting 
for this would be very difficult and expensive in systems that are 
currently deployed because they are engineered for the existing ambient 
noise level and not the heightened noise level caused by the aggregated 
effects of UWB devices. This aggregate effect is difficult to predict 
and, therefore, a ``go slow'' approach is the preferred way to deal 
with it.
    The R&O contains several emission masks for the various types of 
envisioned UWB devices. This allows a tailored approach for each 
individual type of mass-marketed UWB device. The technical criteria 
indicated by the masks cover DoD's inputs on the draft R&O. The UWB 
discussion has always been ``how low is low enough?'' We are dealing 
with a new technology and feel the masks are a good compromise between 
allowing the technology into the spectrum on an nonlicensed basis and 
the need to protect vital current--and future federal and civil 
spectrum dependent services that have a good chance to be in the same 
operating area. In all cases, the 960-1610 MHz part of the emission 
mask is the most stringent, since that spectrum supports many safety-
of-life radio systems--air traffic control, GPS, and others.
    To allow unrestrained deployment of UWB devices could mean opening 
Pandora's box: once it is opened it is impossible to close and 
mitigating the negative effect is very difficult and expensive. There 
are no geographical limits on where the public might use non-licensed 
UWB devices or under what circumstances. For example, there isn't any 
reason why a mass-marketed UWB device couldn't be used in or around 
Reagan National Airport. The potential harm is that widespread 
commercial use might raise the overall noise level in localized areas 
to the point where RF reception by licensed services is degraded. We 
have practical experience with current narrowband Part 15 devices 
causing interference to licensed users: tactical VHF frequencies near 
50 MHz are degraded at some bases due to nearby cordless phone use. 
This is a clear example of raising the noise floor through aggregate 
use--no single cordless phone can do this but together they can 
interfere with critical military and civil systems.
    The American public would not, nor should they, tolerate such a 
mishandling of our spectrum resources. We, therefore, adopted sensible 
policies as well as technical criteria for public UWB devices that will 
protect the sanctity of military equipment. Nearly 90% of all federal 
and civil RF devices operate below 3.1 GHz--it is the most crowded part 
of the spectrum. Forcing UWB--initially--above 3.1 GHz is part of the 
Administration's overall strategy to strike a balance between the need 
to jump-start this technology, but in a responsible manner. One 
company, Kohler, currently uses UWB technology near 6 GHz, so the 
technical barriers must be less than envisioned for UWB use above 3.1 
GHz. Building and clear path attenuation above 3.1 GHz is greater than 
below 3.1 GHz. Operating mass-marketed UWB devices above 3.1 GHz 
provides more isolation between UWB and licensed systems. Therefore, 
the FCC's decision that allowed for widespread deployment of UWB 
devices above 3.1 GHz--and out of GPS bands ``was not too conservative 
but rather prudent and logical.
    UWB technology brings great possibilities for expanding use of the 
spectrum because theoretically it can reuse spectrum already employed 
for other purposes. However, if it turns out that UWB interferes with 
existing users it will end up costing us far more than it saves us. We 
would either have to stop the use of UWB technology or move the 
existing systems to another band of spectrum. Both of these solutions 
are highly problematic and expensive. It is much better to go more 
slowly in the initial phases and ensure that we have a regulatory 
regime in place that allows for development of a new technology while 
maintaining the viability of the existing technologies.
                        6. impact of fcc ruling
    It is too early to know the ultimate impact of the FCC ruling. Only 
after enough UWB devices are commercially deployed, can the real 
empirical evidence be gathered and measured to determine whether UWB 
devices at certain levels cause harmful interferences to federal and 
commercial systems. But statements by various parties immediately prior 
to or following the FCC's ruling leads to the conclusion that the FCC 
and NTIA got it right.
    Several UWB proponents issued statements prior to the FCC ruling 
stating that they believed that a vigorous commercial industry could 
develop if UWB devices were restricted to intentional emissions above 
3.1 GHz. Time Domain, a UWB proponent, issued a public statement on 
February 14, the day of the FCC ruling, stating that, ``The FCC action 
enables Time Domain to deliver its patented UWB technology to the 
company's development partners for integration into certain products 
and applications, including wireless broadband links and precision 
radar products.'' Martin Rofheart, chief executive officer of another 
UWB firm, XtremeSpectrum, Inc., said the FCC's decision was ``great for 
the industry and good for us.''
    In other words, the commercial vendors do not need to operate below 
3.1 GHz in order to market UWB devices commercially. And a Washington 
Post article last week noted that since the FCC UWB ruling, 
``competition is growing'' and cited a Precursor Group analyst who 
expressed his view of UWB--``we believe that this will be a serious 
threat to Blue Tooth and 802.11b.''
    The UWB industry needs a chance to develop the technology and prove 
its business case. We have seen many examples where promised technology 
failed to succeed in the market, even when provided with the required 
spectrum and policy incentives. We, other federal spectrum users, NTIA 
and the FCC, need time to learn how to address UWB interference. We 
need time to gather real world data on interference incidents--or lack 
of them. We need to see how the coordination process works out. We also 
need time to do more testing and analysis. The Department has concerns 
that 6-12 months may not be sufficient to obtain the necessary 
information to make further policy or technical standards.
                             7. conclusion
    The Executive branch, through NTIA and the FCC adopted a ``win-
win'' approach to a very complex and intricate rulemaking proceeding. 
DoD believes that the final order and future decisions by NTIA with 
respect to governmental systems will ensure the protection of national 
security and public safety while opening the door to commercial 
deployment of UWB. They did not accept the alternative, which was to 
embrace unacceptable risk, with unknown consequences. Everyone involved 
should be proud that the nation's spectrum resources were, in this case 
at least, managed in a manner that safeguarded the national interest, 
particularly during a time when the country faces domestic and foreign 
threats while allowing for commercial innovation and technological 
advancement.

    Mr. Upton. Thank you.
    Mr. Shane.

                  STATEMENT OF JEFFREY N. SHANE

    Mr. Shane. Good morning, Mr. Chairman and members of the 
subcommittee. On behalf of Secretary Mineta, I would like to 
thank you for holding a hearing on these very important topics, 
ultrawideband technology, and particularly the government's 
spectrum management process. We appreciate very much the 
opportunity to participate.
    The Department of Transportation is, first and foremost, a 
public safety and security agency with the responsibility for 
ensuring the integrity of our Nation's transportation system. 
In our continuing efforts to improve the safety, security and 
efficiency of all modes of transport in these challenging 
times, we have become increasingly reliant on assured access to 
the radio spectrum in support of a broad range of what we refer 
to as communications, navigation and surveillance, CNS, 
systems. Because these CNS systems are so important today to 
the safety and efficiency of the movement of people and goods 
in all modes of transport, it is fair to say that their assured 
reliability is now essential to the Nation's economic well-
being, to its safety and increasingly to its security.
    It is from this perspective that the Department of 
Transportation approaches all new technologies that require 
access to radio spectrum. We want to explore their promise 
carefully, but we also want to protect against any interference 
that could compromise the reliability of vital existing 
systems. The burden must be, as Stephen Price said, on the 
proponents of new technologies to demonstrate their deployment 
will not diminish in any way the essential reliability of these 
systems.
    Having said that, though, I want to assure the subcommittee 
that the Department fully supports the development and 
deployment of ultrawideband technology. Indeed, as several 
members have noted and as Mr. Gallagher noted, some 
ultrawideband-based applications hold enormous promise for 
improving transportation safety, ground penetrating radar being 
one, potential collision avoidance systems for vehicles being 
another. We simply have to have, however, the highest level of 
confidence that these applications will be deployed in a way 
that ensures the continued integrity of transportation-related, 
safety-of-life systems.
    Mr. Chairman, because we attach such importance to the 
reliability of our CNS systems, they operate in bands of the 
spectrum that have traditionally been protected from emissions 
of other systems. That is why Part 15, unlicensed devices, 
historically have been prohibited from producing intentional 
emissions into these bands. Anyone seeking to use spectrum for 
a new purpose had to demonstrate that the newly proposed 
operations would not interfere with existing systems. We think 
that this is the appropriate approach, particularly in the case 
of an emerging and unique technology like ultrawideband, 
frankly, about which so much is still unknown.
    Spectrum requirements for transportation systems are 
complicated by the fact that particularly for aviation and 
maritime transport they are often predicated on globally 
accepted standards. For example, spectrum allocations and 
standards for aviation are developed by two United Nations 
organizations: The International Telecommunications Union and 
the International Civil Aviation Organization. Another U.N. 
agency, the International Maritime Organization, develops 
standards for ocean shipping. In international fora like these, 
the United States has consistently advocated protection for 
those bands of the spectrum in which critical transportation-
related and other systems operate.
    The FCC's first Report and Order regarding ultrawideband 
transmission systems, the so-called R&O, was adopted on 
February 14. DOT worked very closely with both the FCC and NTIA 
as they prepared the R&O. Mr. Chairman, you outlined the 
categories of ultrawideband equipment in the R&O different 
technical standards apply to each category, including specific 
frequency bands, marketing restrictions, emissions limits, 
operating restrictions and coordination requirements. The FCC 
committed in the R&O to undertake expedited enforcement action 
in the event of rule violations or harmful interference from 
UWB devices. That undertaking and the protection it represents 
is absolutely critical. While the details of the coordination 
process remain to be developed, that too is a crucial step 
toward addressing potential interference with our critical CNS 
systems.
    But we already experience from Part 15 devices in the 
restricted bands, and we have expressed serious concern about 
the additional potential risk of interference that 
ultrawideband devices may represent, particularly given the 
wide swath of spectrum into which they emit energy. I might 
also note that no equipment is currently available that can 
readily detect and locate UWB devices should they malfunction. 
In other words, there would be no way to find and contact the 
user of a malfunctioning device. While we are working to 
identify such equipment, the fact that we have not yet done so 
indicates the need for great care.
    We will work together with all appropriate parties to 
devise a process that spots and resolves cases of interference 
promptly and effectively, but until we have done so, we will 
continue to insist on caution. The FCC said in the R&O that it 
too was proceeding cautiously. At the same time, it indicated 
that prescribed standards, and I am quoting, ``may be 
overprotective and could unnecessarily constrain the 
development of UWB technology.'' The Commission, therefore, 
announced its intention to review the standards within 6 to 12 
months and to, ``explore more flexible technical standards and 
to address the operation of additional types of UWB operations 
and technology.'' We are certainly prepared to explore with the 
FCC and NTIA whether the new standards can be relaxed, but we 
reserve the right to argue that they may actually have to be 
strengthened.
    The Department also has questions about the timeframe 
announced by the FCC for the review because, frankly, it seems 
a little hasty. We will certainly endeavor to provide the 
needed supporting data and analyses, and in circumstances like 
these, we understand that there simply is just no substitute 
for empirical testing and hard data. But DOT's tests and 
probably other tests will supply only part of the data 
necessary to reach an informed decision on possible future UWB 
rules.
    Additional analytical work is needed in two areas: 
prototype testing and aggregation effects. Unfortunately, 
prototypes of many UWB devices have not been available for 
testing. Until this equipment is more readily available, 
crucial data will be lacking. Before changes are made to the 
current rule, DOT, in conjunction with the NTIA, FCC and other 
Federal agencies, must be in a position to examine actual real-
world results of pro-type testing.
    In summary, Mr. Chairman, the Department of Transportation 
will continue to approach with caution the deployment of any 
new technology that has the potential to interfere with 
transportation-related safety-of-life systems. We do not think 
the FCC has taken too conservative an approach with the current 
UWB R&O. As we work with NTIA and the FCC to examine potential 
changes to this rule, we will continue to demand the highest 
levels of protection for our transportation systems and the 
safety of the traveling public.
    I thank you again for the opportunity to testify, and we 
look forward to answering any questions that the subcommittee 
may have.
    [The prepared statement of Jeffrey N. Shane follows:]
  Prepared Statement of Jeffrey N. Shane, Associate Deputy Secretary, 
                   U.S. Department of Transportation
                              introduction
    Good morning, Mr. Chairman and members of the Subcommittee. I would 
like to thank you and the members of this Subcommittee for holding a 
hearing on this important topic. The U.S. Department of Transportation 
(DOT) welcomes this opportunity to present its views on ultra-wideband 
(UWB) technology.
    DOT is first and foremost a public safety and security agency with 
responsibility for the Nation's transportation systems and those who 
use them. In our continuing efforts to modernize and improve the 
safety, efficiency and security of our transportation systems, we have 
become increasingly reliant on access to spectrum to support a broad 
range of communications, navigation and surveillance (CNS) systems. 
These systems are critical to the safe and efficient movement of people 
and goods in all modes of transportation and must remain absolutely 
reliable. It is from this perspective that we approach new 
technologies, exploring their promise while adhering to the imperative 
that they not interfere with vital existing systems. You will not be 
surprised to hear that, from DOT's vantage point, the assured integrity 
of these safety-of-life systems must be a given in the debate about new 
technologies. The burden should be on the proponents of new 
technologies to demonstrate that their deployment will not diminish in 
any way that essential integrity.
    That is how we approach the ultra-wideband issue. DOT fully 
supports the development and deployment of UWB technology. Indeed, 
several UWB-based applications hold promise for improving 
transportation safety, such as ground-penetrating radar and potential 
collision avoidance systems. But we seek assurances that UWB 
applications are deployed in a way that ensures the continued integrity 
of transportation-related safety-of-life systems.
                       spectrum management issues
    The radio spectrum has become an indispensable resource. The huge 
demand for access to spectrum has increased the potential for 
interference and this is a serious concern. The Federal Government has 
a fundamental responsibility to ensure that the highest level of 
service is provided as we explore new and innovative ways to take 
advantage of radio spectrum.
    DOT makes every effort to scrutinize proposals to introduce new 
systems or technologies into the electromagnetic environment if they 
might affect transportation systems. No matter what benefits are 
foreseen from a proposed new technology or application, we must be 
certain of its compatibility with existing systems in order to avoid 
potential conflicts with transportation-related services. If, for 
example, the FAA's management of the spectrum is affected by unwelcome 
changes in the spectrum environment, the problem of flight delays might 
well be exacerbated. FAA might have to slow down the National Airspace 
System to maintain safe operations.
    In the past, spectrum used for navigation was largely allocated 
exclusively for that purpose. As pressure resulting from spectrum 
congestion increased, others sought to share the spectrum used for 
transportation safety systems--and they enjoyed some success in that 
regard. That success, coupled with the recent rules adopted for UWB 
devices and the trend towards overlay of services different from the 
incumbent services, may seriously limit the ability of transportation 
industries to modernize their systems to keep pace with increasing 
demands.
    DOT's spectrum requirements are complicated by the fact that they 
are predicated on globally accepted protocols--notably in the case of 
aviation and maritime shipping. For example, spectrum allocations and 
standards for aviation are developed by two United Nations 
organizations--the International Telecommunication Union and the 
International Civil Aviation Organization. Pilots who fly U.S.-
registered aircraft between continents thus can be confident today that 
the avionics with which their aircraft are equipped will work as well 
overseas as they do in the U.S. Maritime standards are developed 
through the International Maritime Organization and provide similar 
benefits for intercontinental maritime traffic. The allocations and 
standards have taken many years and resources to adopt and implement. 
It would take at least as many years to change them if rules that 
govern the use of UWB devices are not adequate.
                          critical cns systems
    It is important to describe at least briefly the CNS systems for 
which DOT is responsible, and their location in the spectrum. The 
importance of protecting them against the threat of interference--and 
the reasons for our concern about the deployment of UWB devices--are 
described below.
    First, roughly eighty percent of CNS systems used for air traffic 
control operate in bands below 960 Megahertz (MHz). Additional systems 
operate in bands up to approximately 3 Gigahertz (GHz) to include the 
Global Positioning System (GPS), maritime radar, airborne collision 
avoidance, surveillance and communications systems. Some additional 
critical systems lie between 4 and 6 GHz, including systems for weather 
radar, landing and airborne altitude measurement. And still more 
scattered systems for various transportation modes use spectrum up to 
90 GHz. A more complete list of transportation systems is appended to 
my statement.
    DOT is particularly concerned about the effects of UWB emissions on 
the following systems:

<bullet> Global Positioning System (GPS) (center frequencies at 1176, 
        1227 and 1575 MHz)--GPS is being implemented in the U.S. and 
        globally to improve the safety and efficiency of land, air, and 
        maritime transportation. It is also used in many other 
        applications, both civil and military.
<bullet> Various Aids to Navigation using frequencies below 960 MHz:
<bullet> Very High Frequency Omni-directional Range (VOR) equipment 
        (108-118 MHz), one of the main en route navigation systems used 
        globally by aircraft today.
<bullet> The Instrument Landing System (ILS) (108-111.95 MHz; 328.6-
        335.4MHz), an aviation precision approach and landing aid 
        during severe weather and ``no visibility'' conditions. It is 
        the main system used both domestically and globally for these 
        as an all-weather landing aid.
<bullet> Air Traffic Control Surveillance Radars
<bullet> Air Route Surveillance Radar-4 (ARSR-4) (1215-1390 MHz), the 
        most modern of the long-range surveillance radars.
<bullet> Airport Surveillance Radar-9 (ASR-9) (2700-2900 MHz), an air 
        traffic control radar used at numerous airports throughout the 
        U.S. and its follow-on ASR-11.
<bullet> Systems around 5-6 GHz:
<bullet> The Microwave Landing System (MLS) (5030-5091 MHz), an 
        aviation precision approach and landing aid for severe weather 
        conditions--still used at some airports in the U.S. and 
        currently being more widely implemented in Europe.
<bullet> The Terminal Doppler Weather Radar (TDWR) (5600 to 5650 MHz) 
        that provides critical weather advisories for windshear and 
        microburst phenomena to aircraft on final approach.
<bullet> The Runway Incursion System (5090-5150 MHz), a system in the 
        early stages of development aimed at reducing the number of 
        runway incursions, a top safety issue for aviation.
              protection of vital cns systems is paramount
    These and other safety-of-life CNS systems are critical components 
of the national and international transportation infrastructure. 
Ensuring the highest level of reliability for these systems and 
supporting technologies is essential to securing the safety of the 
traveling public. For this reason, these critical systems operate in 
bands of the spectrum that are currently protected from the emissions 
of other systems. That is why Part 15 unlicensed devices traditionally 
have been prohibited from producing intentional emissions--and their 
threat of interference--into these restricted bands.
    Historically, those who sought to use spectrum for a new purpose 
had to demonstrate that their operations would not interfere with 
existing systems. We think that this is the appropriate approach. A 
similarly cautious approach is indicated in the case of an emerging and 
unique technology like UWB, about which so much is still unknown.
             the federal communications commission decision
    The Federal Communications Commission (FCC) Report and Order 
Regarding Ultra-wideband Transmission Systems (R&O), issued on April 
22, was the product of a coordinated effort between the FCC, which 
regulates those portions of the radio spectrum dedicated to the private 
sector and to state and local governments, and the National 
Telecommunications and Information Administration (NTIA), which 
regulates the Federal government's portion of the spectrum. When 
spectrum is shared between Federal and non-Federal users, as much of 
spectrum is, these agencies must coordinate the exercise of their 
authority as co-regulators. DOT worked closely with both agencies as 
they prepared the R&O.
    The R&O approved operation of UWB equipment in three categories: 
imaging systems, vehicular radar systems, and communications and 
measurement systems. The first category includes ground penetrating 
radar, wall and through-wall imaging, and surveillance and medical 
imaging devices. The second refers to devices mounted on vehicles to 
detect nearby objects. The third includes home and business networking 
devices as well as storage tank measurement devices.
    Different technical standards apply to each--with specific 
frequency bands, emission limits, and operating restrictions. For 
example, the use of imaging systems (other than in emergencies) will be 
limited to law enforcement, construction companies, and other entities, 
and subject to coordination with NTIA. Communications and measurement 
systems will be allowed to operate only indoors or via hand-held 
devices. In the R&O, the FCC also committed to undertake expedited 
enforcement action in the event of rule violations or harmful 
interference from UWB devices. These protections--coordination and 
enforcement--are critical. While the details of the coordination 
process remain to be developed, it is a crucial step toward avoiding 
and addressing potential interference with critical CNS systems. As we 
move forward with implementing this rule, we look forward to working 
with NTIA and the FCC to define more fully the details of an effective 
coordination process.
    Rigorous enforcement of the FCC rule is also critical. Such 
vigilance is necessary both because tests to date have demonstrated the 
potential for interference to CNS systems from UWB operations, and 
because experience with other wireless devices has shown that faulty 
manufacturing or design can lead to malfunctions and interference, even 
in equipment that is designed to protect against such interference. For 
example, CNS systems have experienced interference in the past from 
malfunctioning Part 15 devices that are specifically designed to avoid 
intentional emissions into the restricted bands. This interference has 
caused disruptions in the National Airspace System and has taken weeks 
or longer to find and mitigate. We will work together with all 
appropriate parties to devise both a responsible and a responsive 
process that promptly and effectively identifies and resolves cases of 
interference.
    I might also note in this connection that DOT is not aware of any 
equipment currently available that can detect UWB devices, should they 
malfunction and need to be located. The characteristics of UWB, such as 
wide bandwidth, make it very hard to detect. While we are working to 
identify detection equipment, the lack of this equipment also argues 
for a cautious approach.
    The FCC, in the R&O, acknowledged that it was ``proceeding 
cautiously--based in large measure on standards that the NTIA found to 
be necessary to protect against interference to vital federal 
government operations.'' The FCC expressed concern as well, however, 
that these standards ``may be overprotective and could unnecessarily 
constrain the development of UWB technology.'' The Commission therefore 
announced its intent to review these standards within six to twelve 
months and ``to explore more flexible technical standards and to 
address the operation of additional types of UWB operations and 
technology.''
                     implementing the fcc decision
    As I indicated, DOT considers it prudent to approach new technology 
with caution where critical CNS systems are concerned. There is no 
substitute for hard data, stringent analyses, and validation by tests. 
As we move forward to implement the FCC rule, we are certainly prepared 
to explore with the FCC and NTIA whether, on the basis of additional 
information, the new standards may be either relaxed or strengthened. 
The Department questions the adequacy of the timeframe announced by the 
FCC for this purpose, but we will strive to provide needed data and 
analyses.
    In this regard, DOT is instituting tests and analysis in areas 
where additional information is needed to determine possible effects on 
many of the systems mentioned earlier. These efforts will focus on:

<bullet> The Global Positioning System--verifying previous test 
        results.
<bullet> Air traffic control surveillance radars:
<bullet> The Air Route Surveillance Radar-4--validating analysis.
<bullet> The Airport Surveillance Radar-9--validating analysis.
<bullet> Systems below 960 Megahertz including:
<bullet> The Instrument Landing System--analysis and testing.
<bullet> Very High Frequency Omni-directional Range Equipment--analysis 
        and possible testing.
<bullet> The Microwave Landing System--further analysis and possible 
        testing.
    There are two points that I would like to emphasize. First, while 
we appreciate that much attention has been given to protecting GPS, 
many of the technical solutions that would protect GPS from UWB 
interference are not necessarily transferable to other systems. Because 
of different design characteristics, results derived from GPS analyses 
cannot simply be extended to other systems.
    Second, we must protect against even marginal degradations to our 
critical transportation systems. Taking aviation as an example, even 
minor weather or other disruptions at an airport can result in delays 
and ground stops at other airports throughout the nation due to the 
ripple effect in our congested airspace. Likewise, as policy makers, we 
need to be cautious of unknown impacts that may result from our 
decision on one issue, such as UWB technology, to be sure there are no 
adverse effects in other areas. I have stated some examples of impacts 
that we believe warrant further scrutiny, such as aggregate noise 
effect due to proliferation of UWB devices and direct radio frequency 
interference to certain transportation safety systems that have not 
been fully analyzed and tested. This is why the Department is so 
insistent that every effort is made to make the correct decision the 
first time.
    It should be noted that some ultra-wideband vendors have indicated 
a willingness to constrain the frequencies of their transmissions in 
order to be compatible with existing uses of the radio spectrum, while 
others have not. The difference appears to be partly a matter of 
technology design and implementation, and partly of cost. It is 
appropriate that any further consideration of rules governing UWB 
devices take this capability into account.
    But DOT's tests will supply only part of the data necessary to 
reach an informed decision on possible future UWB rules. Additional 
analytical work is needed in two areas: prototype testing and 
aggregation effects.
    Prototypes of proposed equipment are commonly tested to measure the 
characteristics of their emissions and their effects. Unfortunately, 
prototypes of UWB devices have not been available for testing. The FCC 
had hoped to gain experience on the impact of UWB devices on existing 
systems as a byproduct of the waivers it granted in 1999 to several UWB 
manufacturers. To date none of these waivers has resulted in prototype 
devices for testing or useful test data. Until this omission is 
corrected, crucial data will remain unknown. Before changes are made to 
the current rule, DOT, in conjunction with the NTIA, FCC and other 
Federal agencies, must be in a position to examine the results of 
prototype testing. We look forward to working with NTIA, FCC and the 
industry in planning and conducting the appropriate tests.
    The aggregate effect of numerous UWB devices and their effect on 
the noise floor remains to be determined. The noise floor is the level 
of background energy always present and is increased by emissions from 
manufactured devices. Some systems like GPS operate below the noise 
floor level and may suffer reduced accuracy from additional energy in 
the noise floor. As the use of UWB devices proliferate, we need to pay 
keen attention to their aggregate impact. Opinions differ about any 
potential impact and we simply don't know enough about UWB at this time 
to draw firm conclusions in this regard. We do, however, anticipate 
that UWB chips will increasingly be used in personal electronic 
devices. The airline industry already has a growing concern over these 
personal electronic devices on aircraft. Currently, such electronic 
devices are required to be turned off during certain critical phases of 
flight because of their potential for interference.
    Experience has shown that low-level signals from a number of 
otherwise benign devices can, in the aggregate, cause harmful 
interference. A telling example of this impact has been the 
proliferation of microwave ovens in this country. The frequency band in 
which they operate--2.4 GHz--has been rendered useless for critical 
applications because the background noise level from microwave ovens 
has increased the noise floor by a thousand-fold, causing significant 
interference to other uses of the band.
                               conclusion
    In summary, the Department of Transportation will continue to 
encourage the adoption of a cautious approach to the deployment of new 
technologies that have the potential to interfere with transportation-
related safety-of-life systems. We do not think the FCC has taken too 
conservative an approach. As we work with NTIA and the FCC to implement 
and examine potential changes to this rule, we all must continue to 
demand the highest levels of protection for our transportation systems 
and for the safety of the traveling public. I thank you for the 
opportunity to testify and I am happy to answer any questions you may 
have.

               List of CNS Systems Used for Transportation
------------------------------------------------------------------------
              Frequency Range                 System/Short Description
------------------------------------------------------------------------
Aviation
90-110 kHz................................  LORAN-C1 \1\--en route
                                             navigation aid
190-435 & 510-535 kHz.....................  Non-directional Beacon--en
                                             route navigation aid
2100-28,000 kHz...........................  High Frequency
                                             Communications--en route
                                             (mostly oceanic and remote)
                                             communications
75 MHz....................................  Navigation Aid (NAVAID)
                                             Marker Beacon--used for
                                             approach and landing, part
                                             of Instrument Landing
                                             Systems (ILS)
108-118 MHz...............................  NAVAID (Very High Frequency
                                             (VHF) Omni-directional
                                             range (VOR), ILS Localizer,
                                             Special Category I (SCAT-
                                             I)--ILS approach and
                                             landing aid; SCAT-1 GPS
                                             assisted landings; Local
                                             Area Augmentation System
                                             (LAAS) future precision
                                             approach and landing aid
                                             (GPS augmentation)
118-137 MHz...............................  VHF Air/Ground
                                             Communications Pilot/
                                             controller communication;
                                             en route and terminal
162-174 MHz...............................  Fixed, Mobile
                                             Communications--Comm. for
                                             maintenance and
                                             administrative, controlling
                                             runway lights, etc.
225-328.6 & 335.4-400 MHz.................  Ultra-High Frequency (UHF)
                                             Air/Ground Communications--
                                             Military pilot/controller
328.6 & 335.4-400 MHz.....................  NAVAID (ILS Glideslope)--
                                             Approach and landing aid
406-406.1 MHz.............................  Satellite Emergency Position
                                             Indicating Radiobeacon \1\--
                                             Emergency beacon for search
                                             and rescue
406.1-420 MHz.............................  Fixed, Mobile
                                             Communications--Communicati
                                             ons for maintenance and
                                             administrative, controlling
                                             runway lights, etc.
932-935 & 941-944 MHz.....................  Fixed Communications--Data
                                             links (radar information)
                                             between control towers and
                                             remote equipment
960-1215 MHz..............................  NAVAID (TACAN, Distance
                                             Measuring Equipment (DME),
                                             etc)--TACAN en-route
                                             guidance for military
                                             aircraft; DME en-route
                                             navigation, UAT
1030 & 1090 MHz...........................  Radar Beacon, Traffic Alert
                                             and Collision Avoidance
                                             Systems (TCAS), Mode S--
                                             Identification of aircraft
                                             in flight, collision
                                             avoidance
1176.45 MHz...............................  GPS L5 Downlink \1\--Future
                                             En-route and non-precision
                                             landing aid
1227.6 MHz................................  GPS L2 Downlink \1\
1215-1400 MHz.............................  Air Route Surveillance
                                             Radar--En-route
                                             surveillance
1544-1545 MHz.............................  Emergency Mobile Satellite
                                             Comm. (Downlink)--en route/
                                             Oceanic communications
1545-1559 MHz.............................  Aeronautical Mobile
                                             Satellite (R) (Downlink)--
                                             Safety communication
1559-1610 MHz.............................  Satellite Navigation \1\
1575.42 MHz...............................  GPS L1 Downlink \1\--en-
                                             route and non-precision
                                             landing aid
1645.5-1646.5 MHz.........................  Emergency Mobile Satellite
                                             Communications (Uplink)
1646.5-1660.5 MHz.........................  Aeronautical Mobile
                                             Satellite (R) (Uplink)--
                                             Safety communication
1710-1850 MHz.............................  Fixed Communications
                                             (LDRCL)--radar data, air/
                                             ground communication
2700-3000 MHz.............................  Airport Surveillance Radar,
                                             Weather Radar--Airport
                                             Surveillance Radar (ASR)
                                             terminal radar; NEXRAD
                                             weather radar
3700-4200 & 5925-6425 MHz.................  ANICS (Commercial Satellite
                                             Link)--Remote communication
                                             in Alaska (leased service)
4200-4400 MHz.............................  Airborne Radar Altimeter--
                                             Altitude measuring
                                             equipment
5000-5250 MHz.............................  NAVAID Microwave Landing
                                             System (MLS) to 5150 MHz--
                                             Precision approach and
                                             landing aid; Runway
                                             Incursion System (future
                                             system)
5350-5470 MHz.............................  Airborne Radar and
                                             Associated Airborne
                                             Beacons--airborne weather
                                             radar
5600-5640 MHz.............................  Terminal Doppler Weather
                                             Radar (TDWR)--wind shear,
                                             microbursts, storms, etc.
7125-8500 MHz.............................  Radio Communications Link--
                                             Data links (radar
                                             information) between
                                             control towers and remote
                                             equipment
8750-8850 MHz.............................  Airborne Doppler Radar
9000-9200 MHz.............................  Military Precision Approach
                                             Radar--Transportable
                                             landing aid; ASDE-X
9300-9500 MHz.............................  Airborne Radars and
                                             Associated Airborne Beacons
11.7-12.2 & 14.0-14.5 GHz.................  FAA Satellite (Commercial
                                             Satellite Links)--Leased
                                             service for communication
                                             between major FAA
                                             facilities
13.25-13.4 GHz............................  Airborne Doppler Radar
15.7-16.2 GHz.............................  Television (Video) Microwave
                                             Link--Radar data to remote
                                             control towers
15.7-16.2 GHz.............................  Airport Surface Detection
                                             Equipment (ASDE III)--
                                             Surveillance of airport
                                             surface area
21.2-23.6 GHz.............................  Microwave Link (Multi-Use)--
                                             Various communication links
35 and 94 GHz.............................  Synthetic Vision
                                             (Experimental)
Maritime
90-110 kHz................................  LORAN-C \1\--Vessel
                                             navigation
283.5-315 kHz.............................  DGPS corrections link; DGPS--
                                             used for harbor/harbor
                                             entrance and navigation on
                                             inland waterways, rail
                                             transportation; and
                                             navigation integrity
315-325 kHz...............................  DGPS; DGPS--used for harbor/
                                             harbor entrance and
                                             navigation on inland
                                             waterways, rail
                                             transportation, and
                                             navigation integrity
415-535 KHz...............................  MF Radiotelegraphy and data
518 kHz...................................  NAVTEX broadcast maritime
                                             safety information
1605-3800 KHz.............................  MF Radiotelephony including
                                             distress and safety
                                             communications
4-27.5 MHz................................  HF data/radiotelephony--
                                             Maritime distress and
                                             safety, including Global
                                             Maritime Distress & Safety
                                             System (GMDSS)
121.5-243 MHz.............................  EPIRB/ELT distress alerts
                                             and emergency locating
156-165 MHz VHF...........................  Radiotelephony--VHF Maritime
                                             Communications, including
                                             distress, safety, and
                                             vessel traffic control
161.975-162.025 MHz.......................  Universal shipborne
                                             automatic identification
                                             systems (AIS)
162-174 MHz...............................  Fixed, Mobile
                                             Communications--Communicati
                                             ons for command and control
                                             and public safety
225-328.6 & 335.4-400 MHz.................  UHF Air/Ground
                                             Communications--USCG
                                             aircraft
406-406.1 MHz.............................  Satellite Emergency Position
                                             Indicating Radiobeacon \1\
406.1-420 MHz.............................  Fixed, Mobile
                                             Communications--Comm. for
                                             public safety and
                                             maintenance
1176.45 MHz...............................  GPS L5 Downlink \1\
1227.6 MHz................................  GPS L2 Downlink \1\
1535-1544 MHz.............................  GMDSS maritime satellite
                                             communications (Downlink)
1544-1545 MHz.............................  Satellite emergency position-
                                             indicating radiobeacon
                                             (EPIRB) (Downlink)--
                                             Distress alerts
1559-1610 MHz.............................  Satellite Navigation \1\
1575.42 MHz...............................  GPS L1 Downlink \1\--Primary
                                             maritime navigation
1602-1615 MHz.............................  GLONASS Downlink--Maritime
                                             navigation
1626.5-1645.5 MHz.........................  GMDSS maritime satellite
                                             communications (Uplink)
2900-3100 MHz.............................  Shipboard and vessel traffic
                                             services radar--maritime
                                             navigation and collision
                                             avoidance (primarily foul
                                             weather)
9300-9500 MHz.............................  Shipborne Radars--maritime
                                             navigation and collision
                                             avoidance
Surficial Transportation
5.8 GHz...................................  Dedicated Short Range
                                             Communications System
------------------------------------------------------------------------
\1\ It is the case that with these radionavigation systems, there are
  multi-modal user communities far beyond transportation. In addition to
  navigation, Loran-C is used to some extent by the telecommunications
  community for timing. GPS has numerous additional user communities and
  applications.

    Mr. Upton. Thank you.
    Mr. Knapp.

                  STATEMENT OF JULIUS P. KNAPP

    Mr. Knapp. Chairman Upton, Chairman Tauzin, members of the 
subcommittee, good morning. The FCC welcomes this opportunity 
to discuss its proceeding to provide for the introduction of 
ultrawideband technology. This technology holds great promise 
for a vast array of new products that have the potential to 
provide significant benefits for public safety, businesses and 
consumers. Some of the applications for this technology include 
radar imaging of objects buried under the ground or behind 
walls, short-range high-speed data services and vehicle radar 
systems.
    Ultrawideband devices operate by employing very narrow or 
short-duration pulses that result in very large or wideband 
transmission bandwidths. With appropriate technical standards, 
ultrawideband devices can operate using spectrum occupied by 
existing radio services without causing interference, thereby 
permitting scarce spectrum resources to be used more 
efficiently.
    On February 14, the Commission adopted a First Report and 
Order, establishing rules to provide for the development and 
marketing of unlicensed, low-power ultrawideband devices. The 
Commission's rules provide for three categories of UWB devices: 
imaging systems, vehicle radar systems and communications and 
measurement systems. The first category, imaging systems, 
includes ground penetrating radars, wall imaging systems, 
through-wall imaging systems, surveillance systems and medical 
systems.
    Imaging systems generally need to operate in the lower 
parts of the radio spectrum to operate properly. However, these 
are also the parts of the spectrum that are used most heavily 
by other radio services. The rules allow imaging devices to 
operate below 960 megahertz or above 3.1 gigahertz, preventing 
them from causing interference in the most sensitive frequency 
bands used for services such as air traffic control and global 
positioning systems.
    The rules also restricted the users to include law 
enforcement, fire and emergency rescue organizations, 
scientific research institutions, commercial mining companies, 
licensed health care practitioners and construction companies. 
And at the request of NTIA, the FCC will coordinate the 
operation of all imaging systems with the Federal Government.
    The second category of UWB technology permitted by these 
rules is vehicle radar systems. Vehicle radars can be used for 
collision avoidance, safer deployment of airbags and smoother 
suspension systems that better respond to road conditions. 
These systems will operate in the upper reaches of the spectrum 
between 22 and 29 gigahertz where the spectrum is not as 
heavily used as lower frequency bands.
    The third category of UWB devices is communications and 
measurement systems. These devices can be used for applications 
such as high-speed home and business networking devices, in-
home distribution of digital TV signals and storage tank 
measurement systems. Existing users of the spectrum expressed 
the greatest concerns about this category of devices due to the 
potential for widespread proliferation. The Commission 
restricted operation of these devices to the frequency band 3.1 
to 10.6 gigahertz, thereby avoiding parts of the spectrum that 
are most heavily used, including the GPS band.
    Because ultrawideband devices emit energy over large swaths 
of spectrum, emissions in the spectrum used by both government 
and non-government systems cannot be avoided. Therefore, the 
FCC and the NTIA have shared jurisdictional responsibilities. 
Throughout the ultrawideband proceeding, the staffs of the 
Commission, NTIA and other Federal agencies and departments, 
worked together cooperatively to develop rules that will enable 
initial deployment of ultrawideband technologies while ensuring 
that incumbent government systems are fully protected against 
harmful interference.
    The technical rules are based, in large measure, on 
standards recommended by NTIA, that NTIA believes are necessary 
to protect against interference to vital Federal Government 
operations, including safety systems. We are extremely 
confident that the standards the Commission adopted for UWB 
devices will protect against harmful interference to both 
government and non-government operations.
    The FCC plans to closely monitor the introduction of this 
technology through our Equipment Authorization Program. In 
addition, the Commission is committed to take enforcement 
action for non-compliance with the rules and to act 
expeditiously to resolve any interference.
    The Commission's action is a cautious first step in 
authorizing ultrawideband technology. In taking its action, the 
Commission expressed concern, however, that the standards may 
be overprotective and could unnecessarily constrain the 
development of ultrawideband technology. Upon adoption of the 
First Report and Order, the Commission indicated its intent to 
review the ultrawideband standards within 6 to 12 months. We 
are currently undertaking a study at the Commission's 
laboratory in Columbia, Maryland to better understand whether 
the limits that were adopted are appropriate, particularly 
relative to the levels of background noise that already may 
exist from other devices. We plan to make the results available 
for public evaluation by the end of this year. We have invited 
other organizations to perform further studies of ultrawideband 
technology as well.
    The reactions to the Commission's decision have generally 
been quite favorable. Several companies have announced that 
they plan to introduce ultrawideband products very soon. We 
recognize that some ultrawideband users have raised concerns 
about the new rules, in particular manufacturers and users of 
ground penetrating radars. However, we are confident that any 
remaining issues can be resolved in an expeditious manner.
    I would like to thank you, Mr. Chairman, for the 
opportunity to appear before you today. This concludes my 
testimony. I would be pleased to take any questions.
    [The prepared statement of Julius P. Knapp follows:]
    Prepared Statement of Julius P. Knapp, Deputy Chief, Office of 
     Engineering and Technology, Federal Communications Commission
    Mr. Chairman, Ranking Member, and Members of the Subcommittee:
    Good morning. I am Julius Knapp, Deputy Chief of the Office of 
Engineering and Technology at the Federal Communications Commission 
(FCC). I welcome this opportunity to discuss the FCC's proceeding to 
provide for the introduction of ultra-wideband (UWB) devices.
                              introduction
    Ultra-wideband technology holds great promise for a vast array of 
new products that have the potential to provide significant benefits 
for public safety, businesses and consumers. Some of the applications 
for this technology include radar imaging of objects buried under the 
ground or behind walls, short-range high-speed data devices, and 
vehicle radar systems.
    UWB devices operate by employing very narrow or short duration 
pulses that result in very large or wideband transmission bandwidths. 
With appropriate technical standards, UWB devices can operate using 
spectrum occupied by existing radio services without causing 
interference, thereby permitting scarce spectrum resources to be used 
more efficiently. To that end, the Commission reviewed extensive 
comments that were filed in the UWB proceeding by numerous industry 
stakeholders.
    On February 14, 2002, the Commission adopted a First Report and 
Order establishing rules to allow development and marketing of 
unlicensed low power UWB devices. The Commission's action is a cautious 
first step in authorizing UWB technology. The technical rules are based 
in large measure on standards recommended by the National 
Telecommunications and Information Administration (NTIA) that NTIA 
believes are necessary to protect against interference to vital federal 
government operations, including safety systems. In taking its action, 
the Commission expressed concern, however, that the standards may be 
overprotective and could unnecessarily constrain the development of UWB 
technology. Upon adoption of the First Report and Order, the Commission 
indicated an intent to review these standards and explore more flexible 
technical standards to address the operation of additional types of UWB 
operations and technology.
             overview of the new provisions for uwb devices
    The Commission categorized UWB devices into three types: (1) 
imaging systems; (2) vehicle radar systems: and (3) communications and 
measurement systems.
    The first category, imaging systems, includes ground penetrating 
radars (GPRs), wall imaging systems, through-wall imaging systems, 
surveillance systems and medical systems.

<bullet> Ground penetrating radars detect the location and image of 
        buried objects and can be used for applications such as law 
        enforcement investigations and for detecting flaws in bridges 
        and roadways.
<bullet> Wall-imaging systems can be used to examine the foundations of 
        buildings and to locate objects such as pipes inside a wall.
<bullet> Through-wall imaging devices can be used by law enforcement, 
        fire and rescue organizations for hostage rescue and locating 
        persons trapped inside a burning building.
<bullet> Surveillance systems, although technically not imaging, can 
        operate as ``security fences'' by establishing a stationary 
        radio frequency (RF) perimeter field and detecting the 
        intrusion of persons or objects in that field.
<bullet> Medical imaging is used to detect the location or movement of 
        objects within the body of a person or animal.
    Imaging systems generally need to operate in the lower parts of the 
radio spectrum in order to work properly. However, these are also the 
parts of the spectrum that are used the most heavily by other radio 
services. The recently adopted rules generally allow imaging systems to 
operate below 960 MHz or above 3.1 GHz, prevent them from causing 
interference in the most sensitive frequency bands used for services 
such as air traffic control and the global positioning system. The 
rules also restricted the users to include law enforcement, fire and 
emergency rescue organizations, scientific research institutions, 
commercial mining companies, licensed health care practitioners and 
construction companies. At the request of NTIA, the FCC will coordinate 
the operation of all imaging systems with the federal government.
    The second category of UWB technology permitted by these rules is 
vehicle radar systems. Vehicle radars can be used for collision 
avoidance, safer deployment of airbags, and smoother suspension systems 
that better respond to road conditions. These systems will operate in 
the upper reaches of the spectrum between 22 and 29 GHz, where the 
spectrum is not as heavily used as lower frequency bands.
    The third category of UWB devices is communications and measurement 
systems. These devices can be used for applications such as high-speed 
home and business networking devices, in-home distribution of digital 
TV signals, and storage tank measurement devices. Existing users of the 
spectrum expressed the greatest concerns about this category of devices 
due to the potential for widespread and uncontrolled use. The 
Commission restricted operation of these devices to the frequency band 
3.1-10.6 GHz, thereby avoiding the parts of the spectrum that are used 
most heavily, including the GPS band.
   protection of existing radio services against harmful interference
    The establishment of standards to protect against harmful 
interference from UWB devices has been a daunting task. Most 
interference issues involve potential interactions between two, or 
perhaps a few, radio services, because the energy generated by a 
particular service tends to be limited to a narrow range of 
frequencies. In contrast, UWB devices emit energy over wide swaths of 
the spectrum used by dozens of services, raising the possibility of 
many potential interference interactions, each of which needed to be 
analyzed.
    Since the UWB proceeding commenced in 1998, many parties filed 
comments in the Commission's rules making proceeding raising concerns 
about potential interference from UWB devices to the personal 
communications service, multipoint distribution service, satellite 
digital audio radio service, GPS, and others. The Federal Government, 
under the auspices of NTIA, also evaluated potential interference to a 
wide variety of systems such as GPS, aeronautical navigation systems, 
weather radars, and systems used by agencies such as the Department of 
Defense, the National Aeronautics and Space Administration, and the 
Department of Transportation.
    The FCC's engineering and technology staff analyzed the extensive 
tests performed by NTIA, Stanford University, the University of Texas 
and others. We reviewed and considered more than 700 filings that were 
submitted in the Commission's rule making proceeding. We also 
coordinated extensively with NTIA.
    We are extremely confident that the standards the Commission 
adopted will protect against harmful interference to other radio 
services. For example, the rules require ultra-wideband communications 
devices to operate above 3.1 GHz, well away from the frequency band at 
1.6 GHz used for GPS. In addition, any spurious emissions in the GPS 
spectrum would need to be suppressed by 34 dB below the emissions 
limits that apply to millions of existing radio frequency devices--in 
other words, more than 2000 times less than the radio noise permitted 
to be emitted by a personal computer.
    The FCC plans to closely monitor the introduction of this 
technology through our equipment authorization program. In addition, 
the Commission is committed to take enforcement action for 
noncompliance with the rules and to act expeditiously to resolve any 
instances of interference.
                         coordination with ntia
    As I previously mentioned, FCC staff coordinated extensively with 
NTIA staff in developing the standards adopted in the First Report and 
Order and in large part based the standards on measures that NTIA 
believes are necessary to protect against interference to vital federal 
government operations. Throughout the proceeding NTIA and FCC staffs 
were in constant dialogue. Because UWB devices emit energy over large 
swaths of spectrum, emissions into spectrum used by both Government and 
non-Government systems cannot be avoided. Therefore, both NTIA and the 
FCC have shared jurisdictional responsibilities. Given the multitude of 
radio services that could potentially be affected by UWB emissions and 
the complexity of the technical analyses, it should not be surprising 
that there were different points of view on some issues among the 
agencies as well as the parties. However, the staffs of the Commission, 
NTIA and the other Federal agencies and departments worked together 
cooperatively to develop rules that will enable initial deployment of 
some UWB technologies while ensuring that incumbent government systems 
are fully protected against harmful interference.
              next steps: further testing and measurements
    UWB technology is still in its infancy and it is important that the 
government continue to monitor the development of this technology. 
Additional scientific work is needed to expand our understanding of 
this technology and its interference potential as it develops.
    As I mentioned earlier, the Commission has committed to review the 
standards for UWB devices in the next six to twelve months. We are 
undertaking a study at the Commission's Laboratory in Columbia, 
Maryland, to better understand whether the limits that were adopted are 
appropriate, particularly relative to the levels of background noise 
that may already exist from other devices. We plan to make the results 
available to the public for evaluation by the end of the year. We have 
invited other organizations to perform further studies of UWB 
technology as well.
                 reaction to the first report and order
    The reactions to the Commission's decision on UWB have generally 
been quite favorable. Several companies have announced that they plan 
to introduce new UWB products very soon. We recognize that some UWB 
interests have raised concerns about the new rules, in particular, 
manufacturers and users of ground penetrating radars. We also realize 
that some non-Government radio services may not be satisfied that they 
will be adequately protected against interference. We are confident 
that any remaining issues can be resolved in an expeditious manner.
                               conclusion
    I would like to thank you, Mr. Chairman, for the opportunity to 
appear before you today. This concludes my testimony and I would be 
pleased to answer any questions you or the other members may have.

    Mr. Upton. Thank you.
    Mr. Petroff.

                  STATEMENT OF RALPH G. PETROFF

    Mr. Petroff. Yes. Thank you. Mr. Chairman and----
    Mr. Upton. You just need to hit that--I think you need to 
hit the mike button there.
    Mr. Petroff. Now? Okay. Mr. Chairman and distinguished 
members of the subcommittee, I am honored to testify, thank you 
very much. And, Mr. Tauzin, before I begin I would like to take 
a moment to recognize this committee and particularly your 
leadership on behalf of new technologies. Your advocacy has 
contributed to the success of new technologies and increased 
choices and services for the public. I would also like to take 
a moment to recognize the distinguished public servants who sit 
here on this panel. We worked closely with FCC, NTIA and DOD 
throughout the approval process. I respect Julie Knapp and Mike 
Gallagher and Stephen Price, and they deserve praise for their 
work on a difficult issue. I only met Mr. Shane earlier this 
morning.
    Mr. Chairman and members of the subcommittee, while you may 
hear different views from the distinguished panelists today on 
the specifics surrounding the UWB approval process, I believe 
there are two points upon which everyone will agree. First, we 
are all pleased the First Report & Order was adopted. It is an 
historic first step for a technology that will ultimately bring 
significant benefits to government, military, transportation 
and consumers. Second point is our spectrum management can be 
improved to promote, rather than delay, important new 
technologies. Our current process takes too long. We started 
this regulatory approval 13 years ago, including nearly 4 years 
of detailed regulatory proceedings, and it is not over yet. 
This is far too much time, if new technologies are going to 
have any chance of getting to market. Too often government 
agencies and commercial interests act based on spectrum 
politics, rather than spectrum policymaking. If we do not 
improve this process of spectrum management, we will fall 
behind the rest of the world in deploying new technologies.
    Let me start by describing UWB. It is a new wireless 
technology that enables several orders of magnitude improvement 
in three core technologies: communications, radar and precision 
positioning and tracking. UWB is different from existing radio 
in that it emits infinitesimally low levels of power across a 
wide band. To put this in context, a mobile phone emits almost 
7 million times the power of a UWB device into the same 
spectrum. Because the signal looks like the emissions from 
computers and has the same power level as computers, we 
initially sought approval to be treated like computers in FCC's 
Part 15 rules.
    I have a chart here. You can see at the very bottom that 
red line that cuts across all spectrum. That is the Part 15 
limit, and it is not drawn to scale. It is actually much lower 
than that. This is a spectrum sidewalk that cuts across every 
single government and commercial spectrum band. In the 
sidewalk, billions of devices like laptops and palm pilots have 
operated without interference, even in the restricted bands, 
since the 1980's. This sidewalk is infinitesimally small. Cell 
phones are allowed to put out half a watt per megahertz, while 
Part 15 devices are limited to 0.00000007 watts. To put things 
in perspective, if the power level for a cell phone was a 
building, it would be as tall as the Empire State Building, but 
the spectrum sidewalk would be only the width of a human hair.
    I want to be very clear, this is issue is not about 
reallocation of spectrum. It is about using the same spectrum 
sidewalk that billions of other low-power devices use without 
harm to existing users and without requiring any existing user 
to move to different bands in the spectrum. We agree with the 
FCC's public statements about a conservative first step. In 
fact, if you examine the text in the ruling, the word 
``conservative'' appears 30 times; ``cautious,'' 11; 
``limited,'' 36. Despite this cautious first step, the NTIA/FCC 
ruling will permit some applications of UWB technology to reach 
the market and benefit the public. Other applications will have 
to wait.
    What will the public see from UWB in the short term? The 
first market where the public will see UWB products is for 
personal area networkings, wirelessly connecting consumer 
electronics and personal computers in the home and office. This 
is the focus of our commercial business. UWB can provide ultra 
high-speed wireless connectivity between consumer devices, 
wirelessly transferring video among camcorders, digital cameras 
and printers.
    Another market where we believe the public will see product 
is in ground penetrating radar and through-wall radar. We have 
developed a through-wall imaging radar device, called 
Radarvision, to help military, police and fire fighters. It can 
help them determine the location of people on the other side of 
the door for policemen, fire fighters to determine in what room 
a victim might be located in a burning building and rescue 
workers to locate victims under earthquake rubble by detecting 
their breathing. Like GPR, it is only used in isolated 
instances by trained personnel. We have a waiver from the FCC 
to deploy a limited number products. However, we will not be 
able to fully do our job with this through-wall imaging under 
the current rules. I hope this is one quick change to the rules 
that we can all agree to make quickly.
    How can UWB benefit the public over time? It is a 
remarkable new technology for all sorts of applications in 
medical and in military. Mr. Chairman and members of the 
subcommittee, with all of these unprecedented benefits to 
offer, UWB faced enormous hurdles getting approval. The 
regulatory process fell victim to spectrum politics rather than 
spectrum policymaking. There needs to be objective oversight of 
technical testing and analyses to ensure that everyone plays by 
the same rules.
    UWB should be a win-win for incumbent government and non-
government users of spectrum. After all, UWB can use spectrum 
efficiently without displacing existing users. For new 
technologies like UWB to reach the public, we need timely 
spectrum management that fairly balances the need to deploy new 
technologies with the need to protect existing users. Thank 
you, Mr. Chairman.
    [The prepared statement of Ralph G. Petroff follows:]
 Prepared Statement of Ralph G. Petroff, Chief Executive Officer, Time 
                           Domain Corporation
    Mr. Chairman, distinguished Members of this Subcommittee, I am 
honored to be invited to testify before you today--thank you very much.
    Mr. Chairman, I would like to request that a copy of my complete 
remarks be entered as part of the record.
    I would like to start out by recognizing the distinguished public 
servants who sit on the panel. I am fortunate to be appearing in the 
company of our nation's experts on spectrum management. We worked 
closely with the Federal Communications Commission (``FCC''), National 
Telecommunications Information Administration (``NTIA'') and the 
Department of Defense (``DOD'') throughout the UWB approval process. I 
respect Julie Knapp, Mike Gallagher, and Steven Price and they deserve 
praise for their work on this difficult issue. While we may have had 
differences at times during the first phase of the Ultra Wideband 
(``UWB'') approval process, these gentlemen worked very hard on the 
difficult and thankless task of UWB regulatory approval. At times, they 
faced tremendous pressure from within their own agency or department, 
other agencies or departments, and parts of the private sector, yet 
they fought hard to find a way to respond to the participants in the 
process and approve UWB. Their efforts have resulted in the first step 
in the UWB regulatory approval process.
    Mr. Chairman, Members of the Subcommittee, while you may hear 
different views from the distinguished panelists today on specifics 
surrounding the UWB approval process, I believe there are two points on 
which everyone will agree. First, we are pleased the First Report & 
Order was adopted. It is an historic first step for a technology that 
will bring life-saving and other benefits to the public. Second, our 
spectrum management process can be improved to promote, rather than 
delay important new technologies. Our current process takes too long to 
evaluate and approve new technologies. The path to UWB regulatory 
approval took more than 13 years, including three and one half years of 
regulatory proceedings. This is far too much time, if new technologies 
are going to have any chance of getting to market. Too often government 
agencies and commercial interests act based on spectrum politics, 
rather than spectrum policy-making. There needs to be objective 
oversight in areas such as testing and technical analysis that can form 
the basis for sound spectrum policymaking. Finally, there are often 
inherent conflicts within and among the government entities involved in 
spectrum management that diminish their ability to function 
independently. If we do not improve our process of spectrum management, 
we will fall behind the rest of the world in deploying new 
technologies.
    This morning, I would like to briefly cover the history of the UWB 
proceeding, quickly discuss what the FCC's First Report & Order means 
for industry and the public, and then discuss in greater detail some of 
the challenges in the regulatory process that we faced as a company 
seeking regulatory approval.
i. brief history of time domain corporation and its breakthrough ultra 
                          wideband technology
A. History of Time Domain
    Time Domain's UWB technology was discovered in 1974 by the 
proverbial inventor in his garage--an Arkansan named Larry Fullerton. 
While in college, one of Fullerton's engineering professors challenged 
his class by telling them that pulses of the kind now used by Time 
Domain could not be sent through an antenna. Larry Fullerton thought 
the professor might be wrong. After years of experimentation, Fullerton 
succeeded in sending pulses that transmitted radio programming across 
his workbench in Huntsville, Alabama.
    Fullerton's discovery remained hidden from the rest of the world 
for many years as he toiled away in near obscurity. Many of the people 
with whom he shared his discovery told him that what he claimed the 
technology could do simply could not be done. Fullerton did not have 
the money to develop the technology for commercial deployment, so he 
used whatever money he could scrape together to file patents on his 
technology and build crude functioning prototypes.
    After receiving his first patent in 1987, Fullerton founded Time 
Domain, with a goal of building more support for his discovery and, 
ultimately, commercializing the technology. While some progress was 
made in this regard, particularly in terms of further technology 
development and acquiring additional patents, Time Domain remained a 
struggling small business for many years.
    By 1995, Fullerton had 15 patents and had built 22 prototypes, 
including: radar devices that could detect motion through walls, 
``see'' underground, and create security bubbles to determine the exact 
size and shape of an object penetrating the bubble; location and 
tracking devices that worked like GPS, except that they did not need 
satellites, worked underground and indoors where GPS could not go, and 
were accurate to approximately two centimeters; and communications 
devices that could wirelessly send digital video through walls.
    In 1996, the Petroff family, who had been involved in NASA programs 
and several successful start up technology companies recognized that 
Fullerton had potentially discovered a once-in-a-generation technology. 
The Petroffs did a year's worth of due diligence on the technology and 
the patents and concluded that: (1) Fullerton had excellent patent 
coverage on his UWB technology; (2) the UWB technology worked and had 
the potential to be a fundamental technology; and (3) the technology 
was enabling in that it could create entirely new products and even 
entirely new industries. The Petroffs proceeded to make a significant 
multi-million dollar investment in Fullerton's company and, convinced 
of the technology's significance and potential, joined the company as 
its management team.
    By 1998, there was still no movement on obtaining regulatory 
approval and the Petroffs had supplemented their initial investment 
with a substantial portion of their net worth. In order for the company 
to remain solvent, the CEO was forced to take out a mortgage on his 
house. Then, the technology community and press began to discover UWB 
technology, writing stories that described a technology that could 
potentially change the world, and investors began to invest in the 
company.
    Today, Time Domain has attracted the attention of corporate America 
and financial investors, including a number of Fortune 500 strategic 
investors and more than a dozen venture capital investors. The company 
is working on its third generation chipset and has more than 240 
patents filed or granted. The company has completed or is currently 
working on more than 50 government contracts, most of which are for the 
Department of Defense. The IEEE, the governing body for standards 
setting in the engineering world, is working on a standard for UWB for 
consumer products. The military is using UWB technology in more than 
100 programs.
B. Time Domain's Ultra Wideband Technology
    UWB technology is different from existing radio. It does not use an 
assigned carrier frequency, nor does it employ sine waves using 
traditional concepts such as amplitude or frequency modulation. 
Instead, Time Domain's technology uses extraordinarily brief pulses--
from 40 million to a several billion a second. These pulses emit very 
low energy, similar to the energy emitted by a Part 15 device such as a 
laptop computer. As you know, Part 15 devices are not licensed. They 
operate at very low power and may not cause harmful interference to 
other radio services. To put this in context, a UWB device emits about 
1/10,000th the power of a cell phone.
    We initially approached regulatory approval believing that because 
our technology met the Part 15 rules regarding emissions levels, UWB 
would be approved to operate under those same rules. The final rule 
does not allow UWB to operate at Part 15 power levels in key parts of 
the spectrum, but at power levels more than 2000 times less than Part 
15 devices such as laptop computers. UWB is permitted to operate at 
Part 15 power levels in spectrum above 3.1 GHz. The FCC indicated, and 
we agree, that this very conservative decision should be revisited in 
coming months.
    Time Domain's UWB technology produces vastly reduced wave 
cancellation from multipath distortion of the sort that plagues 
conventional radio systems. This enables incredible efficiencies and 
several orders of magnitude improvement in three areas: communications, 
radar, and position-location-tracking. This technology is unique in 
that all three of these capabilities can be fused into a single 
chipset. Time Domain's business model is to design the chipset, which 
the company's strategic partners will then integrate into their own 
products to bring substantial new benefits to consumers, businesses and 
government.
ii. the fcc's first report & order: what does it mean for industry and 
                              the public?
    We agree with the FCC's public statements that the First Report & 
Order is a very conservative first step. If you examine the text of the 
First Report & Order, the word ``conservative'' appears 30 times, the 
word ``cautious'' appears 11 times, and the word ``limited'' appears 36 
times. Despite being a cautious first step, the First Report & Order 
will permit some applications of UWB technology to reach the market and 
benefit the public. Other applications of the technology that would 
have been possible will have to wait for a reexamination of the limits 
set forth in the First Report & Order.
    What will the public see in the short to medium term from UWB? The 
first market where we believe the public will see UWB products is for 
personal area networking (``PAN'')--or connecting consumer electronics 
and personal computers in the home and office. UWB can provide wireless 
connectivity among camcorders, PCs, DVD players, flat screen television 
displays, digital cameras, printers, MP3 players and other digital 
devices. UWB's ability to transmit very high bandwidth over short 
distances offers wireless connectivity for multimedia applications that 
no other technology can provide. Devices with UWB will consume low 
power enabling the technology in hand held devices and preserving these 
devices' battery life. UWB will be priced low enough for equipment 
manufacturers to include the technology in their consumer electronic 
products. Finally, because of UWB's use of spectrum, it can co-exist 
with other technologies without causing or receiving interference like 
other technologies operating in unlicensed spectrum. The IEEE is 
working on a standard for UWB in PAN and large consumer electronics 
companies such as Motorola, Sony, Intel, Phillips, Panasonic, Intersil, 
and Kodak are supporting the effort. We expect products with UWB for 
the PAN market to be on store shelves as early as the end of 2003.
    The second market where we believe the public will see products in 
the near term is for automotive radar. While Time Domain does not work 
in this area, we are aware that Daimler Chrysler and other companies 
have performed considerable work on automotive radars operating in the 
24 GHz frequencies. We believe that Daimler Chrysler has a working 
demonstration of a 24 GHz radar for automotive collision avoidance 
sensors and is actively developing products for this application using 
UWB.
    A third market where we believe the public will see product shortly 
is in the applications for ground penetrating and through-wall radar. I 
am less qualified to talk about GPRs than our panelist, whose company 
has worked with this application of UWB for many years. As I am sure he 
will recount, they have been used for years by public safety and law 
enforcement personnel, and others. Similar to ground penetrating radar, 
Time Domain has developed a through-wall imaging radar device under 
military contract called RadarVision for the military, police, 
firefighters and rescue workers. This may allow, for example, police to 
determine the location of people on the other side of a door; 
firefighters to determine in what room a victim might be located in a 
burning building; and rescue workers to locate under earthquake rubble 
where a survivor may be alive simply by detecting breathing. Time 
Domain's RadarVision 2000 product will be ready for deployment in 
October this year. Time Domain has successfully demonstrated the 
prototype product at major law enforcement agencies including, the 
Fairfax County Rescue Squad and the Dade County Search and Rescue team, 
two of the top organizations in the country that respond to earthquakes 
to rescue victims.
    Time Domain has had a waiver from the FCC to deploy a limited 
number of its Radarvision products. The FCC's First Report & Order 
extended the duration of the waiver for an additional year. However, 
like the GPR community's ground penetrating radar, Time Domain's 
through-wall radar would not be able to achieve full functionality 
under the rules set forth in the First Report & Order absent the 
extension of the waiver. Under the current rules, these devices would 
be able to be used by the military and federal, but not state and 
local, law enforcement and public safety personnel. Given that there 
will only be a limited number of these devices, operated by trained 
life-saving first responders, we urge the FCC and NTIA to revisit this 
issue as quickly as possible so these devices can save lives in the 
hands of state and local safety personnel, in the same manner as they 
will in the hands federal users. I hope this is one change to the FCC 
rules on which we can all agree.
   iii. potential long term benefits of uwb technology to the public
    How can UWB benefit the public over time? UWB has the potential to 
enable entirely new wireless applications and products, and to make 
significant advances in critical areas such as public safety, aviation 
safety, military effectiveness, medical applications, and 
communications.
    UWB enables radar with superior clutter rejection and much higher 
resolution than traditional radar, achieving range resolutions of less 
than six inches. This facilitates new short-range radar applications 
such as ``through-walls'' radar and radar that can ``see'' underground; 
security bubbles and electronic security fences that can tell the exact 
size and shape of an object penetrating them; and sensors for ``smart'' 
airbag deployment. The military is evaluating UWB radar technology for 
terrain mapping to aid in the location and removal of landmines.
    Time Domain's UWB technology enables precise-location-tracking 
applications that complement GPS by providing relative position 
information to enhance the absolute position information provided by 
GPS. UWB technology can provide position information indoors, 
underground, in urban canyons, and under foliage where GPS often cannot 
provide position information. The positioning information from UWB is 
accurate to within two centimeters. Thus, UWB can complement GPS by 
extending the reach of GPS locally indoors, underground, and in urban 
canyons based upon the last GPS reading. The applications for this 
functionality are numerous. UWB can be used to track which workers 
enter sensitive areas of hospitals, nuclear plants, and military 
installations. The technology can be used to track assets such as 
mobile, life-saving equipment in hospitals, packages and containers in 
a factory or warehouse, or objects in the home. The military is 
currently evaluating the technology to solve one of their most 
difficult problems--the precise location and tracking of soldiers in 
urban combat and training exercises.
    A number of firefighters and other first responders urged the FCC 
to allow public safety use of UWB for tracking personnel, for example, 
tracking firefighters inside a burning building. If this tracking use 
were permitted in the future, it could be combined with communications 
functions to provide a dramatic improvement in firefighter safety. 
While we are not engaged in this business, we urge the Committee to 
support the approval of these public-safety tracking applications when 
the FCC reexamines the rules in six to twelve months.
    In the area of communications, UWB can provide very high bandwidth, 
hundreds of megabits per second, at very short distances. In time, UWB 
will enable ultra high-speed indoor wireless networks across many 
devices for the true ``smart'' home and office.
      iv. the regulatory approval process for uwb: lessons learned
A. History of UWB Proceeding
    Time Domain began its quest for regulatory approval in 1989 when 
Larry Fullerton made his first visit to Washington, DC to the FCC. I 
would like to briefly summarize the process because I believe it 
demonstrates a number of ways that it could be improved. During the 
subsequent early years after Larry's first visit, and even later, Time 
Domain met with FCC officials to move the regulatory approval process 
for UWB forward. In 1992, a predecessor company that later merged with 
Time Domain filed a request for a pioneer's preference at the FCC which 
was denied that same year. In 1994, the FCC granted Time Domain a 
special temporary authority to test UWB and Time Domain voluntarily 
filed its testing data to speed up the regulatory process. In 1995, the 
company filed comments in the UNII proceeding urging the FCC to approve 
UWB. In 1996, Time Domain presented an overview of UWB technology to 
the FCC's Office of Engineering Technology.
    During the first half of 1997, Time Domain met with FCC labs and 
OET staff approximately a dozen times. In April 1997, Time Domain 
demonstrated UWB to the Interdepartmental Radio Advisory Committee 
(``IRAC'') at NTIA and discussed intentionally radiating into the 
government bands at Part 15 level power. In September 1997, Time Domain 
demonstrated its technology for the FCC Office of Engineering 
Technology ``(OET''), FCC labs, NTIA, and ITS labs staff.
    In February 1998, Time Domain filed a request for a waiver of Part 
15 rules to permit operation of a limited number of Radarvision devices 
for public safety and law enforcement personnel. 14 law-enforcement, 
defense, public safety, and counter-terrorism entities file comments in 
support of granting the waiver. No party filed comments in opposition 
to the granting of the waiver request during the comment period. From 
April 1998 to March 1999, Time Domain attended approximately 25 
meetings with the FCC to discuss UWB technology. On June 30, 1998, OET 
wrote a letter to the Office of Spectrum Management, NTIA, tentatively 
concluding that Time Domain's waiver request is ``ripe for grant 
subject to coordination with NTIA.'' In September 1998, the FAA 
Administrator's office voiced strong opposition to the use of UWB 
devices, claiming in a letter to the NTIA Administrator and the FCC 
Chairman that a proliferation of UWB devices could pose potential 
safety problems due to interference with avionics and navigation units.
    During the next several months, Time Domain repeatedly met with FAA 
officials. On May 11, 1999, the FAA Administrator writes a letter to 
the FCC Chairman in which she agreed to remove FAA's objections to Time 
Domain's request for waiver. On June 15, 1999, nearly a year after Time 
Domain first filed its waiver request, NTIA indicated that the FCC 
could grant the waiver for use of 2500 units with nine conditions on 
the use of the devices. On June 29, 1999, the FCC granted the waiver 
requests from Time Domain and two other companies with the NTIA 
conditions attached. In August 1999, Professor Per Enge, on behalf of 
the GPS Industry Council, filed a petition for reconsideration of the 
grant of the waiver requests. In September 1999, Professor Enge 
withdrew his petition for reconsideration of the grant of the waiver 
requests.
    On September 1, 1998, the FCC issued a Notice of Inquiry on UWB 
technology. From August to November of 1999, Time Domain worked with 
NTIA's ITS labs to develop a test plan for testing UWB with GPS 
systems. On December 1, 1999, after four months of working with ITS 
engineers on the test plan, NTIA staff oppose moving forward with 
testing and the plan is set aside. On September 29, 1999, the Ultra-
Wideband Working Group sponsored the first international Ultra-Wideband 
Conference in Washington, D.C. Representatives from more than 14 
countries attend, and the Working Group expands to more than 75 
members. FCC Commissioner Susan Ness delivered the keynote address in 
which she calls on the FCC and NTIA to: (1) issue a Notice of Proposed 
Rulemaking on UWB within a few months; (2) complete a rule making on 
UWB by the end of the year 2000; and (3) conduct joint testing with 
government users and industry participants concurrently with the 
rulemaking process.
    On December 5-6, 1999, Time Domain learned that the Department of 
Transportation planned to sponsor a meeting at Stanford University to 
discuss testing for potential interference of UWB with GPS. On December 
7, 1999, representatives of Time Domain attended the DOT/Stanford 
University meeting as uninvited participants. At the meeting, Professor 
Enge presented testing results that purport to show that UWB devices 
cause harmful interference with GPS devices. As part of his 
presentation, Professor Enge performed a demonstration in which he 
places a UWB device operating at higher power levels than Part 15 in 
proximity to a GPS receiver to demonstrate interference. 
Representatives of several of the airlines are in attendance at the 
meeting. On December 21, 1999, the Air Transport Association circulated 
a draft letter for Members of Congress to sign to William Kennard, 
Chairman of the FCC, expressing concerns over UWB technology.
    On May 11, 2000, the FCC released its Notice of Proposed Rulemaking 
on UWB. During the remainder of 2000 and the first half of 2001, NTIA, 
the Department of Transportation and Stanford University, and the 
University of Texas and Johns Hopkins University conducted 
compatibility studies and analysis between UWB and other radio 
services. Interested parties filed hundreds of comments on the test 
results and other issues in the FCC docket during this period.
    On November 20, 2001, Deputy Secretary of Defense Wolfowitz sent a 
letter to Secretary Evans urging the FCC to delay its pending December 
decision on UWB. On December 11, the FCC pulled the UWB item from its 
December 12, 2001 meeting agenda citing a request of the Commerce 
Secretary.
    On February 14, 2002, the FCC adopted the First Report & Order in 
the UWB proceeding. On March 20, 2002, Deputy Secretary Wolfowitz sent 
letter to Secretary Evans applauding his efforts in ensuring that the 
FCC's UWB decision contained sufficient safeguards to protect spectrum 
dependent military systems. On March 15, 2002, Deputy Assistant 
Secretary Gallagher sent a letter to Chairman Powell indicating that 
the government users may not be required to follow the rules in the 
First Report & Order for use of UWB.
B. The Process for Approving New Technologies Takes Too Long
    It took 13 years, including three and one half years of intensive 
efforts, to gain regulatory approval for UWB. I personally made over 
100 trips to Washington since 1996 to meet with regulators, and we 
spent several million dollars seeking regulatory approval. Often I am 
amazed that we are still in business. Fantasma Networks, the second 
largest UWB company that was backed by Intel and Paul Allen's Vulcan 
Ventures, went out of business last year waiting for regulatory 
approval. Without the ability to earn revenue from government contracts 
with the Defense Department, we would have gone out of business years 
ago waiting for regulatory approval.
    In today's difficult business climate, early-stage companies have 
trouble raising capital to sustain their businesses. Unlike the mid and 
late 1990's when capital was plentiful, companies today have less 
operating capital and thus shorter timelines to get their products to 
market. No company or industry is going to be able to wait several 
years for regulatory approval. There must be a way to shorten this 
process, so that new technologies have a chance to get to market.
C. Conflicts Between Government Agencies on Spectrum Management
    The UWB proceeding may have been unusual in that it involved both 
government and commercial spectrum and a large number of incumbent 
users of spectrum. However, there are other issues, such as 3G, where 
this dynamic exists and there are likely to be more such issues in the 
future. The legal requirement as I understand it, is that the FCC and 
NTIA must ``coordinate'' on issues affecting commercial and government 
spectrum. Throughout the UWB regulatory approval process, it appeared 
as though the FCC and NTIA had difficulty coordinating the views of the 
government and commercial users of spectrum, as illustrated by a few 
examples below.
    It took NTIA nearly a year to obtain internal sign off by 
government users of spectrum to approve with conditions the requests 
for waivers submitted by Time Domain and other companies. This despite 
the fact that the devices requested by Time Domain were lifesaving 
instruments for public safety and law enforcement personnel, and all 
2500 devices requested, if operating together in a single room, would 
emit less than one quarter the power of a cell phone.
    The FCC and NTIA had a very difficult time agreeing on the final 
wording of the order on reconsideration of the waivers. The petition 
for reconsideration still had not been dealt with at the time the FCC 
issued its Notice of Proposed Rulemaking, nearly a year after the FCC 
first approved the requests for waivers. The FCC was sufficiently 
concerned about its coordination efforts with NTIA that in its final 
order dismissing the petitions for reconsideration, Commissioner 
Furchtgott-Roth expressed his views on the FCC interaction with NTIA on 
the item as:
        . . . an unacceptable distortion of the appropriate 
        consultative role that NTIA should play in our decision making. 
        Although the FCC and NTIA have a legitimate obligation to 
        coordinate their activities regarding shared spectrum, NTIA's 
        intrusive role in this proceeding is a source of concern for 
        all of us who value the independence of this Commission. 
        Repeated NTIA editing of orders after adoption undermines our 
        independence and the integrity of our processes. No other 
        entity had repeated opportunities to review drafts of our 
        decision. No other entity was able to ``sign off'' on edits 
        from Commissioner offices. Equally important, neither the 
        public, the parties, nor many of the Commissioners were aware 
        that this ``process'' was even going on. The process was not 
        transparent or even discernible. Those regulated by the 
        Commission have a right to know that FCC decisions are truly 
        FCC decisions. When an item sits for five months after 
        adoption, it turns our voting process into a sham.
          Once the staff has a complete record and develops its final 
        recommendation for the Commission, NTIA should not be provided 
        with additional drafts or have ``sign off'' authority on 
        revisions. The circulated Order should be the sole province of 
        the Commissioners and the staff. NTIA has every right to be 
        heard, but no right to edit every word.
    The FCC may have found itself in a difficult position evaluating 
test results for compatibility between UWB and other systems when one 
of the major testing efforts was performed by NTIA. The raw data of the 
different tests were very similar, although the interpretation of data 
varied to produce different ``results.'' It appears as though the FCC 
did not have the resources to conduct its own independent testing.
    It appears as though the FCC and NTIA may have had difficulty 
agreeing on the rules for UWB in the First Report & Order. As reported 
in the trade press, the FCC appeared ready to adopt rules for UWB in 
December of 2001 that reportedly were significantly less restrictive 
than the rules ultimately adopted by the agency. As a result of 
strongly worded, public letters from high level officials at the 
Defense Department to the Commerce Department, and the Commerce 
Department to the FCC, adoption of these rules was postponed for 60 
days to provide the Department of Defense additional time to submit 
their comments to NTIA. The proceeding had been ongoing for more than 
three and one half years at this point. During the 60-day delay, it 
appears as though the rules for UWB became more stringent as the FCC 
strove to achieve the requisite consensus with NTIA on the rules.
    While conflicts between agencies are nothing new, the conflicts in 
the UWB proceeding in large measure revolved around spectrum politics, 
not policy. This resulted in a lack of objectivity in interpreting 
technical data that made reaching sound policy decisions more 
difficult.
D. The Regulatory Process Should Rely on Sound Spectrum Policy, Not 
        Spectrum Politics
    In 2000, I had the opportunity to visit with David Hendon, the head 
of the Radio Communications Agency in the UK, the British equivalent to 
our FCC Chairman Powell. The U.K. had just finished their spectrum 
auctions for 3G licensees and taken in more than 40 billion dollars. 
Mr. Hendon remarked that the North Atlantic oil rights had sold for 
several billion dollars in the 1970's, and, in inflation adjusted 
terms, the sale of spectrum in the U.K. had fetched an even higher 
price, perhaps making it the most valuable commodity on the planet. I 
think few would disagree with him that spectrum has become the most 
valuable commodity on the planet today for governments and commercial 
users. Not only is spectrum a limited commodity, but there is a finite 
amount of this valuable resource so that all spectrum decisions are 
part of a virtual zero sum game: when one player gains another player 
almost always loses. The battles over the last several years between 
government users and commercial are a good example of this phenomenon. 
When spectrum was reallocated from government users to auction for 
commercial use, government users had to find new spectrum for their 
services. The zero sum game creates an incentive for spectrum users to 
oppose all spectrum actions that might harm their interests, and even 
those actions that are neutral or the effect of which is unknown. The 
lowest-cost, rational action is to oppose all spectrum management 
proposals that do not directly benefit your position. This is true 
whether the actor in question is a government agency or a commercial 
user. So even when we proposed a use of spectrum that would not require 
any incumbent to move and efficiently shared spectrum under Part 15, 
there was no incentive for either commercial or government operators to 
support this new technology.
    The Congress relies on the FCC and NTIA for spectrum management 
policymaking based on scientific analysis and objective assessment of 
competing needs and interests. In the UWB proceeding, spectrum 
politics, rather than sound policymaking often dictated the course of 
decision making. For example, there were three major testing efforts 
conducted on GPS and UWB compatibility: one by Stanford University/DOT, 
another by NTIA, and a third effort funded by Time Domain and conducted 
by the University of Texas and Johns Hopkins University. The results of 
the three tests differed greatly from finding that there was no harmful 
interference to GPS until the UWB devices were within one meter of each 
other to finding harmful interference at greater distances. The 
Department of Defense Joint Spectrum Center analyzed the test data and 
found that the data were very close on all tests. What differed among 
the three tests was the interpretation of the data based on assumptions 
applied to the data about how UWB and GPS devices would operate in the 
real world and the scenarios for UWB and GPS interaction. Parties used 
assumptions and scenarios that would produce the results they sought. 
This phenomenon was not limited to the GPS testing. The same dynamic 
occurred with the PCS testing. In the absence of agreed upon joint 
testing and analysis by the NTIA, the FCC, and commercial and 
government users, there needs to be an objective way to evaluate the 
different test data, the assumptions, and scenarios. Otherwise, parties 
will simply spin technical data to their advantage without sound 
scientific basis for their positions.
    After the FCC requested parties in its NPRM to submit compatibility 
data, Time Domain spent millions of dollars funding the University of 
Texas and Johns Hopkins University, two of the top GPS facilities in 
the country, to conduct testing under their independent control. The 
test plan was created through an open process in which numerous parties 
participated, including UWB opponents. In the final analysis in the 
Report & Order, the UT/JHU test data was almost entirely ignored. 
Whether this occurred because an interested party funded the test, or 
the results disagreed with preconceived philosophical positions is open 
to debate. If privately-funded tests are going to be dismissed, then 
the government needs to have the capability and the mission to test 
objectively and independently of even the government's own, internal 
interested constituents.
E. Conflicts Within Government Agencies
    The Commerce Department plays a critical role in promoting new 
technologies and advising the President on technology and 
telecommunications issues. The Commerce Department, through NTIA, also 
plays an important role in managing the spectrum used by federal 
agencies and departments. When it comes to spectrum management issues, 
these two roles may conflict, as they did in the UWB proceeding. The 
Commerce Department may want to promote new technologies to save lives, 
benefit the public, and help the economy, but it also must protect the 
spectrum of its government users. When these two missions conflict, the 
likely losers will be the commercial interests seeking to promote new 
technologies. In the case of UWB, for example, the Office of Spectrum 
Management within NTIA played a large role in the proceeding, while the 
Technology Administration did not participate. This is understandable, 
as the Commerce Department's government agency constituents may claim 
that national security and public safety demand that their spectrum be 
protected at any cost. There is no question that government spectrum 
should be protected, as there are lives that depend on this spectrum 
being free from harmful interference. However, the question is who 
should make the determination as to whether there is a threat to the 
government spectrum, and how to balance the possibility of any effect 
on government spectrum with advancing new technologies?
    Today, the NTIA and the FCC coordinate their views and make these 
decisions jointly. However, when it comes to spectrum management, the 
government is an interested party--it holds spectrum, fights to 
maintain its spectrum, and seeks to acquire additional spectrum. At the 
same time, however, the government also sits in judgment of what 
spectrum can be made available to non-government users. It is in effect 
operating as a party to proceedings and the judge of those very same 
proceedings.
    The potential conflict of interest inherent in such an arrangement 
is obvious on its face. However, it goes one step further. Since the 
release of the First Report & Order, government agencies have been 
debating whether government users of UWB have to follow the same rules 
that the government has imposed upon non-government users. Paragraph 
273 of the First Report & Order suggests that government users might 
have to follow the rules set forth in the First Report & Order. 
However, the Commerce Department has informed the FCC in a letter last 
week that they do not believe this to be the case. It appears as though 
Commerce was acting in its role as judge, rather than a party to the 
proceeding in informing the FCC of this position.
    These conflicts are not unique to UWB. They have occurred in the 
past. They will occur in the future over issues such as 3G. In any 
proceeding in which the government is both an interested party due to 
its need to protect and increase its spectrum and arbitrating the 
rights of non-government users to spectrum it cares about, there is a 
potential conflict of interest. This potential conflict is heightened 
by the fact that the government does not have to reveal its views and 
role in shaping a proceeding to the same extent as non-government 
participants.
F. Secrecy on Issues of Spectrum Management Affecting Non-Government 
        Interests.
    Throughout the process we met frequently with the FCC and NTIA, and 
on a few occasions with DOD, NASA, and the FAA. At least one agency, 
even took pride in what they stated as an ``open door'' policy. 
However, while the door may have been open, the information from 
government agencies was not always forthcoming. The NTIA, for example, 
took the stance that they would meet with us and listen to our 
viewpoint, but they could not provide any information on their 
position, nor respond to any information we presented. It is difficult 
for commercial users to know what issues may exist with their proposed 
use of spectrum that impacts government spectrum or respond to 
proposals generated by government agencies without openness. This is 
not an issue when NTIA is making a decision that only affects 
government users of spectrum. In those instances, the issue is debated 
before the IRAC and a position reached. However, when NTIA is making a 
decision that affects both government and commercial users of spectrum, 
secrecy often prevents non-government users from commenting on 
information that directly affects them. IRAC proceedings are generally 
closed to non-government entities, even when the issues debated concern 
NTIA's views on non-government use of spectrum.
    The FCC conducted a proceeding in which contacts with the agency 
were permitted, but were required to be disclosed on the record in the 
FCC docket. There were more than 900 comments filed in the first phase 
of UWB proceeding. However, government as a commenter to the FCC did 
not need to comply with the ex parte rules, and--sent letters and 
filings to FCC that were not made public before the decision. It was 
very difficult for interested parties in the proceeding to assess these 
filings or rebut them. Perhaps more disturbing, the government sent 
letters to the FCC saying their studies supported conclusions of 
interference, but they did not submit the studies. This prevented any 
evaluation or critique of these claims by parties to the proceeding.
                             v. conclusion
    There is a worldwide race to deploy UWB. Since FCC approval of UWB, 
startups have sprouted up in Europe, the Middle East, and Asia. Europe 
and parts of Asia are moving quickly to approve UWB for commercial use. 
Some countries, such as Singapore, are examining approval UWB at higher 
power levels than the levels set forth in the FCC's First Report & 
Order. While these parts of the world may be the first countries to 
enjoy the full promise of UWB, this is an undesirable outcome. UWB was 
invented in the United States and the U.S. should enjoy the benefits of 
the technology and retain technological leadership in UWB.
    The United States' future with UWB and other new technologies 
depends on an efficient system of spectrum management. Our regulatory 
processes must operate in a timely manner in which the agencies charged 
with spectrum management collaborate to advance the deployment of new 
technologies, while protecting the rights of incumbents. Our 
proceedings must operate according to science, not spectrum politics. 
And the public needs to have some information on the positions 
government agencies are taking with regard to spectrum decisions that 
affect non-government users. Our global economic competitiveness 
depends on it.
    I hope that some good will come from the process we went through 
with UWB approval, so future technologies will have an easier path 
through the regulatory process. Perhaps the lessons learned from UWB 
approval can help improve our spectrum management process to better 
advance new technologies, while protecting spectrum incumbents.
    Mr. Chairman, thank you for allowing me to testify. I would be 
happy to answer any questions.

    Mr. Upton. Thank you.
    Mr. Johnson.

                 STATEMENT OF DENNIS J. JOHNSON

    Mr. Johnson. Good morning, Mr. Chairman, members of the 
subcommittee.
    Mr. Upton. You need to move the mike over a little closer 
to you.
    Mr. Johnson. Good morning, Mr. Chairman, members of the 
subcommittee. I am pleased to be here on behalf of Geophysical 
Survey Systems, GSSI, which is one of several manufacturers of 
ground penetrating radar, or GPR. For the past 32 years, GSSI 
has designed, manufactured and sold GPR systems worldwide. We 
thank you for the opportunity to be here today to speak about 
GPR and the recent UWB Report and Order issued by the Federal 
Communications Commission. The new regulations are an extremely 
important subject to everyone in the GPR industry.
    I want to be clear that I am speaking for only a part of 
the UWB industry. This part is called ground penetrating radar. 
GPR is a very important class of UWB devices with a long 
history of applications relating to public safety, 
infrastructure inspection, and I will comment on those more 
shortly. First, let me explain a little bit about GPR.
    Ground penetrating radar is an established technology 
widely used in a variety of applications in the United States 
and the rest of the world. GPR looks downward into the earth, 
fresh water, ice and man-made materials, such as concrete, to 
non-destructively detect anomalies. Many of these applications 
provide unique and significant safety-of-life and other 
benefits in the public interest.
    I have four points to make today: One, GPR is an 
established technology with many important applications. GPR is 
different from air UWB transmitters and should be treated 
differently in the regulations. No. 2, there is no record of 
GPR interference with other receivers--32 years. The two most 
onerous and confusing provisions in the new rules were not 
contained in the NPRM, which gave us no opportunity to comment 
on them during the rulemaking process. We only found out about 
them after the rulemaking was concluded. No. 4, if the rules 
are not changed, the outcome and consequences for the GPR 
industry are extremely serious. Many companies will go out of 
business and the public's access to a new and useful technology 
will be severely limited, if not eliminated.
    To amplify those four points, GPR is an established 
industry. We are one of several manufacturers and for the past 
32 years, we have been selling equipment worldwide. In a 
nutshell, the business was started in 1970 in New Hampshire, 
developed and sold the first commercial GPR systems that same 
year. Average selling price is about $25,000 per system. It is 
not a consumer product. We have been a GSA supplier since 1984. 
Products have been sold to over 25 government agencies, 
including every military branch. We have sold products and 
exported to 50 countries. Some working systems are now 10 to 15 
years old and still ticking.
    So some of the standard applications for GPR include 
utility pipe detection and 3D mapping. Safety for the public is 
a consideration. Concrete inspection to find rebar and pipes, 
fiber optic lines before cutting and coring into concrete. 
Again, safety a consideration. Highway inspection to identify 
voids, pipes and required pavement thickness. Again, safety a 
consideration. Bridge deck inspection for quality assurance 
condition assessment and maintenance decisions; public safety a 
consideration. Geophysical surveys to locate bedrock, water 
tables and other geological properties, detection of voids and 
anomalies before construction; safety a consideration. Airport 
runway inspection to find voids for quality assurance of 
pavement thickness. Our equipment has been used at every major 
airport in the country during flight operations with no 
interference. Railroad bed inspection to find leaking pipes and 
voids; safety a consideration. Forensics, locating bodies and 
evidence in criminal cases. Environmental contamination surveys 
to determine location and extent of contamination, pipe leaks, 
waste pits; safety a consideration. Archaeology, mapping of 
underground sites prior to digging. Mining, location of mineral 
deposits, seams and water levels; safety a consideration. 
Measuring ice thickness in rivers, lakes and the Antarctic; 
safety a consideration. It is worth noting that GPR systems are 
compatible with GPS systems, because we have sold them together 
for over 10 years. No interference.
    I want to give you a few of the more interesting one-of-a-
kind discoveries. Discovery of the wooly mammoth in Siberia--
you might have seen that on the Discovery Channel; survey of 
unopened royal tomb in Xian, China; discovery of unknown 
village near Macchu Pichu--that was on National Geographic a 
month ago. We have done surveys at Mount Vernon, Monticello, 
FDR's home; discovery of emerald deposit in North Carolina, 
North Americas largest emerald deposit discovery. And we are 
also developing a GPR system to go to Mars. The purpose, to 
define creek beds where remnants of life might be found.
    More applications can be listed but clearly GPR technology 
has a high value to society in the United States and the rest 
of the world. We mention the rest of the world because as many 
of you know, the UWB standards set here will surely be followed 
in other countries.
    GPR is different from air UWB transmitters. I see I am over 
my time, but if you don't mind, I will keep going, sir. During 
the rulemaking process, there was a tendency to treat GPR as 
just another UWB transmission device. There are several 
important distinctions between GPR and other UWB transmission 
devices to consider when formulating rules for UWB 
transmission. By definition, GPR looks downward into the earth, 
water, ice and man-made materials. GPR is not intended for air 
transmission. GPR manufacturers go to great lengths to minimize 
air transmission. In addition to the fact that GPR does not 
intend to transmit into air, GPR is also different from air UWB 
devices in spectrum used and in Pulse Repetition Rate.
    Comments on the UWB rulemaking process. The long history of 
GPR and the testing of GPR equipment provide no basis for these 
regulations, and we were not even aware of some of them until 
they appeared in the final Report and Order. As I mentioned 
earlier, many important aspects of the published rules were a 
complete surprise to the GPR community, as they were not part 
of the public disclosure and debate. At no time in the past 30 
years has the FCC recorded any GPR interference with other 
receivers. Indeed, one of the few areas in which all parties 
agreed throughout the FCC proceeding was that GPRs were not a 
source of interference. The proposed FCC rules published for 
comment did not include the NTIA coordination requirements and 
limits on who can buy GPRs, as one example.
    The probable consequences of the new regulations will be 
two immediate outcomes for the GPR industry. One is substantial 
reduction of sales for GPR manufacturing companies; two, many 
GPR service providers, our customers, will go out of business. 
The long-term impact of the new regulations will be the end of 
the GPR industry.
    Mr. Upton. Mr. Johnson----
    Mr. Johnson. In summary----
    Mr. Upton. That helps you, ``In summary.'' All right.
    Mr. Johnson. In summary, we propose that the FCC treat GPR 
differently from other UWB devices, because GPR is different 
from other forms of wireless communication. Surprise rules such 
as those encountered with the UWB regulations should not be a 
part of the process to regulate and allocate bandwidth. We are 
confident that reasonable regulatory requirements can be 
developed that will allow for the development and use of new 
wireless air transmission UWB devices, while protecting current 
users of the spectrum and the continued growth of the GPR 
industry. We look forward to working with policymakers on that 
subject. Thank you, Mr. Chairman.
    [The prepared statement of Dennis J. Johnson follows:]
Prepared Statement of Dennis J. Johnson, President, Geophysical Survey 
                             Systems, Inc.
    Good morning Chairman Tauzin, Sub-committee Chairman Upton, and 
members of the Sub-committee. I am pleased to be here today on behalf 
of Geophysical Survey Systems, Inc. (GSSI), which is one of several 
manufacturers of ground penetrating radar (GPR) systems. For the past 
32 years, GSSI has designed, manufactured and sold GPR equipment 
worldwide. We thank you for the opportunity to be here to speak about 
GPR and the recent ultra-wideband (UWB) Report and Order issued by the 
Federal Communications Commission. The new regulations are an extremely 
important subject to everyone in the GPR industry.
    I want to be clear that I am speaking for only a part of the UWB 
industry. This part is called ground penetrating radar or GPR. GPR is a 
very important class of UWB devices, with a long history of 
applications relating to public safety and infrastructure inspection 
that I will comment on shortly.
    I have four points to make today:

1. GPR is an established technology with many important applications. 
        GPR is different from air UWB transmitters and should be 
        treated differently in the regulations.
2. There is no record of GPR interference with other receivers.
3. The two most onerous and confusing provisions in the new rules were 
        not contained in the NPRM, which gave us no opportunity to 
        comment on them during the rulemaking process. We only found 
        out about them after the rulemaking was concluded.
4. If the rules are not changed, the outcome and consequences for the 
        GPR industry are extremely serious. Many companies will go out 
        of business . . . and the public's access to a very useful 
        technology will be severely limited, if not eliminated.
Point #1: GPR is an established industry
    Geophysical Survey Systems, Inc. (GSSI), is one of several 
manufacturers of GPR systems. For the past 32 years, GSSI has designed, 
manufactured and sold GPR equipment worldwide.
    In a nutshell . . 

<bullet> Business started 1970, purchased by the Oyo Group, Tokyo, 1990
<bullet> Developed and sold first commercial GPR systems in 1970
<bullet> Average selling price $25,000 per system (range $13,000 to 
        $100,000)
<bullet> A GSA supplier since 1984
<bullet> Products sold to over 25 government agencies in the U.S.
<bullet> Products sold and exported to 50 countries
<bullet> Some working systems are 10 to 15 years old, and still 
        ``ticking''
    An important class of UWB devices is Ground Penetrating Radar 
(GPR). GPR is an established technology widely used in a variety of 
applications in the United States and the rest of the world. GPR looks 
downward into the earth, fresh water, ice and man-made materials to 
non-destructively detect anomalies. Many of these applications provide 
unique and significant safety-of-life and other benefits in the public 
interest.
    Standard applications for GSSI GPR equipment include:

<bullet> Utility pipe detection and 3D mapping (safety a consideration)
<bullet> Concrete inspection to find rebar and pipes and fiber optic 
        lines before cutting or coring (safety a consideration)
<bullet> Highway inspection to identify voids, pipes and required 
        pavement thickness (safety a consideration)
<bullet> Bridge deck inspection for quality assurance condition 
        assessment and maintenance decisions
<bullet> Geophysical surveys (locate bedrock, water table and other 
        geological properties, also detection of voids and anomalies)
<bullet> Airport runway inspection to find voids and for quality 
        assurance of pavement thickness (used at all major airports and 
        by NASA) (safety a consideration)
<bullet> Railroad bed inspection to find leaking pipes and voids 
        (safety a consideration)
<bullet> Forensics (locating bodies, evidence, etc.)
<bullet> Environmental contamination surveys to determine location and 
        extent of contamination, pipe leaks, waste pits, etc. (safety a 
        consideration)
<bullet> Archaeology--mapping of underground sites prior to digging
<bullet> Mining, location of mineral deposits, seams and water levels 
        (safety a consideration)
<bullet> Measure ice thickness in rivers, lakes and in Antarctic 
        research (safety a consideration)
    (It is worth noting that GPR systems and GPS systems are 
compatible; indeed GPR systems are sold with GPS systems without 
special modification.)
    Non standard and ``once-in-a-lifetime'' uses/results of GPR 
surveys:

<bullet> Discovery of the wooly mammoth in Siberia (Discovery channel)
<bullet> Survey of unopened tomb in Xian, China
<bullet> Discovery of unknown village near Macchu Pichu (National 
        Geographic expedition)
<bullet> Surveys at Mount Vernon, Monticello, and FDR's home
<bullet> Frozen river bed survey--Russia
<bullet> Discovery of buried murder victims, some leading to 
        convictions
<bullet> Discovery of emerald deposit in North Carolina, North Americas 
        largest find
<bullet> Developing a GPR system to go to Mars; purpose, to define 
        creek beds where remnants of life might be found
    More applications can be listed but clearly GPR technology has a 
high value to society in the United States and the rest of the world. 
We mention the ``rest of the world'' because as many of you know, the 
UWB standards set here will surely be followed in many other countries.
Point #2: GPR is different from air UWB transmitters
    During the rule-making process, there has been a tendency to treat 
GPR as just another UWB transmission device. There are several 
important distinctions between GPR and other UWB transmission devices 
to consider when formulating rules for UWB transmission:

<bullet> By definition, GPR looks downward into the earth, water, ice 
        and man-made materials to non-destructively detect anomalies. 
        GPR is not intended for air transmission. GPR manufacturers go 
        to some length to reduce unwanted air transmissions.
<bullet> In addition to the fact that GPR does not intend to transmit 
        into air, GPR is also different from air UWB transmitters in 
        Pulse Repetition Rate and in the frequency spectrum used.
<bullet> A primary issue behind rule changes centers on the protection 
        of Global Positioning Satellite (GPS) system operations. GPR 
        works well with GPS systems, as evidenced by the fact that for 
        the past 10 years GPR manufacturers have sold GPS systems that 
        work successfully in conjunction with their GPR systems.
Point #3: Comments on the UWB Rule-Making Process
    The long history of GPR and the testing of GPR equipment provide no 
basis for these regulations, and we were not even aware of them until 
they appeared in the final Report and Order. As I mentioned earlier, 
many important aspects of the published rules were a complete surprise 
to the GPR community as they were not part of the public disclosure and 
debate. Isn't the rulemaking process itself designed to be the 
opportunity for public disclosure and debate? Surely were we to have 
had knowledge of these particular rules, we could have easily explained 
why they are inappropriate and unnecessary.
    The background leading to this nexus:

<bullet> FCC Rules, Part 15, created for frequency domain transmitters 
        to keep systems from interfering with each other
<bullet> Original Part 15 Rules did not contemplate UWB transmitters 
        (time domain).
<bullet> At no time in the past 30 years has the FCC recorded any GPR 
        interference with other receivers.
<bullet> All parties agreed throughout the FCC proceeding that GPRs are 
        NOT a source of interference.
<bullet> UWB rules are now being written for the first time.
<bullet> The proposed FCC rules published for comment in 2000 did NOT 
        include the NTIA coordination requirements and limits on who 
        can buy GPRs--and the FCC cannot lawfully adopt rules that were 
        never proposed.
<bullet> We believe that requirements for overly stringent rules come 
        from (1) a perceived need to protect against in-the-wall and 
        through-the wall radars, not GPRs; and (2) NTIA policy (not 
        technical) concerns about ``intentional'' emissions into 
        certain bands, even at completely harmless levels.
<bullet> The new UWB rules protect GPS frequency spectrum beyond 
        reasonable limits, resulting in the elimination of an entire 
        industry--the GPR industry.
Point #4: The probable consequences of the new regulations
    The recently published regulations intended to govern UWB devices 
will have two immediate outcomes for the GPR industry:

1. Substantial reduction of sales for GPR manufacturing companies
2. Many GPR service providers will go out of business
    The longer-term impact of the new regulations will be the end of 
the GPR industry.
                       summary and recommendation
    We propose that the FCC treat GPR differently from other UWB 
devices--because GPR is different from all forms of wireless 
communication. (See above)
    Surprise rules such as those encountered with the UWB regulations 
should not be a part of the process to regulate and allocate bandwidth, 
or for any rulemaking process.
    We are confident that reasonable regulatory requirements can be 
developed which will allow for the development and use of new wireless 
air transmission UWB devices, while protecting current users of the 
spectrum and enabling the continued growth of the GPR industry. We look 
forward to working with policymakers on that solution.
    Thank you.

    Mr. Upton. Thank you. I would recognize first from the 
panel the chairman of the full committee, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman. Mr. Petroff did a 
good job of putting this in perspective when he compared the 
width of a human hair to the Empire State Building in terms of 
the relative position of Part 15 services. But let put it in 
layman's terms. The last time the Commission, Mr. Knapp, 
reviewed its Part 15 rules was 1989. In 1989, there was a big 
revision that followed up on actions in the 1960s and the 1980s 
to open up Part 15 services for Americans. I want to talk about 
some of the devices that came into being because the Commission 
was willing to open up Part 15 rules in the 1960s and 1980s.
    Provisions were made under Part 15 to permit the operation 
of such things as wireless microphones, telemetry systems, 
garage door openers, TV interface devices, you know, like video 
recorders. Wouldn't have them but for the 1980's amendments. 
Such things as a field disturbance centers, you know the anti-
theft systems in stores, auditory assistance devices for people 
with hearing defects, control and security alarm apparatus, 
cordless telephones. That is what we are talking about. We are 
talking about all these little devices that Americans use in so 
many different ways to make our lives comfortable and useful 
and to protect us in alarm systems, et cetera, that wouldn't be 
in existence but for Part 15 rules that say you don't need to 
go get a license from the FCC to buy a VCR, for heaven sakes.
    That is what we are talking about, folks. We are talking 
about those kinds of devices under Part 15, and the Commission 
has generally been very good about making sure those devices 
come to the marketplace. In fact, in the 1989 proceedings, Mr. 
Knapp, I am going to read it to you: ``We note that NTIA's 
calculations represent theoretical noise levels generated with 
a receiver under ideal conditions. They do not take into 
consideration existing background noise, et cetera. NTIA's 
calculations appear to represent the worst-case situation. NTIA 
has also not supplied any information detailing the cumulative 
effect referenced in their comments.''
    And then it goes on, ``For these reasons, we are not 
adopting NTIA's proposal for tighter emission limits for the 
restricted bands.'' In 1989, the Commission had guts. It stood 
up for consumers, and it stood up for commercial use of new 
technologies, and it said to the NTIA, ``Unless you can come in 
and prove to us that something is really here instead of these 
imagined problems, we are not going to adopt your restricted 
standards. We are going to give this stuff a chance to show us 
what it can do.''
    It noted in that same review that in fact there is no 
evidence that licensed communication services have been 
significantly impacted by the widespread proliferation of 
computing devices operating under proposed limits. You made the 
point, Mr. Petroff, all the computers, we don't go get a 
license from the Federal Government to have a PC in America. So 
we have got devices operating in this Part 15 area, and I 
suppose the first question I have to ask you, Mr. Knapp, has 
there ever been any documented evidence of interference by Part 
15 devices to GPS or other safety-of-life systems in this 
country?
    Mr. Knapp. Not that I am aware of.
    Chairman Tauzin. Not that you are aware of. And I guarantee 
you won't find it anywhere in the record. All these devices 
operating, no documented evidence of any interference at these 
such limited low levels of operation of power with any 
lifesaving systems.
    Now, Mr. Petroff, Mr. Price makes a comment in his written 
statement that commercial vendors do not need to operate below 
3.1 gigahertz in order to market UWB devices commercially. 
Would you respond to that?
    Mr. Petroff. Well, I think that is a reference in the 
written testimony to one company, Kohler, the plumbing 
manufacturer who----
    Chairman Tauzin. Yes. In fact, Mr. Price brags about one 
manufacturer, Kohler, operating at 6 megahertz and say if they 
can do it, anybody can do it, right? What device is operated by 
Kohler at 6 megahertz?
    Mr. Petroff. It is a plumbing fixture.
    Chairman Tauzin. It is a toilet flusher.
    Mr. Petroff. Yes.
    Chairman Tauzin. Yes, right. It is a toilet flusher. So we 
are going to have to apparently walk by our toilets to operate 
our home video systems if we have to operate at 6 megahertz. I 
mean for you to cite one device, a toilet flusher, as a good 
example of how these tight restrictions can work, if that is 
all we are going to get out of this, is toilets that flush when 
we walk by then instead of having to pull the handle, woopy 
ding.
    I am serious, guys. I mean that is hardly something to brag 
about, and the tight restrictions that NTIA has recommended, 
that the Commission just adopted this time, when in 1989 they 
said, ``No, we are not going to do that. We are not going to 
adopt such tight restrictions without proof that there is real 
problem, because we know of no problems. There has never been a 
documented case of a problem. So we are not going to take your 
advice and adopt these restrictions.'' But this time, Mr. 
Knapp, you did. This time you said, ``Look, we have got joint 
jurisdiction here. We talk about background noise, we have got 
governmental uses that obviously have a problem with background 
noise. So we have two responsibilities here: NTIA has one and 
we have one.'' What was NTIA's responsibilities in this case, 
Mr. Gallagher? What was NTIA's responsibility first? What was 
your job?
    Mr. Gallagher. Our job was to find the right answer, Mr. 
Chairman.
    Chairman Tauzin. Was to find what?
    Mr. Gallagher. The right answer, find the right balance.
    Chairman Tauzin. But who do you represent? Don't you 
represent protecting the government spectrum uses?
    Mr. Gallagher. Mr. Chairman, we have two responsibilities 
under our enabling statute: One is the President's primary 
advisory on telecommunications matters----
    Chairman Tauzin. Right. I understand that point.
    Mr. Gallagher. [continuing] and the other is the manage the 
Federal spectrum.
    Chairman Tauzin. Management of the Federal spectrum. What 
is your responsibility in this shared responsibility, Mr. 
Knapp? What is the FCC's job when you have got to work with the 
NTIA in coming up with the right policy?
    Mr. Knapp. Certainly, one of our roles is to make sure that 
our rules are as flexible as possible, that they allow the 
technology, and in this case ultrawideband technology----
    Chairman Tauzin. Is your job simply to say that the manager 
of the Federal spectrum will adopt your restrictions, whatever 
they are?
    Mr. Knapp. When it comes to spectrum that is allocated on 
exclusive primary basis for the Federal Government, we provide 
wide deference to their recommendation.
    Chairman Tauzin. Provide wide deference to them. In 1989, 
you say, ``No deal. We are not adopting those restrictions.'' 
But this year you did. This year you said, ``Okay, we will go 
ahead and take the NTIA's word on it, and we will adopt such 
tight restrictions on the use of this new technology that in 
some cases, we hear testimony, it might not survive.'' What is 
the difference? What happened between 1989 and now?
    Mr. Knapp. Well, the difference was the standards that you 
are referring to are spurious emissions as contrasted to an 
ultrawideband product.
    Chairman Tauzin. The difference is intention.
    Mr. Knapp. Yes.
    Chairman Tauzin. Yes. The difference is that this 
technology is based upon using literally background noise. It 
is based upon intentional emissions. It is not just spurious, 
they just happen. But shouldn't the technology, the engineering 
question be not whether you intended it or whether it was 
accidental but whether it in fact causes any problem? Shouldn't 
that be the real question?
    Mr. Knapp. Certainly.
    Chairman Tauzin. Yes. But that is not what happened here. 
What happened here is that you made a different decision based 
upon the fact that this technology intends to do it, intends to 
emit into the spectrum, whereas computing services and garage 
door openers and cordless telephones just do it accidentally so 
they are okay. Where is the rationale for that, where is the 
engineering rationale for that distinction?
    Mr. Knapp. Part of the concern is that when we allow 
products to intentionally emit in particular bands there is 
always the risk that they will proliferate and add up.
    Chairman Tauzin. We may get a lot of computers and we may 
get a lot of garage door openers. Haven't we gotten a lot of 
computers and a lot of garage openers? Didn't the Commission in 
1989 say, ``The NTIA has given no information regarding the 
cumulative effect referred to in their comments,'' and haven't 
we found out since 1989 that there is no such thing as a 
cumulative effect, that all our computers and all this 
equipment is not having the deleterious effect that the NTIA 
predicted it would have in 1989.
    Mr. Knapp. Yes.
    Chairman Tauzin. Right. So the facts are that in 1989 you 
said, ``You didn't bring us any evidence of the cumulative 
effect of these spurious emissions,'' and sure enough since 
1989 the cumulative effect has not shown up, there has been no 
documented case of interference. But in this case, when you 
look at it, you said, ``Even though you didn't bring us any 
information regarding the cumulative effect and even though the 
facts, reality, tells us that there has been no cumulative 
effect, as was predicted by the Commission in 1989, we are 
going to clamp down on this new technology this year.'' You see 
why I am a little confused as to the FCC's role this year?
    Mr. Knapp. Yes.
    Chairman Tauzin. This year, it looks like the FCC said to 
the NTIA, ``Okay. We understand your hypothetical concerns, we 
understand your argument there may be a cumulative effect, so 
we will just adopt your restrictions this year.'' You 
understand.
    Mr. Knapp. Right.
    Chairman Tauzin. And all of a sudden now new technologies 
may not make it--may not survive, and consumers may be denied a 
lot of new products; worse than that, we might not find bodies 
in rubble, we might not find people in time to save their lives 
the next earthquake or the next 9/11 catastrophe. Or we may not 
be able to locate somebody lost inside a building or lost 
inside some natural disaster in Louisiana when a hurricane 
strikes or something, because this technology may not be there. 
We may not have a better alarm system, we may not have a better 
military protection system for our country, better military 
communications in the field battle, because we restricted these 
communications. We may not have the home video distribution 
systems in broadband we want 1 day. All kind of things we may 
not have because you decided this year just to go ahead and 
adopt the NTIA restrictions without proof that their claims of 
potential interference were real. You see our concerns.
    Mr. Knapp. I do understand, and I----
    Chairman Tauzin. Look, I don't want to beat up on you 
terminably, although I enjoyed it.
    I simply want to make the case that you said you could do 
something in 6 to 12 months to review these rules and to decide 
whether or not you have been too restrictive, as you think you 
have been, even in your own report. Now, I am counting on you, 
and I think America is counting on you, to do a good job and 
all of you to help the Commission get a good job done on here. 
And if you have to amend this order in order to give this 
technology a chance to show what it can do in a way that gives 
us reasonable assurance it will not interfere or that you can 
pull the plug on it if it does, then for heaven sake's do that. 
I mean the FCC is supposed to be the balance to the NTIA. It is 
supposed to say to the NTIA once in a while, ``No, you just 
can't come stop something because you are scared of it. You 
can't stop something because you think it might be hurtful or 
damaging somewhere. Come show us what you got.''
    So let us do some quick show-and-tell over the next 6 to 12 
months, and we will be watching carefully the process at the 
FCC, and we will be watching carefully NTIA's collaborative 
efforts and Defense and Transportation and all of you guys in 
trying to work this out. But for heaven sakes, don't let 
anybody out there who has a commercial product encourage you to 
stop a new one from coming in just because it might be better, 
because there are some of us who believe maybe that is going on 
too. Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Chairman. Recognize Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. First, I 
would like to ask Mr. Gallagher and Mr. Knapp to explain how 
they intend to proceed on resolving unintended impacts with 
respect to ground penetrating radar systems. Please give me 
both your short-term and long-term suggestions on how to 
address the issue. And then, Mr. Johnson, I would like you to 
comment on their explanations. And I have one other question I 
want to ask, so please try to be brief in your answer. Mr. 
Gallagher.
    Mr. Gallagher. Thank you, Mr. Markey. First, the process is 
already underway in which we are understanding the concerns and 
we have already met with the GPR community to address the path 
forward. There was absolutely no intention of limiting or 
inhibiting the growth of small business or overregulating any 
particular set of entities. We are purely concerned about the 
emissions above the ground from GPR receivers. And some of the 
specific thoughts that we have discussed with the community are 
enhancing our definition, which currently restricts the 
eligible users, also, perhaps, if it is necessary, a waiver of 
some sort, and, finally, more closely understanding and testing 
their equipment, which up to this point has not been tested by 
the FCC or by NTIA to understand the types of emissions that 
are coming out from around the device. Again, it is not the 
emissions that are focused into the ground, there is no limit 
on those, the R&O simply speaks to what leaks around the edges.
    Mr. Markey. What is your timetable for fixing the problem?
    Mr. Gallagher. With all due haste.
    Mr. Markey. What does that mean? This year?
    Mr. Gallagher. We will work with the FCC. I think there are 
some technical limitations imposed by regulatory rules that we 
need to comply with, but as fast as we can under those 
constraints.
    Mr. Markey. Okay. So you don't have like an FBI-CIA 
relationship, right?
    Mr. Gallagher. No. No, absolutely not.
    Mr. Markey. So let us go--I mean you are not putting that 
up as some big barrier. I mean that actually telescopes the 
timeframe that we have to work with the FCC, right? Let us go 
to you, Mr. Knapp.
    Mr. Knapp. Yes. First of all, we are very supportive of the 
GPR technology. We certainly don't want to shut down this 
industry; they are very worthwhile products. I think the 
immediate things we can do, part of it had to do with the 
wording of the usage restrictions in the rules. Certainly, what 
we have heard described to us is the applications, including 
consultant use, for example, in inspecting the foundations of 
buildings, were all envisioned in our Report and Order. So I 
think that we have some latitude to take care of that problem 
without a further order.
    On the issue of coordination, we want to make that as 
streamlined as possible so that, for example, rather than 
getting a coordination for every individual use, you could get 
a coordination for statewide operation if you are a State 
highway department.
    Mr. Markey. So how much time to fix this issue?
    Mr. Knapp. Immediately. I think we are already talking 
about how we can address those issues. The coordination issue I 
think we can take care of, working together between the 
agencies----
    Mr. Markey. By the end of this year?
    Mr. Knapp. Certainly.
    Mr. Markey. Certainly. Excellent. Mr. Johnson.
    Mr. Johnson. Because of the Internet and the widespread 
information being transferred to everybody very fast, many of 
our customers that have placed orders have already canceled 
them because of the impending rules. We have had other 
potential customers call and say they are not going to place an 
order because of the rules. So we are already being impacted 
today by the rules that will go into effect. So I do 
appreciate--we have had some meetings with Mr. Knapp and the 
FCC, do appreciate their consideration in doing something 
immediately to give us some immediate relief.
    Mr. Markey. Thank you. And my second and final question is 
I have introduced legislation, H.R. 4641, that would, among a 
number of other things, require NTIA and the FCC to work 
together to make progress in creating a spectrum commons. The 
Legislation asks for chunks of spectrum to be freed up and 
clear but not auctioned to the private sector. Instead such 
frequencies would remain unlicensed and therefore available for 
use by the general public. High-tech manufacturers, 
entrepreneurs and the proverbial kid in the garage could make 
more robust use of wireless communications if sufficient 
spectrum were available in unlicensed form for the general 
public. Such a public set-aside could foster the formulation of 
an open platform for innovation, entrepreneurial activity and 
public communications. It would also militate against unhealthy 
consolidation of spectrum in the hands of too few providers. We 
have already seen growth in Blue Tooth and 802.11 technologies, 
but we need to do more. Is the spectrum commons idea a good 
idea or a bad idea, yes or not, that is all? Yes or no, Mr. 
Johnson?
    Mr. Johnson. I am not sure how to answer that, sir.
    Mr. Markey. Okay. Mr. Petroff?
    Mr. Petroff. Yes, an excellent idea.
    Mr. Markey. Okay. Thank you. Mr. Knapp?
    Mr. Knapp. Yes.
    Mr. Markey. Yes. Mr. Shane?
    Mr. Shane. It would have to be a pretty wide spectrum, a 
wide commons to accommodate ultrawideband.
    Mr. Markey. But good idea?
    Mr. Shane. If it were feasible, yes, sir.
    Mr. Markey. Okay. Yes. Mr. Price?
    Mr. Price. It depends if part of it means taking spectrum 
from DOD for the commons.
    Mr. Markey. Okay.
    Mr. Price. If not, I support it, sir.
    Mr. Markey. Mr. Gallagher?
    Mr. Gallagher. Seeing how we are able to expand here, I 
would say that it is a good idea when you measure where the 
spectrum is going to come from and also that we avoid a tragedy 
of the commons.
    Mr. Markey. I understand that, but if we could do that, 
yes?
    Mr. Gallagher. Absolutely.
    Mr. Markey. Okay. My point in mentioning this proposal is 
simply to underscore that the process that has just been 
completed by NTIA and FCC for so-called Part 15 devices and UWB 
technology is likely to be repeated again and again. We need to 
work well, not only for government users but also for 
consumers, high-tech manufacturers, innovators and 
entrepreneurs. Our economy is affected by how well NTIA and the 
FCC perform our spectrum management tasks. So my question to 
NTIA and FCC is whether they need additional resources to do 
the kind of real-world testing to distinguish between fact and 
fantasy, between theoretical interference and actual observed 
interference and to do that kind of testing in the future so 
that we can accelerate the introduction of new technology into 
the marketplace. Mr. Gallagher?
    Mr. Gallagher. The issue of funding is always an 
interesting one. We are just now preparing our 1904 budgets and 
the like and one----
    Mr. Markey. Do you need resources, Mr. Gallagher, or not? 
It is an interesting question.
    Mr. Gallagher. We definitely need to additional testing, 
and I would suggest that funding in that area would be 
necessary and appreciated.
    Mr. Markey. Mr. Knapp?
    Mr. Knapp. The short answer is yes, and we have been 
explaining to the Congress that we need resources for engineers 
and the equipment for our laboratory, and we thank you for the 
support we have gotten so far. And I think we are certainly a 
lot better off now than we were a year ago.
    Mr. Markey. Mr. Chairman, if we want to see a 
revitalization of a sector we now call the Nasdaq that no one 
heard of before 1995, I would suggest that a lot of what we are 
talking about here today, about technologies and companies 
whose names we do not know or understand yet, are central to a 
next generation boom that gives people a good reason to invest 
in companies and technologies, assuming that the accounting 
standards for those companies have been updated to reflect 
lessons learned since Enron/Arthur Andersen. But I think that, 
to a large extent, the key to a Nasdaq revitalization sits at 
our table today. Thank you, Mr. Chairman.
    Mr. Upton. Thank my friend from Massachusetts. Mr. 
Gallagher, how is it that you all resolve these conflicts 
between the business end of those knocking on the door trying 
to get their products out using the spectrum and folks like 
your neighbor, Mr. Price, looking for the domino theory of if 
you take this little bit of spectrum, it is all going to go? 
And as you look at other Federal Government incumbent spectrum 
users, what is the process that you all begin to look at as you 
weigh those----
    Mr. Gallagher. Well, the first thing you have to do is 
listen, because there is a lot that we need to learn from the 
private sector coming in explaining what it is they are trying 
to accomplish, the technical data on this is extraordinary in 
length. Over 900 comments have been filed on the docket, 
multiple studies introduced by multiple parties. You have to 
grasp and understand and be able to translate those into 
concepts that normal people can understand.
    Mr. Upton. Well, Mr. Petroff had a pretty good chart that 
was shown, I don't know if you were able to see it at the end, 
of using just a very narrow red line versus the Empire State 
Building, and we see a lot of different examples of that, 
whether they be the bathroom example that Mr. Tauzin used or a 
whole host of things.
    Mr. Gallagher. And I would suggest that sometimes those 
charts can distort the truth, because if you look at the data 
about ultrawideband, the testing that was done in our Boulder 
facility, the emissions that come from ultrawideband, the 
characteristics of the signal are fundamentally different. 
Instead of just a random spike that would appear in a 
restricted band under the Part 15 rules, this is an 
intentional, as many as a million emissions per second in that 
band. That is a lot of energy, and it is particularly 
distortive to GPS and we documented that, and it is part of the 
record of the rulemaking.
    But I would say besides the listening and the learning, it 
took multiple meetings with the Commission so they could 
understand every db of protection that was being requested by 
NTIA. It took multiple meetings of NTIA with DOD and Department 
of Transportation making them justify and explain it, sending 
them back to the engineer drawing board to answer particular 
questions, and I think you see the benefit of that in the 
results. If you look back to September, the Department of 
Defense's position was further notice, put it all above 6 
gigahertz and, you know, by the way, you have to have a high-
pass filter. If you look at where we ended up in the final 
order, it is the need of the ultrawideband signals at 3.1 
gigahertz, substantial movement, and also there is no 
requirement for a high-pass filter. Instead, there is agreement 
that the mask that was developed by NTIA was the right 
approach. Under those circumstances, it just shows that when 
you engage on a technical and a factual level and you do it 
with leadership, you can achieve the right results.
    Mr. Upton. Mr. Sawyer.
    Mr. Sawyer. Thank you, Mr. Chairman. I guess my questions 
are largely all follow-up to many of the things we have heard 
before. Mr. Gallagher, you are telling us that this inherent 
conflict, this tension between your dual missions is a good 
thing despite the fact that it slows down the process. Is that 
essentially what you are saying?
    Mr. Gallagher. I would agree it is good to have both 
perspectives in coming up with the right balance, yes.
    Mr. Sawyer. In the post-911 situation, apparently there was 
a way to achieve a waiver in this extraordinary circumstance. 
What would happen in the event of a smaller scale disaster, a 
simple earthquake, the kind of bridge collapses we saw in urban 
highway systems? Is there a mechanism in place to achieve this 
sort of thing on a regular basis so that you don't have to have 
the kind of disaster that occurred in September? You can both 
answer.
    Mr. Gallagher. The answer is yes, and we have a history of 
responding favorably to the types of situations you have 
described.
    Mr. Knapp. And I agree completely.
    Mr. Sawyer. I guess I don't understand, on another subject, 
why the testing wasn't done before the FCC issued this rule. 
But just to go beyond that, if in fact the tests that will take 
6 to 12 months to undergo show that the concern over harmful 
interference was less than necessary, does that imply a new 
rulemaking process? And if so, is there any reason why those 
can't operate in parallel instead of sequentially?
    Mr. Knapp. I think we need to develop the data through the 
tests and then make that public. We would probably have to 
issue another proposal to change the standards to allow 
everybody, remember these rules also affect non-government 
services as well, to have an opportunity, if we are going to 
make a change, to comment on it.
    Mr. Sawyer. Considering how far this has gone, don't you 
have a substantial amount of information on which to condition 
the pathway that the new rulemaking would take?
    Mr. Knapp. I think, legally, under the Administrative 
Procedures Act, if we are going to change the rules, we would 
have to issue a proposal. So we would have to go through that 
administrative step.
    Mr. Sawyer. And yet you largely accepted the standards that 
were originally issued by the NTIA. Should the NTIA be 
anticipating a favorable result from the testing so that you 
have something in hand?
    Mr. Knapp. What we are going to do is once our results are 
completed, we will make them public. We are going to talk to 
NTIA and the other agencies as we go through the process of 
conducting these tests.
    Mr. Sawyer. Overall then, how long do you anticipate this 
entire process taking?
    Mr. Knapp. We still said 6 to 12 months for examining the 
rules. We should have our data out publicly before the end of 
the year.
    Mr. Sawyer. Does the rulemaking under the Federal 
procedures is that then subsequent to that step?
    Mr. Knapp. No. No, we would have a proposal out certainly 
within 6 to 12 months.
    Mr. Sawyer. So at least there is something that Mr. Johnson 
can look at and have some hope that he can deal with in a 
reasonable period of time. The answer is yes?
    Mr. Knapp. Yes.
    Mr. Sawyer. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I want to direct my 
questions to Mr. Price, and I do this out of love and 
admiration. I think if you all think through these questions, 
these are the questions that people are asking, and so let us 
go through them. You indicate in your testimony that the 
Department of Defense needs more time, and does that time also 
apply to the Pentagon's own ultrawideband devices?
    Mr. Price. That is a fair question, sir. If you are talking 
about the time on the 6 to 12 months that was just being 
discussed, I would weigh in probably with a counter argument 
that our concern at the Department of Defense is that as we 
understood what the FCC said, and Mr. Tauzin said and a number 
of people have said this, there has been conflicting data. This 
was a case of, ``My study is prettier than your study,'' to 
some extent. There was no hard science, there was no sound 
science. And part of the reason is because you can't measure 
the aggregation effects of ultrawideband devices, a whole bunch 
of them in a particular area, to see how much it raises the 
noise floor if there aren't a whole bunch of them in a 
metropolitan area out there being used as they would in 
commercial settings.
    So I thought the point of the--we thought the point of the 
6 to 12 months was to give the industry a chance to 
commercially deploy--manufacture, sell, deploy devices, get 
them out there, get people playing with them, using them, 
breaking them, getting new ones the way people typically use 
cell phones, other kind of new technologies, and then be able 
to examine the real science, as Mr. Tauzin said, sound testing. 
We agree with that. We are not sure that that can be done 
within the 6- to 12-month period. There won't be enough--our 
concern is there won't be enough devices out there.'' If you 
start the testing today, the devices aren't in widespread use.
    So the first part of the question is in terms of the delay, 
there is no delay. Once the science is out there, we will be 
happy to--we have even said that we would contribute resources 
to help review the test plan, if that would be useful. Because, 
clearly, a strong safe commercial deployment of ultrawideband 
is in the Department's interest.
    As far as the second part of your question, which is, I 
think, whether or not the Department of Defense is going to use 
or be treated the same as commercial, was that the second?
    Mr. Sawyer. Well, you could skew it that way, but the basic 
issue is you do have the technology, you are using it. There 
are military applications, you like it. So if there--I mean the 
other question I was going to follow-up with then is if you 
like it but you are afraid of it interfering with aviation or 
GPS, wouldn't that cause you to be a little bit concerned of 
your own use?
    Mr. Price. Well, our use is typically very constrained. It 
is only in certain places, it is limited in number, limited in 
area and limited in duration. It is on a range, it is in a 
particular place. The concern with--our concern with this 
proceeding was that it was unconstrained, unaggregated, 
unlicensed use.
    Mr. Sawyer. Well, let me ask the panel, because I want to 
go back to the first answer to the first question, because you 
said there is no hard science, and I want to ask the rest of 
the panel, starting with Mr. Gallagher, do you agree that there 
is no hard science on the aggregation effects?
    Mr. Gallagher. I would say that we tested I believe it was 
two devices in an anechoic chamber and built a model based on 
that, but even then they were UWB emitters. They were on loan 
from the companies manufacturing the technology or hoping to--
--
    Mr. Sawyer. So you agree with Mr. Price.
    Mr. Gallagher. I think we need to see real penetration of 
real devices and then test those devices in those settings and 
come up with the truth. And I think that the time to do those 
tests is when they have penetrated into the market.
    Mr. Sawyer. Okay. Let me ask Mr. Shane.
    Mr. Shane. Absolutely, Congressman. The Department of 
Transportation, from the get-go in this proceeding, has been 
arguing for more testing and more specific prototype testing, 
empirical testing in the real world as a basis for making what 
at the end of the day is a national security decision about the 
allocation of a critical piece of our infrastructure--the 
spectrum.
    Mr. Sawyer. That is fine. Let me go to Mr. Knapp. And I 
also follow the great discourse of the chairman, so you kind of 
addressed this in some of your comments, so how would you 
respond to that question?
    Mr. Knapp. I wouldn't agree that there was no hard science, 
I think there was some. This was an issue where we received 
information in our record. It was examined as part of the 
testing. But I think there certainly is a lot more to do. 
Ultrawideband devices are not of one consistent set of 
technical standards. They have different pulse rates and so 
forth, so there are questions about how they would add up.
    Mr. Sawyer. And, Mr. Chairman, if I may finish up the panel 
with this one question, Mr. Petroff?
    Mr. Petroff. Yes. There was much testing done. Chairman 
Powell was quoted as saying there had been more testing done on 
this proceeding than on any other proceeding. DOD's Joint 
Spectrum Center evaluated the different tests, there were four 
of them, and found that all the data basically said the same 
thing, it is just a question of which assumptions were used. 
There are two types of ways these tests are done. One is real-
world testing, and in our case we spent well over $1 million 
with Johns Hopkins and the University of Texas, the two 
foremost GPS testing labs in the country, developing. And then 
there is also what happens after the testing when you do 
assumptions.
    And if you look at these assumptions, they make all the 
difference in the world. Because under some assumptions you can 
run the numbers and you can find that a baby monitor will not 
GPS from 200 miles away. So we need to watch carefully the 
assumptions. And there was aggregate testing done during this. 
So there has been extensive testing this time. I don't know if 
it is the most in FCC history but it has been a lot.
    Mr. Sawyer. And, finally, Mr. Johnson.
    Mr. Johnson. Well, speaking again from a GPR standpoint, I 
think GPR was not tested very extensively at all. Our pulse 
repetition rate is much lower than the area UWB, and I think we 
have got a rough number of maybe 1,000 units working in the 
U.S. already, so we have got units that can be tested today.
    Mr. Sawyer. Thank you, Mr. Chairman. I will just end by 
saying that if we have this interim of 6 to 12 months and we 
come and we don't have an answer to that question, whether the 
stakeholders agree that there has been enough testing or not, 
then we are just going to be back here next year. So I would 
encourage us somehow to get a scientific basis to make these 
public policy decisions, and I yield back my time. Thank you.
    Mr. Upton. Thank you. Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman. Mr. Johnson, I heard you 
in your testimony mention that you noted some surprise that 
several provisions were included in the rule that were not in 
the Notice of Rulemaking. Can you describe those? Which 
provisions were those?
    Mr. Johnson. Two of them in particular. One is the limit of 
types of industries that we can sell to. And, second, the 
coordination where every user has to contact the FCC 15 days 
prior to use. Both of those were a surprise to us.
    Mr. Bass. Mr. Knapp, can you comment on that?
    Mr. Knapp. Yes. The Notice of Proposed Rulemaking had 
several broad questions. Certainly, the waivers that we had 
issued previously included restrictions on use and a 
coordination requirement, and that came essentially from NTIA. 
NTIA's comments that they furnished that were inserted in the 
record requested the coordination requirement.
    Mr. Bass. Mr. Johnson, do you have any rebuttal to that or 
not?
    Mr. Johnson. Well, we didn't look up on the waiver given to 
one company as representative of what the rules were going to 
be, so I think we have a different viewpoint.
    Mr. Bass. Mr. Price, you mentioned that there are not 
enough devices out there to have the full body of evidence for 
interference. Now, if the order places a chill or reduces the 
ability for devices to be created, how can you develop the 
evidence if they can't be created? Don't you have a chicken and 
egg issue here?
    Mr. Price. I wouldn't say so, because I don't think that 
the order places a chill on ultrawideband deployment. I think 
if it is widely available above 3.1 gigahertz and with various 
constraints depending on the type of device and within what 
band. I think if you look at the web sites of the various 
companies and industry analysts, I think the genera consensus 
would be that the FCC's order allowed for ultrawideband 
deployment. This wasn't a case where the FCC or NTIA said no; 
they said yes in these areas. And I think most of the companies 
that certainly we had met with or whose statements we read 
believe that there will be ample deployment of ultrawideband. 
So I think there will be enough science out there but just in 
areas that protect national security systems.
    Mr. Bass. Do either of you gentlemen from industry have any 
comment on that? Do you agree?
    Mr. Johnson. Well, I think, as I have stated, we have been 
out selling systems for some time with no interference, and I 
think that the R&O went a little too far.
    Mr. Petroff. And just to follow-up on that question, I 
think we are of two minds. On the one hand, it was good to get 
something out there, and it will allow some developments. We 
will be able to make lots of our wonderful PAN devices. But I 
do think that the public safety and GPR applications were 
unfairly penalized. There is not enough power there to do the 
kind of work that needs to be done. And, moreover, it sets sort 
of a double standard where Federal public safety will be able 
to use the technology at higher power but State and local will 
not.
    Mr. Bass. I would just like to conclude, Mr. Chairman, by 
associating myself with the comments made by our full committee 
chairman. He said it better than I ever could have said it, and 
I hope the message is clearly received by the agencies 
involved. I would also note I have here the--this is a sales 
brochure for Geophysical Survey Systems in which there is a 
device here on the front called a Pathfinder, obviously 
emitting low-level frequencies, but it also has a computer that 
is connected to GPS; is that not correct? So if there was a 
problem with interference, how well would this device work?
    Mr. Johnson. Yes, sir. We sell systems with both 
differential GPS, which has a one-inch accuracy as long as it 
is picking up six satellites or more, and it is an expensive 
system, $27,000 system, and we also sell systems that will work 
with a $150 GPS system. In both cases, the GPS system is 
working one foot away from the radar system.
    Mr. Bass. Thank you very much, Mr. Chairman.
    Mr. Upton. Mr. Pickering.
    Mr. Pickering. Thank you, Mr. Chairman. I want to thank you 
for giving us the opportunity to address this very important 
issue. Mr. Price, let me ask some questions as we try to strike 
the balance in our policy between the commercial applications 
in development and innovation and investment and our national 
security needs. And we just want to understand the Department 
of Defense's concerns and this goes to the very heart of what 
we are trying, I think, to achieve in the end. If we set a very 
conservative authorization in our first decision, how quickly 
will we have an evolving standard testing and how quickly can 
we move forward on being less restrictive if in fact the 
testing shows that we do not have interference, especially with 
our national security?
    Again, to understand the standard at which we are starting, 
my understanding is that Deputy Secretary of Defense Wolfowitz, 
in his letter to Secretary Evans on November 20, 2001, he took 
a position that approval of UWB be at a power level more than 
2,000 times lower than Part 15. Now, why would DOD take the 
position that UWB be restricted to a power level more than 
2,000 times below the level of billions of other Part 15 
devices that are currently not interfering with GPS and other 
safety-of-life systems?
    Mr. Price. Those devices aren't in the GPS band, sir.
    Mr. Pickering. Okay.
    Mr. Price. So it is a little bit of a different story. The 
concern here is that----
    Mr. Pickering. So is it----
    Mr. Price. I am sorry.
    Mr. Pickering. The question is not so much the power level 
but the band in which they operate.
    Mr. Price. Right. Those devices aren't in the GPS band, so 
we have no problem with those.
    Mr. Pickering. Okay. But even if you are in a separate 
band, why such a conservative approach, 2,000 times?
    Mr. Price. Well, we don't think it was conservative. We 
think the testing showed that it was prudent. UWB energy may 
seem negligible certainly compared to a TV tower or a broadcast 
tower or the business I used to be in, the cell phone business. 
But not to a receiver that is trying to measure a weak signal 
from GPS 12,000 miles away. And especially if you think about 
urban canyons and the like, this is a very sensitive area, and 
the testing showed that even a single UWB device can raise the 
noise floor at a 6-foot separation by 1 DB, causing 26 percent 
sensitivity decreases. So there were real risks to GPS. And the 
point here wasn't to say no, it was just to say that we need to 
protect GPS. If it is outside of the GPS bands, which is the 
particular area we had concerns, and I know other departments 
had other concerns, above 3.1 gigahertz we didn't have a 
problem. In fact, we are looking forward to commercial 
development because it will be cheaper for us to buy COTS 
technology. So we support that. It was just to protect the GPS 
bands.
    Mr. Pickering. Mr. Petroff, your response to that.
    Mr. Petroff. Well, right now there are presently billions 
of consumer devices putting their energy into the GPS bands. 
They are doing this and they have been doing it for 20 years. 
But they are doing it at such a low power level that they are 
virtually undetectable and unnoticed. And this is part of the 
genius of Part 15 that it has allowed so many billions of 
devices to be used in government spectrum and in commercial 
spectrum without any interference. And, indeed, the first time 
I met Mr. Knapp over here, almost 6 years ago, he said, ``If 
you are going to be in Part 15, you have to remember one very 
important rule, and that is you are not allowed to create any 
harmful interference into anybody's band. That is the standard 
that has to be met.'' And all the testing that we have done has 
consistently showed that.
    I want to take issue with Mr. Gallagher on one point. This 
signal is a noise-like signal that is virtually 
indistinguishable from what you see out of a computer. So it is 
very, very close in terms of what its impact is.
    Mr. Pickering. So you would disagree with Mr. Price and Mr. 
Gallagher. You would say that it is not only the power level, 
but you are also operating within GPS bands.
    Mr. Petroff. Yes. There are many, many, dozens, hundreds, 
thousands of consumer devices. There are probably, if you add 
every palm pilot, every laptop, every pocket calculator, all 
these devices I see over here, all of these give off ultra low-
level energy, and many of them put some amount of energy into 
the GPS bands, and they do it on a non-interfering basis, and 
they have been doing it for 20 years.
    Mr. Pickering. Mr. Price, Mr. Gallagher, your defense?
    Mr. Price. I hate to argue with Mr. Petroff because I am 
probably his biggest customer by a factor of 10----
    Mr. Pickering. But not 2,000.
    Mr. Price. I would argue it is probably 2,000, but I 
haven't seen his financial statements. I just know everywhere 
we go in Department of Defense they are testing various 
ultrawideband devices, and for good reason because it is a 
great technology. But I think the argument--the discussion you 
are seeing here is the point. There is no hard science. We 
can't all go to your district and see----
    Mr. Pickering. Would you disagree with Mr. Petroff's 
assertion that there are thousands of devices out there 
operating within GPS bands?
    Mr. Price. I would certainly disagree that there is no 
potential harm to GPS from ultrawideband devices. This 
something-for-nothing argument is one I have trouble buying 
across the board in life, and here as well. If there is an 
emission, there is a danger for interference.
    Mr. Pickering. But what he said, that there are thousands 
of devices operating now, is that true?
    Mr. Price. I would have to take that for the record. I 
don't know the exact number and various----
    Mr. Pickering. But I guess the question is it seems like it 
would be a pretty easy thing to ascertain, to know, do you 
have, Mr. Gallagher, would you say today, thousands of devices 
operate in that band today? Mr. Gallagher?
    Mr. Gallagher. I would say there are no doubt millions, but 
you have to listen very carefully to Mr. Petroff's words.
    Mr. Pickering. Okay. Let me ask, we acknowledge that there 
are now millions of devices operating in that band. So that is 
a fact we----
    Mr. Gallagher. They are not operating, they are emitting 
energy on a spurious or out-of-band basis intermittently. These 
are random signals that are in or out. They are not there a 
million times a second at whatever level we authorize UWB 
operation.
    Mr. Pickering. Let me--one last question, Mr. Chairman. I 
thank you for your time and your patience. Mr. Gallagher, you 
would say that what you and the FCC authorized or your 
recommendations, the FCC's authorization was a starting point. 
We are now trying to get the testing and the penetration and 
the scientific facts and evidence that would allow us to then 
hopefully liberalize over time and evolve over time. Do you 
have a recommendation--does the administration have a 
recommendation as to what your benchmarks are, what your 
timetables are, when should the FCC authorize greater levels or 
begin to permit greater penetration and use of UWB technology?
    Mr. Gallagher. Mr. Pickering, the first thing I would say 
is that, and quoting the chairman of the FCC, is that, ``These 
numbers, these protections can go up or down--we can liberate 
them or we can make them more stringent depending on what the 
facts show us.'' The dial can be turned either way if the facts 
demonstrate that there is a greater risk.
    Mr. Pickering. But when is your benchmark, what is your 
timetable?
    Mr. Gallagher. The benchmark is we need real-life devices 
in consumers' and professional hands which we can test. Now, we 
are understanding from the investor community, from the 
companies that we could see those devices begin to be 
introduced by year-end. We would want to have an adequate 
sampling of those devices arrive at a peer-approved measurement 
plan to do the test in conjunction with the Commission, do our 
own tests, and work with the agencies who have the affected 
systems.
    Mr. Pickering. Would you envision 6 months, 12 months from 
now whether you either liberalize or go more stringent--take a 
more stringent approach? What is your timetable?
    Mr. Gallagher. I think that is a very ambitious timetable. 
I don't expect----
    Mr. Pickering. 6 months, 12 months, 18 months, what would 
you say?
    Mr. Gallagher. Again, I go back, Mr. Pickering, to when the 
time is right, when we have the devices to test, and I don't 
have that today, and I don't control that. When they are 
available, we will of course move expeditiously----
    Mr. Pickering. Don't you think for the industry, for the 
investment that we should have benchmarks, some timetables, 
some certainty in this process?
    Mr. Gallagher. But the industry, in many ways, determines 
the certainty, because we don't have the devices in the 
marketplace yet.
    Mr. Pickering. Now, I am afraid the government is going to 
decide the certainty or the uncertainty, and our role and 
responsibility is to create as much certainty as possible, and 
I would encourage you all to set timetables of when you are 
going to measure and when you will make decisions to either go 
more liberal or more stringent based on the facts. And with 
that, Mr. Chairman, let me yield back.
    Mr. Upton. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. We had a great debate 
in the late 1980's and early 1990's over the transfer of 200 
megahertz of spectrum that was going to be used for the 
creation of something that was called the PCS revolution that 
would move cell phone technology from analog to digital. And at 
that time, Mr. Price, we used to have a two-star general who 
would sit here and tell us what the national security 
consequences would be if we moved over that 200 megahertz. And 
he was adamantly opposed to us doing it, and he let us know 
that. And there was absolutely no way, from his perspective, 
that we could reconcile this private sector/public sector 
tension. And so finally the subcommittee, and then the full 
committee, in 1993, as part of the Budget Act of 1993, we just 
moved over the 200 megahertz. And since then we have had a 
third, fourth, fifth and sixth cell phone license in each one 
of the communities in the country license, a dramatic drop in 
the price, vast millions and billions made by people, Mr. 
Price, who are in the cell phone industry because of that 
decision and a revolution in communications in our country. And 
thus far we have had no accusation that it has undermined 
national security, at least no testimony I have heard.
    And so when we reach this stage once again, different 
people representing the same interests show up to testify. And, 
obviously, this committee has a stake in seeing the further 
advancement of the private application of technology using 
spectrum. And it always reminds me, Mr. Price, of the movie, 
``Indiana Jones and the Raiders of the Lost Ark,'' where this 
relatively low-level person is sent off to find this very 
valuable thing, and finally they return it--Indiana returns it 
to Washington, and the government officials then take it, put 
it inside of a container, nail it down and then put it on a 
forklift and house it in a warehouse, knowing some day, in some 
way they will be able to use it. But, ``Thank you, Mr. Jones. 
We will take it from here.''
    So you have all these private sector companies who have 
identified this incredible valuable resource, they bring their 
testimony here to Washington, they talk about all the marvelous 
things that it can do for our economy, for our economic 
competitiveness, and pretty much they are told, ``Well, that is 
going to be a difficult thing to resolve.'' Of course, it is by 
the same agency that says that it is possible in a minute and a 
half to launch a missile using incredibly sophisticated 
outerspace technology to shoot down a North Korean missile in a 
minute and a half after it has been launched at 2:30 in the 
morning with no notice.
    Now, many scientists say, ``That is impossible,'' and we 
are 20 years into trying to prove that it is possible, that is 
the government who supports this technology, and so far they 
have been able to prove that if the actual incoming test 
missile yells electronically, ``Yoohoo, over here,'' they can 
shoot it down if they are given the exact latitude and 
longitude and time that it will arrive and it is saying, 
``Yoohoo, over here.'' That is where we are with that so far.
    However, when you have an issue like this that it seems has 
a lot of historical analogs in terms of proving that it can 
work, we are told that because of resource problems at FCC or 
NTIA, our lack of coordination between NTIA and FCC working 
with the Defense Department, that it could take a very long 
time to resolve those issues that would have a tangible near-
term benefit for the American public looking for a shot in the 
arm in the sector that we will broadly call the Nasdaq.
    And so while we are not in any way opposed to ensuring that 
we have the maximum amount of security for our country in using 
spectrum-based technologies, we also, because of past 
experience, know that perhaps there are people inside of some 
of these agencies that still have a, we will call it, pre-end-
of-the-Cold-War view of these issues. And they aren't--not 
saying you, Mr. Price, but others to whom you report who might 
not have the technical sophistication. I mean you are here 
because many of those people who are your superiors would be 
afraid to undergo some of the questioning using any one of the 
acronyms that you use so fluently. And so it is those people 
about whom we are talking, those people who we never get to 
testify before our committee.
    So that is what we are concerned about, not your knowledge 
and ability brilliantly to fence with any members of our 
committee or any other people who are here, but it is those who 
are up above who have given you the orders to fence without 
themselves knowing anything about these technologies 
whatsoever. And I say that from long experience with all of 
your superiors that they know almost nothing about it. And it 
is not to denigrate them because they have many other very 
important that they have to work on, but they actually just 
want the status quo to be preserved until the point in time 
when they get enough time to visit these issues, which means 
never, because they never actually have that time. And I 
actually have many opportunities to talk to your superiors, and 
none of them ever knows anything about any of the acronyms 
about which you are speaking about here quite eloquently today.
    So that is the message to you, Mr. Price, that we are 
looking for coordination and specific recommendations for 
resource augmentation from the NTIA and the FCC, and we 
understand that they have to act with some trepidation in 
making those requests because of the enhanced defense budget 
request. Now, we would hope that as part of your increased 
ability to get any resources that you want, Mr. Price, for 
anything that is related to the defense of our country, that 
perhaps part of the request could be to help to resolve this 
other issue, which could then help the civilian economy to move 
forward, because the NTIA and FCC is not as strong a position 
to make those requests as are you.
    So perhaps you could do that, and using your authority, 
your clout, get the money that resolves the technical issues 
and then to share it with these other two agencies in a way 
that telescopes the timeframe that it will take in order to 
ensure that Mr. Petroff and many others here can also see the 
civilian benefits flow to our economy. Does that make sense to 
you, Mr. Price? By the way, are you the winner of the Vito 
Fossella look-a-like contest?
    I mean that is unbelievable. I mean you are--you know, I 
mean I kept thinking Vito is doing a good job today testifying 
down there.
    Mr. Price. I have been called a lot of things. I have never 
been called that before. I think that, first of all, the 
Department of Defense is spending a lot of money in spectrum 
areas. Our budget, and I am actually having people pull 
together the numbers, and when we get it I will send it to you, 
something on the order of hundreds of millions of dollars on 
spectrum-efficient technologies, which I think ultimately, you 
would agree, is one of the ways to solve the problems of the 
spectrum-constrained feeling by both government and non-
government users.
    I would also say I take issue slightly with the point that 
my superiors, who I gather you talk to more than I do, which is 
probably a fair point, don't----
    Mr. Markey. All of your present-day superiors and all of 
their predecessors in their various ideological--they all kind 
of--where you stand depends upon where you sit, and it doesn't 
make any difference who gets the job at any of these Pentagon 
jobs, regardless of the administration, they always take the 
same position.
    Mr. Price. Well, I will commend the current leadership in 
OSD, in the Office of Secretary of Defense, because they 
decided that spectrum was important enough--an important enough 
area to raise it to the Deputy Assistant Secretary level and to 
have somebody, actually it gave me a job, but to create a job 
that is dedicated to spectrum issues. So at least now--and it 
was really something that Dr. Hamre, when he was at the 
Department of Defense, started to raise these issues. So I 
think the fact that spectrum is important, needs expertise, 
needs to be shaped, is something that this administration has 
focused on, and I think we will continue to do that, looking at 
ultrawideband, looking at software-defined radio, some of those 
other things.
    I think it is a little different--the ultrawideband 
scenario is a little different than the 200 megahertz that was 
decided in 1993, but I do take the point that everyone, the 
Department of Defense as well as the commercial interests, do 
need more spectrum. And if there are ways to do that, be it 
sharing or otherwise, or raising noise floors, as long as it 
doesn't constrain national security interests, like GPS, we 
support it, and we think we supported it in this proceeding.
    Mr. Markey. And I appreciate that, and I think that the 
record will note that you did praise your superiors effusively, 
and I think----
    Mr. Price. Thank you.
    Mr. Markey. [continuing] that is absolutely something that 
should be noted. And my hope is that we would find evidence to 
justify that praise as we move forward. And, again, you know 
what, a good example of this whole conflict is even when 
Secretary Rumsfeld says that he doesn't want the crusader 
giganto cannon, he has to be told, ``Mr. Secretary, there are 
limits to your power. You need this cannon, okay?'' And even as 
he says, ``No, I would rather use the same money on more high 
tech, more sophisticated stuff,'' he is being told, ``No, there 
are real pressures here inside of the Army, the Air Force that 
you might not be able to control in terms of the way the 
ultimate process leads to a resolution of the issue.''
    So all we are saying here is that we are cognizant of the 
problem that exists inside the Pentagon, and it is very severe, 
it is ongoing, and it is in fundamental conflict with these 
other agendas which we have for America, which we believe can 
move forward simultaneously, but we need the resources that are 
dedicated to the resolution of the issue, because in the 
absence of that, the status quo ante, the homeostasis of an 
issue then puts all the weight on not moving, and then the rest 
of the agenda is harmed. So I appreciate, Mr. Price, that they 
have named someone with the level of expertise on the subject 
that they have, and my hope is that we can, again, resolve the 
issue in a way using Defense Department money to help the 
civilian economy get a shot in the arm. Thank you, Mr. Price.
    Mr. Upton. Thank you. Would recognize the gentleman from 
Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. And I am sorry that I 
wasn't here earlier. Like you, I chaired a committee this 
morning for about 3 hours, so we just finished up, but I did 
want to get down here, obviously to pay my respects but also 
the staff who sat in during this morning's hearing indicated 
there were two questions that were not asked that I might ask, 
and these are for Mr. Shane, who is with the Department of 
Transportation.
    Mr. Shane, these questions are--the first one is I 
understand the Department of Transportation in a report by the 
Volpe Center determined that GPS is not robust enough for 
critical commercial aircraft use. And, further, Boeing is 
working on next-generation GPS, including increasing the 
transmit power for GPS, decreasing the self-interference of the 
GPS signals and adding more channels. So the question is are 
not the concerns with GPS overblown, given that the signal is 
going to be strengthened to such a great degree or are they not 
overblown? So I think that is the question.
    Mr. Shane. Thank you for the question, Congressman. I think 
the concerns about GPS are not overblown. GPS has not been 
strengthened. Both civilian and military applications are 
absolutely essential to our national security right now, and I 
am happy to report that as far as I can tell from the R&O there 
isn't a GPS problem in the FCC's decision, that the FCC and 
NTIA took the concern about GPS very seriously, and that is one 
of the issues that nobody is arguing about right now. So it 
seems to me that that question has been mooted by the R&O, the 
Report and Order issues by the FCC.
    Mr. Stearns. Anyone else like to comment? No? Mr. Shane, 
you indicate in your testimony that, ``There is no substitute 
for hard data, stringent analyses and validation by test.'' You 
also expressed a lot of concern that UWB devices could 
interfere with critical aviation systems, but where is the hard 
data to support that and validation by tests?
    Mr. Shane. That is in fact our question, where is the hard 
data to support any final decision with respect to the 
deployment of----
    Mr. Stearns. No, but you have indicated a concern that 
these devices could interfere with critical aviation systems. 
How do you know that?
    Mr. Shane. Well, the burden should not be on those who are 
responsible for maintaining critical safety-of-life 
applications in spectrum.
    Mr. Stearns. No, but if you make a claim, then you should 
be able to substantiate or corroborate your claim.
    Mr. Shane. I don't want to substantiate it. I want to 
substantiate the fact that UWB equipment can be deployed 
without any harm to the spectrum. That is our interest. We are 
interested in this technology. The problem is there simply is 
no prototype, not sufficient prototypes available, and this has 
been the consensus within the panel, to support the kind of 
empirical testing that we could rely upon with real confidence 
before liberalizing the content of the FCC's Report and Order.
    I don't think we really--there is no difference among any 
of the agencies that have participated about whether or not we 
need more empirical testing. This is not just the Department of 
Transportation. This has been a problem. The NTIA had a very 
difficult job in this case, and it has done a magnificent job, 
I think, in pulling together different threads of interest from 
different agencies in the commercial sector and making 
recommendations to the FCC, which it has adopted, for purposes 
of getting this technology launched. Now the question is, is it 
launched with only a baby step, as someone said earlier today? 
Should we be liberalizing the rules? This is a brochure put out 
by the Federal Highway Administration, one of our agencies. It 
supports ground penetrating radar for the use of measuring the 
quality of pavement in our highways. We have talked earlier 
today about the importance of GPR for bridge quality and a 
whole host of other transportation applications. We are 
interested in this technology, we want it deployed, that is 
what the Department of Transportation is about. The only issue 
here is whether or not there is sufficient science right now to 
say that we can deploy it without the kinds of limits that the 
FCC and NTIA have agreed upon. Nobody at this table knows the 
answers to that as we sit here today, and all we seek is to 
find out that answer as quickly as possible.
    Mr. Stearns. I understand. Okay. Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Stearns. Gentlemen, we 
appreciated your testimony. I can assure you that we are going 
to continue to look at this issue. We are going to have a 
number of multiple hearings over the next number of months, and 
we welcome your input and your thoughts on the whole range of--
the whole spectrum of issues. Thank you.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                             Penetradar Corporation
                                    Niagara Falls, New York
                                                       June 3, 2002
The Honorable Eliot L. Engel
United States Congress
Washington, DC Office
2303 Rayburn HOB
Washington, DC 20515

RE: The FCC's UWB Proceeding: An Examination of the Government's 
Spectrum Management Process

    Dear Congressman Engel: In reference to the June 5, 2002 meeting of 
the Subcommittee on Telecommunications and the Internet hearings we 
would like to request your assistance in expressing our concerns to the 
FCC and NTIA in regard to the recent FCC Revision of Part 15 of the 
Commission's Rules Regarding Ultra-Wideband (UWB) Transmission Systems, 
FCC 02-48 Released April 22, 2002.
    Penetradar Corporation is a small, high-technology business located 
in Niagara Falls, New York, involved in the manufacture and use of 
Ground Penetrating Radar (GPR) systems. GPR's are a special class of 
radar system designed to penetrate solid materials, such as soil or 
concrete and our products and services are used in a multitude of 
engineering as well as public safety related applications, ranging from 
bridge deck and highway pavement condition evaluation to detection of 
subsurface hazardous spills. The new FCC ruling, FCC 02-48, which 
restricts the domestic sale and use of Ground Penetrating Radar devices 
will effectively shut-down our company and many other small businesses 
in our industry that manufacture and/or use this technology. The result 
of this will be the loss of hundreds of jobs and ultimately the loss of 
an industry of which the United States presently leads the world.
    We are quite concerned with the affect that the new rules will have 
and believe that time is critical.Although the FCC has indicated that 
the new part 15 rules represent a very conservative approach to dealing 
with UWB and has promised to revisit this issue in the next 6 to 12 
months, with the new rules becoming law in mid-July it is unrealistic 
to believe that there will be a GPR industry remaining by this time the 
ruling is reviewed.
    In our recent meetings with the FCC and NTIA, we have found the 
NTIA to be adverse to the GPR industry citing hypothetical cases of 
potential interference with government systems and GPS receivers. In 
over 30 years of GPR usage, there has never been a reported instance of 
interference caused by any GPR device on any other user of the 
frequency spectrum. The interference potential of GPR is negligible as 
its intent is to propagate signals into the ground and not into the 
air. Further, the proliferation of GPR devices is low, with no more 
than a total of 1000 units industry wide operating in the United 
States.
    We have reviewed NTIA publications 01-43 and 01-45 which are 
analyses conducted on the compatibility of UWB devices on federal 
systems and GPS, and are the basis for the new FCC rules. We believe 
that the NTIA analyses are based upon improper assumptions of ``worst 
case''' scenarios, all of which cannot or will not occur in situ.\1\ 
When operated in a normal manner GPR's will never pose an interference 
problem and to summarily eliminate an entire industry and ultimately 
compromise public safety for hypothetical and unrealistic scenarios 
proposed by the NTIA would not be in the public interest.
---------------------------------------------------------------------------
    \1\ For example, one NTIA analysis assumes large numbers of GPR's 
operating in close proximity to an E911 GPS receiver at separation 
distances of approximately 2 meters and at elevations of 3 meters, 
thereby resulting in interference. This ignores the fact that GPR's are 
typically used individually--not in large numbers in one area, and are 
in contact (or within a few inches) of the ground and not operated at 3 
meters in height where the GPS receiver may be located. In normal 
operation, the hypothetical NTIA operational scenario would not be 
possible.
    In another example, the NTIA proposed the possibility of 
interference between a UWB device and Air Route Surveillance Radar 
(ARSR-4), a high power, surveillance radar with sufficient radiated 
power to literally overload and destroy any nearby device receiving in 
its frequency band. This analysis was not conducted using an actual GPR 
but rather signals were simulated and tests performed with the ARSR-4 
transmitter off, thereby eliminating its own normal clutter 
interference and antenna cross talk, which are greater than low level 
GPR emissions. We do not believe this to be a realistic analysis but 
rather one that was improperly designed.
---------------------------------------------------------------------------
    In the past, GPR has been supported, used and in fact developed by 
governmental agencies such as the DOD, for land mine detection and DOT 
for bridge deck, pavement and runway inspection. The GPR industry has 
provided critical products and services that have enhanced public 
safety and have been used in the development and preservation of the 
nation's infrastructure. Typical application of GPR includes highway 
pavement and airport runway condition evaluation for the detection of 
voids and sinkholes prior to collapse, on bridge decks, parking garages 
and tunnels to determine the condition of concrete and structural 
safety, inspection of integrity of nuclear containment facilities, 
power plants and buildings, detection of underground utilities such as 
gas and electrical lines, detection of underground chemical spills and 
for law enforcement in forensic investigations.
    Attached is a separate statement describing the particular points 
in the new rules which have created considerable consternation to our 
company and much of the GPR industry. I am hopeful that you will be 
able to address our concerns in the upcoming Subcommittee on 
Telecommunications and the Internet and that you will support our 
position.
    Thank you in advance for your assistance.
            Sincerely,
                                          Anthony J. Alongi
                                                          President
cc: Addressed to Congressman Vito J. Fossella
                                 ______
                                 
                                                       May 30, 2002
Honorable Fred Upton
Chair, Subcommittee on Telecommunications and the Internet
The Committee on Energy and Commerce
United States House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515
    Dear Chairman Upton: Thank you for the opportunity to testify 
before your subcommittee. Ultra wideband technology will allow for 
radio spectrum efficiency and development of such devices as through 
the wall radar, ground penetrating radar, and new wireless technology 
that are much faster than the current Blue tooth technology. The 
Federal Communications Commission approved ultra wideband at power 
levels significantly lower than originally requested. While this power 
level is minimally sufficient to operate certain devices, others will 
not operate at all.
    Public Safety's, First Responders need power levels that will allow 
for through the wall radar systems and ground penetrating radar systems 
to work efficiently and safely. These through the wall radar detection 
units need to be remotely activated in most cases. Ultra wideband 
technology will allow a Fire Fighter to use a Video Image Display piece 
to display maps and other critical information such as location 
technology, personnel body telemetry's and equipment status information 
onto the mask of his self contained breathing apparatus.
            Very truly yours,
     Richard C. Nowakowski, Coordinator of Special Projects
 City of Chicago, Office of Emergency Management and Communications

    On August 28, 2001, Chicago Police Detective Joseph Airhart Jr., 
was assigned to a Federal Bank Robbery Task Force that was serving a 
warrant on a suspected bank robber. Detective Airhart posed as delivery 
man and knocked on the suspects' door. When the suspect answered the 
door, he shot Detective Airhart in the head and dragged him into the 
apartment. Assisting officers were held at bay as the offender 
continued to fire and dragged the seriously wounded detective behind a 
wall. Daniel Salley also held his wife and two small children in the 
apartment, and out of sight of backup officers. After a two-hour 
standoff, Salley agreed to let paramedics remove the detective. Today, 
Detective Joe Airhart is still hospitalized and remains in serious 
condition suffering from seizure attributed to his head and brain 
injuries.
    Had the Chicago Police Departments, Hostage and Barricade Team been 
equipped with remote through the wall radar devices they may have been 
able to secure a faster release of the injured detective and arrest of 
the suspect.
    We welcome the February 14, 2002, ruling of the Federal 
Communications Commission on ultra wideband technology as a great first 
step. We applaud the long and arduous work of the Commission and 
National Telecommunications and Information Administration in their 
technical analysis of UWB, and also respect those companies, agencies, 
institutions and individuals that submitted comments.
    Public safety needs UWB as a tool in their arsenal. Through the 
wall radar that utilizes UWB needs to deployed and remotely operated in 
most Police usages, while miniature units mounted on Fire Fighters 
helmets need to be on constant during primary and secondary searches of 
structures. Power levels need to be of sufficient strength to penetrate 
through several layers and at distances of 20 to30 feet.
    A Fire Fighter responds and prepares to enter a structure. He dons 
his SCBA (Self Contained Breathing Apparatus) and enters the building. 
His SCBA immediately begins a system of tracking his location in the 
building and overlays a small (you are here type) dot onto a digital 
floor plan of the building (provided be the OEMC, Office of Emergency 
Management and Communications) and then transmits the images to a heads 
up, translucent display screen in the masks' face piece. The heads up 
display will also show the level of air in the SCBA Bottle. As the Fire 
Fighter makes his way through the building, his Motorola XTS5000 
portable radio will be leaving the equivalent of digital breadcrumbs 
that can be tracked. As he enters a room, he turns and scans a 360-
degree area while utilizing a helmet mounted UWB device that will 
penetrate walls and doors and display the images behind. Body acoustic 
sensors will monitor the firefighter's telemetry and report back on his 
physical condition. UWB will provide short range communications systems 
that will allow mobility and high data rates in order to facilitate 
information sharing with this Virtual Fire Fighter. This Fire Fighter 
must work unencumbered by hand-held devices as he searches, therefore 
it is important that UWB devices used by Public Safety be free from any 
requirement that mandates contact points on devices.
    Licensing of these UWB devices under Part 90 to Public Safety 
Agencies will allow strict regulations and provide remedies if 
interference is experienced. These devices must also be free to operate 
in broad, pre-approved geographic areas. The operation of these devices 
would be limited in duration and any interference caused would be 
minimized, easily detected and corrected.

</pre></body></html>
